<html>
<title> - ASSESSING THE GOALS, SCHEDULE, AND COSTS OF THE GLOBAL NUCLEAR ENERGY PARTNERSHIP</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                     ASSESSING THE GOALS, SCHEDULE,
                        AND COSTS OF THE GLOBAL
                       NUCLEAR ENERGY PARTNERSHIP

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 6, 2006

                               __________

                           Serial No. 109-44

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science



                    U.S. GOVERNMENT PRINTING OFFICE
26-799                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001
                                 ______


                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              DARLENE HOOLEY, Oregon
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         DANIEL LIPINSKI, Illinois
W. TODD AKIN, Missouri               SHEILA JACKSON LEE, Texas
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California
J. RANDY FORBES, Virginia            BRIAN BAIRD, Washington
JO BONNER, Alabama                   JIM MATHESON, Utah
TOM FEENEY, Florida                  JIM COSTA, California
RANDY NEUGEBAUER, Texas              AL GREEN, Texas
BOB INGLIS, South Carolina           CHARLIE MELANCON, Louisiana
DAVE G. REICHERT, Washington         DENNIS MOORE, Kansas
MICHAEL E. SODREL, Indiana           VACANCY
JOHN J.H. ``JOE'' SCHWARZ, Michigan
MICHAEL T. MCCAUL, Texas
MARIO DIAZ-BALART, Florida
                                 ------                                

                         Subcommittee on Energy

                     JUDY BIGGERT, Illinois, Chair
RALPH M. HALL, Texas                 MICHAEL M. HONDA, California
CURT WELDON, Pennsylvania            LYNN C. WOOLSEY, California
ROSCOE G. BARTLETT, Maryland         LINCOLN DAVIS, Tennessee
VERNON J. EHLERS, Michigan           JERRY F. COSTELLO, Illinois
W. TODD AKIN, Missouri               EDDIE BERNICE JOHNSON, Texas
JO BONNER, Alabama                   DANIEL LIPINSKI, Illinois
RANDY NEUGEBAUER, Texas              JIM MATHESON, Utah
BOB INGLIS, South Carolina           SHEILA JACKSON LEE, Texas
DAVE G. REICHERT, Washington         BRAD SHERMAN, California
MICHAEL E. SODREL, Indiana           AL GREEN, Texas
JOHN J.H. ``JOE'' SCHWARZ, Michigan      
SHERWOOD L. BOEHLERT, New York       BART GORDON, Tennessee
               KEVIN CARROLL Subcommittee Staff Director
          DAHLIA SOKOLOV Republican Professional Staff Member
           CHARLES COOKE Democratic Professional Staff Member
                    MIKE HOLLAND Chairman's Designee
                     COLIN HUBBELL Staff Assistant


                            C O N T E N T S

                             April 6, 2006

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Judy Biggert, Chairman, Subcommittee 
  on Energy, Committee on Science, U.S. House of Representatives.    22
    Written Statement............................................    23

Statement by Representative Michael M. Honda, Ranking Minority 
  Member, Subcommittee on Energy, Committee on Science, U.S. 
  House of Representatives.......................................    25
    Written Statement............................................    26

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Subcommittee on Energy, Committee on Science, U.S. 
  House of Representatives.......................................    27

Prepared Statement by Representative Lincoln Davis, Member, 
  Subcommittee on Energy, Committee on Science, U.S. House of 
  Representatives................................................    28

Prepared Statement by Representative Sheila Jackson Lee, Member, 
  Subcommittee on Energy, Committee on Science, U.S. House of 
  Representatives................................................    28

                               Witnesses:

Mr. R. Shane Johnson, Deputy Director for Technology, Office of 
  Nuclear Energy Science and Technology, Department of Energy
    Oral Statement...............................................    30
    Written Statement............................................    31
    Biography....................................................    34

Dr. Neil E. Todreas, Kepco Professor of Nuclear Engineering; 
  Professor of Mechanical Engineering, Massachusetts Institute of 
  Technology
    Oral Statement...............................................    35
    Written Statement............................................    36
    Biography....................................................    42
    Financial Disclosure.........................................    43

Dr. Richard L. Garwin, IBM Fellow Emeritus, Thomas J. Watson 
  Research Center, Yorktown Heights, NY
    Oral Statement...............................................    44
    Written Statement............................................    45
    Biography....................................................    59
    Financial Disclosure.........................................    60

Mr. David J. Modeen, Vice President, Nuclear Power; Chief Nuclear 
  Officer, Electric Power Research Institute
    Oral Statement...............................................    60
    Written Statement............................................    63
    Biography....................................................    70
    Financial Disclosure.........................................    72

Discussion.......................................................    73

             Appendix 1: Answers to Post-Hearing Questions

Mr. R. Shane Johnson, Deputy Director for Technology, Office of 
  Nuclear Energy Science and Technology, Department of Energy....    92

Dr. Richard L. Garwin, IBM Fellow Emeritus, Thomas J. Watson 
  Research Center, Yorktown Heights, NY..........................    96

Mr. David J. Modeen, Vice President, Nuclear Power; Chief Nuclear 
  Officer, Electric Power Research Institute.....................    98

             Appendix 2: Additional Material for the Record

Statement by Harold F. McFarlane, President-Elect, American 
  Nuclear Society................................................   104


 ASSESSING THE GOALS, SCHEDULE, AND COSTS OF THE GLOBAL NUCLEAR ENERGY 
                              PARTNERSHIP

                              ----------                              


                        THURSDAY, APRIL 6, 2006

                  House of Representatives,
                            Subcommittee on Energy,
                                      Committee on Science,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Judy L. 
Biggert [Chairwoman of the Subcommittee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                         SUBCOMMITTEE ON ENERGY

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                     Assessing the Goals, Schedule,

                        and Costs of the Global

                       Nuclear Energy Partnership

                        thursday, april 6, 2006
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Thursday, April 6, 2006, the Energy Subcommittee of the House 
Committee on Science will hold a hearing to examine the goals, 
schedules and costs of the advanced fuel cycle technologies research 
and development (R&D) program in the Administration's Global Nuclear 
Energy Partnership (GNEP) proposal.

2. Witnesses

Mr. Shane Johnson, Deputy Director for Technology, Office of Nuclear 
Energy Science and Technology, Department of Energy

Dr. Neil Todreas, Kepco Professor of Nuclear Engineering and Professor 
of Mechanical Engineering, Massachusetts Institute of Technology

Dr. Richard Garwin, IBM Fellow Emeritus, Thomas J. Watson Research 
Center, Yorktown Heights, NY

Mr. David Modeen, Vice President, Nuclear Power and Chief Nuclear 
Officer, Electric Power Research Institute

3. Overarching Questions

        <bullet>  Is the R&D program envisioned by GNEP likely to be an 
        effective approach to get us to an advanced nuclear fuel cycle 
        that minimizes waste and ensures the long-term sustainability 
        of nuclear power?

        <bullet>  Are the proposed timelines for technology 
        demonstration and deployment realistic? Do we know enough to 
        build three major demonstration facilities in the next ten 
        years?

        <bullet>  What are the cost estimates for GNEP and are they 
        realistic?

        <bullet>  If GNEP were successful, how would the domestic 
        nuclear energy landscape change?

4. Brief Overview

        <bullet>  Nuclear reactors generate about 20 percent of the 
        electricity used in the U.S. No new nuclear plants have been 
        ordered in the U.S. since 1973, but there is renewed interest 
        in nuclear energy both because it could reduce U.S. dependence 
        on foreign oil and because it produces no greenhouse gas 
        emissions.

        <bullet>  One of the barriers to increased use of nuclear 
        energy is concern about nuclear waste. Every nuclear power 
        reactor produces approximately 20 tons of highly radioactive 
        nuclear waste every year. Today, that waste is stored on-site 
        at the nuclear reactors in water-filled cooling pools or, at 
        some sites, after sufficient cooling, in dry casks above 
        ground. About 50,000 metric tons of commercial spent fuel is 
        being stored at 73 sites in 33 states. A recent report issued 
        by the National Academy of Sciences concluded that this stored 
        waste could be vulnerable to terrorist attacks.

        <bullet>  Under the current plan for long-term disposal of 
        nuclear waste, the waste from around the country would be moved 
        to a permanent repository at Yucca Mountain in Nevada, which is 
        now scheduled to open around 2012. The Yucca Mountain facility 
        continues to be a subject of controversy. But even if it opened 
        and functioned as planned, it would have only enough space to 
        store the nuclear waste the U.S. is expected to generate by 
        about 2010.

        <bullet>  Consequently, there is growing interest in finding 
        ways to reduce the quantity of nuclear waste. A number of other 
        nations, most notably France and Japan, ``reprocess'' their 
        nuclear waste. Reprocessing involves separating out the various 
        components of nuclear waste so that a portion of the waste can 
        be recycled and used again as nuclear fuel (instead of 
        disposing of all of it). In addition to reducing the quantity 
        of high-level nuclear waste, reprocessing makes it possible to 
        use nuclear fuel more efficiently. With reprocessing, the same 
        amount of nuclear fuel can generate more electricity because 
        some components of it can be used as fuel more than once.

        <bullet>  Experts on nuclear energy have suggested that if the 
        United States is to expand the use of nuclear power, it will 
        have to develop an advanced fuel cycle that involves 
        reprocessing spent fuel and ``transmutation'' of some of the 
        most radioactive waste components in special reactors called 
        ``burner'' or ``fast'' \1\ reactors that change, or 
        ``transmute,'' some of the most radioactive elements into less 
        radioactive elements.
---------------------------------------------------------------------------
    \1\ ``burner'' refers to the fact that these reactors consume (or 
``burn'') highly radioactive spent fuel components and ``fast'' refers 
to the fact that these reactors involve high temperature (and, 
therefore, fast moving) neutrons. Fast neutrons can produce nuclear 
reactions that change, or ``transmute,'' some highly radioactive 
elements into less radioactive elements.

        <bullet>  During last year's appropriations process, the House 
        Appropriations Subcommittee on Energy and Water expressed the 
        view,\2\<SUP>,</SUP>\3\ that DOE must accelerate the 
        development and demonstration of reprocessing technology to 
        enable the development and deployment of an advanced fuel cycle 
        for nuclear power reactors in the U.S.
---------------------------------------------------------------------------
    \2\ The report accompanying H.R. 2419, the Energy and Water 
Development Appropriations Act for Fiscal Year 2006, which the House 
passed in May 2005, directed DOE to focus research in its Advanced Fuel 
Cycle Initiative program on improving nuclear reprocessing 
technologies. The report went on to state, ``The Department shall 
accelerate this research in order to make a specific technology 
recommendation, not later than the end of fiscal year 2007, to the 
President and Congress on a particular reprocessing technology that 
should be implemented in the United States. In addition, the Department 
shall prepare an integrated spent fuel recycling plan for 
implementation beginning in fiscal year 2007, including recommendation 
of an advanced reprocessing technology and a competitive process to 
select one or more sites to develop integrated spent fuel recycling 
facilities.''
    \3\ During Floor debate on H.R. 2419, the House defeated an 
amendment that would have cut funding for research on reprocessing. In 
arguing for the amendment, its sponsor, Mr. Markey, explicitly raised 
the risks of weapons proliferation. Specifically, the amendment would 
have cut funding for reprocessing activities and interim storage 
programs by $15.5 million and shifted the funds to energy efficiency 
activities, effectively repudiating the report language. The amendment 
was defeated by a vote of 110-312.

        <bullet>  On February 6, the Administration announced the 
        Global Nuclear Energy Partnership as part of its fiscal year 
        2007 (FY07) budget request. According to the Administration, 
        the vision for GNEP is to provide for the safe and extensive 
        expansion of nuclear power worldwide, while addressing nuclear 
        weapons proliferation and waste management concerns. GNEP has 
---------------------------------------------------------------------------
        two main components:

                1.  the development of a domestic advanced nuclear fuel 
                cycle that includes reprocessing and ``transmutation'' 
                of the most highly radioactive waste components into 
                less radioactive elements; and

                2.  the establishment of an international framework for 
                the selling and leasing of nuclear fuel and reactor 
                technologies.

        <bullet>  The component of GNEP that is the subject of this 
        hearing, the development of an advanced nuclear fuel cycle for 
        use by the domestic commercial nuclear power industry, has the 
        potential to significantly reduce both the volume and the 
        radioactivity of nuclear waste produced by commercial power 
        reactors. Successful deployment of an advanced fuel cycle could 
        reduce nuclear waste from electricity generation to the extent 
        that the Yucca Mountain geological waste repository would be 
        sufficient to store most, if not all, of the waste expected to 
        be produced by commercial power reactors during the next 100 
        years. Without an advanced fuel cycle, continued use of nuclear 
        power would require the construction and licensing of several 
        more geological waste repositories like Yucca Mountain.

        <bullet>  Under the GNEP, the Administration is proposing to 
        build and operate three major new advanced fuel cycle 
        technology demonstration facilities within ten years--

                1.  a UREX+ nuclear fuel reprocessing facility (UREX+ 
                is an advanced nuclear fuel reprocessing technology 
                that works in the laboratory but that has not yet been 
                tested on a sufficient scale to demonstrate its 
                feasibility);

                2.  an Advanced Burner Reactor (ABR), a specialized 
                nuclear reactor (in this case, a sodium-cooled fast 
                reactor) designed to ``transmute'' highly radioactive 
                nuclear waste components into to less radioactive 
                elements; and

                3.  an Advanced Fuel Cycle Facility (AFCF), a 
                specialized R&D and test facility to develop and test 
                reprocessed nuclear fuels produced by the UREX+ process 
                to be used in the ABR.

        <bullet>  Questions remain as to the scale and cost of these 
        facilities (current estimate of construction costs alone is $4 
        billion over ten years to build all three demonstration 
        facilities), the reasonableness of the proposed timeline, and 
        the fundamental R&D that still must be carried out to make 
        these demonstrations successful.

        <bullet>  In particular, Energy Subcommittee Chairman Judy 
        Biggert, in a conversation with Deputy Secretary of Energy Clay 
        Sell last year, asked DOE to conduct a complete systems 
        analysis the of the anticipated fuel cycle, and the R&D steps 
        necessary to implement it. (A systems analysis involves an 
        integrated analysis and modeling of all the components of a an 
        advanced fuel cycle--commercial power reactors, reprocessing 
        technologies and facilities, Advanced Burner Reactors, and 
        waste disposal technologies and facilities--, how all of the 
        components would interact as a system, and how technology 
        choices related to any one component would affect other 
        elements of the system.) In addition, Section 955 of the Energy 
        Policy Act of 2005 requires DOE to do a survey of the civilian 
        nuclear infrastructure and facilities in the national 
        laboratory system. Neither of these efforts has been completed.

5. Issues

Do we know enough to build each of these three major demonstration 
        facilities?
    Science and engineering related to advanced fuel cycle technologies 
have not advanced much in the last 30 years because, until quite 
recently, it has been U.S. policy not to pursue reprocessing of spent 
nuclear fuel. Consequently, many fundamental questions remain in the 
areas of chemistry, materials and physics related to fuel recycling 
(reprocessing and ``transmutation'') and advanced waste management.
    These questions can be addressed, in part, through the development 
of sophisticated molecular-scale computer models, but all models have 
to be validated empirically (both in the lab and through engineering 
scale demonstrations) to be useful. According to some experts, neither 
the computer models, nor the experiments required to validate them, 
have been developed to an extent sufficient to address the outstanding 
science and engineering questions related to advanced fuel cycle 
technologies. The Basic Energy Sciences Office (BES) of the DOE Office 
of Science is planning the second in a series of workshops\4\ on the 
advanced fuel cycle this coming summer. The second workshop will focus 
specifically on the R&D required to support GNEP. To what extent will 
or should the results of this workshop influence the timeline for 
technology demonstrations?
---------------------------------------------------------------------------
    \4\ In September 2005, the Basic Energy Sciences Office (BES) of 
the DOE Office of Science hosted a workshop entitled The Path to 
Sustainable Nuclear Energy: Basic and Applied Research Opportunities 
for Advanced Fuel Cycles. Workshop participants identified several 
science and engineering challenges that must be overcome in the course 
of developing advanced fuel cycle technologies.
---------------------------------------------------------------------------
Are the proposed timelines for technology demonstration and deployment 
        realistic?
    The proposed timeline calls for all three demonstration 
facilities--the UREX+ reprocessing facility, the Advanced Burner 
Reactor (ABR), and the Advanced Fuel Cycle Facility (AFCF)--to be built 
and operational in approximately the next ten years, at a total 
estimated construction cost of at least $4 billion. The current budget 
request for these activities is $250 million, meaning construction 
costs alone would require the budget to almost double over the next 
decade. There are also R&D activities that will need to be done to feed 
into the design and construction activities. In addition, there is 
another large demonstration elsewhere in the nuclear energy R&D 
program, the Next Generation Nuclear Plant, that is legally required to 
be operational by 2021 and is likely to compete for funding.
    If resources are constrained, is there a logical way to sequence 
these activities? If an advanced fuel cycle were in commercial 
operation, reprocessing would precede fuel fabrication and its use in 
special reactors (``burner'' or ``fast'' reactors, such as the ABR) 
that are necessary to recycle the fuel. But experts say that the 
benefits of the advanced fuel cycle are dependent on the success of the 
ABR, which, in turn, may first require the construction and operation 
of the AFCF.

Are the cost estimates for GNEP realistic?
    Many of the parameters of the research program and the 
demonstration facilities have not yet been determined, making current 
cost estimates unreliable. According to testimony given by Deputy 
Secretary of Energy Clay Sell before the Senate Appropriations 
Committee on March 2, the Department ``will be looking for a sizeable 
portion of GNEP costs to be shared by [their] partners and industry 
starting in FY 2008.'' How interested is industry in cost-sharing and 
what level of commitment is DOE counting on?

How does the nuclear industry view GNEP?
    Key players in the nuclear future, most notably industry and the 
Nuclear Regulatory Commission (NRC) were not at the table during the 
development of GNEP. Some in industry and in Congress are concerned 
that GNEP will distract from licensing and building new nuclear power 
plants and the Yucca Mountain repository in the next 5-10 years. The 
Electric Power Research Institute (EPRI), representing all of the 
nuclear-owning utilities, issued a draft ``Consensus Strategy for U.S. 
Government and Industry'' (Appendix A). In short, EPRI identifies 
industry priorities and R&D goals that do not seem entirely aligned or 
complementary to the R&D goals outlined in GNEP.

If GNEP were successful, how would the domestic nuclear energy 
        landscape change?
    The U.S. Government heavily subsidized the nuclear industry to get 
it to where it is today. Utilities building new nuclear power plants 
over the next several years will also have access to federal subsidies 
and risk insurance, but they will own, operate and safeguard the 
plants. There is little disagreement that an advanced fuel cycle will 
be much more expensive than the once-through fuel cycle currently in 
use. What happens if industry isn't willing to build, buy or operate 
any of the technologies of the advanced fuel cycle? Is the public 
benefit large enough that the government should pay the entire bill?
Workforce needs.
    One issue that several experts have brought up is that of the 
scientific and engineering workforce necessary for the future of 
nuclear power. The Administration has proposed zeroing its University 
support program (housed in the Nuclear Energy Office) in FY07, claiming 
that the goals of the program have been met in terms of the number of 
undergraduate students enrolled in nuclear engineering programs. There 
is some disagreement over which numbers are relevant. The number of 
students graduating from these programs, in addition to the number of 
masters and doctoral students, has actually declined in recent years. 
This does not appear to bode well for an expanded domestic nuclear 
industry.

6. Background

Current U.S. Practice: The open fuel cycle
    Current U.S. nuclear technology uses what is called an ``open fuel 
cycle,'' also known as a ``once-through cycle'' because the nuclear 
fuel only goes through the reactor one time before disposal, leaving 
most of the potential energy content of the fuel unused. In an open 
cycle, the uranium is mined and processed, enriched,\5\ and packaged 
into fuel rods, which are then loaded into the reactor. In the reactor, 
some of the uranium atoms in the fuel undergo fission, or splitting, 
releasing energy in the form of heat, which in turn is used to generate 
electricity. Once the fission efficiency of the uranium fuel drops 
below a certain level, the fuel rods are removed from the reactor as 
spent fuel.
---------------------------------------------------------------------------
    \5\ The enrichment process increases the ratio of the 
<SUP>235</SUP>U isotope relative to the <SUP>238</SUP>U isotope. 
Uranium ore contains less than one percent <SUP>235</SUP>U by weight 
and only <SUP>235</SUP>U is fissionable. Low-enriched uranium for 
light-water reactors typically contains 3-4 percent <SUP>235</SUP>U.
---------------------------------------------------------------------------
    Spent fuel contains approximately 95 percent uranium by weight.\6\ 
The remaining five percent consists of other radioactive elements, 
including plutonium, which accounts for one percent of the total spent 
fuel.\7\ The radioactivity of the spent fuel means that it still 
generates a lot of heat, so after removal, the spent fuel rods are 
cooled in deep, water-filled pools. After sufficient cooling (typically 
3-5 years), the fuel rods may be transferred to dry cask storage 
pending ultimate disposal at a geologic waste repository such as Yucca 
Mountain. Often they are just left in the cooling pools while awaiting 
disposal.
---------------------------------------------------------------------------
    \6\ The percentage of <SUP>235</SUP>U in spent fuel is only 
slightly higher than the naturally occurring level; however, other 
isotopes of uranium in the spent fuel must be removed before the 
uranium can be re-enriched into usable fuel.
    \7\ Four percent of the spent fuel consists of fission products 
(elements that result from splitting the Uranium--primarily Strontium, 
Cesium, Iodine, Technetium and elements in a series known as the 
Lanthanides) and transuranics (elements greater than Uranium that 
result from the capture of neutrons, including Plutonium, Neptunium, 
Americium and Curium). The fission products and transuranics have half-
lives ranging from a few days to millions of years. The ``half-life'' 
of a radioactive substance is the period of time required for one-half 
of a given quantity of that substance (e.g., plutonium) to decay either 
to another isotope of the same element, or to another element 
altogether. The substances with shorter half-lives tend to generate 
more heat.
---------------------------------------------------------------------------
    The repository at Yucca Mountain will effectively be full by the 
year 2010 with the spent fuel from the current fleet of reactors. As 
the industry looks to extend the operational lifetime of existing 
nuclear power plants while beginning the process of getting new plants 
designed and built, current waste management policies and statutes 
deserve to be reexamined. The options are:

        <bullet>  increase the statutory storage capacity of Yucca 
        Mountain to its technical limit (approximately double the 
        statutory limit);

        <bullet>  build a second repository;

        <bullet>  establish a plan for indefinite above-ground dry 
        storage until another solution is found; or

        <bullet>  develop an advanced fuel cycle that minimizes nuclear 
        waste such that only a single repository will be needed for the 
        next century.

    In fact, some suggest that selecting one of these options is a 
necessary prerequisite to any expansion of the nuclear industry in this 
country because the public needs to be convinced that the U.S. has a 
long-term strategy for waste disposal. In addition, by law, the Nuclear 
Regulatory Commission must make a ``waste confidence determination''--
that the waste created can be safely disposed of--in order to continue 
issuing facility licenses. The political hurdle to increasing the 
statutory capacity of Yucca or building a second repository seems 
insurmountable for the time being. A National Academy of Sciences panel 
determined that dry storage is a valid option from a technical and 
safety standpoint.\8\ But the Administration is taking the position 
that interim storage is insufficient, and that the U.S. must lead the 
world toward a long-term solution. GNEP would put the U.S. on a path 
toward developing an advanced fuel cycle.
---------------------------------------------------------------------------
    \8\ Safety and Security of Commercial Spent Nuclear Fuel Storage, 
Board on Radioactive Waste Management, National Academy Press, 2005.
---------------------------------------------------------------------------
The advanced fuel cycle as envisioned in GNEP
    The advanced fuel cycle requires the same mining, processing and 
fuel fabrication as the open cycle, at least for the current generation 
of nuclear reactors. However, in the advanced fuel cycle, the cooled 
spent fuel is reprocessed, or chemically separated into various 
combinations of its many components. In this approach, some components 
of the spent fuel, known as the ``transuranics,'' can be used to 
fabricate fuel for a ``burner'' or ``fast'' reactor, such as the ABR. 
The transuranics are elements listed after uranium in the period table 
of the elements. Plutonium is included in this group. In theory, the 
transuranics could be recycled several times in fast reactors until 
most of the energy content is converted into electricity and the 
remaining material is sent to Yucca Mountain. However, there is still a 
waste stream associated with each of these recycles, and utilization of 
fast reactors, such as the ABR, as part of an advanced fuel cycle may 
require the development of additional reprocessing technology. 
Recycling the transuranics in fast reactors involves a physical process 
called ``transmutation,'' which, in addition to producing electricity, 
reduces the radioactivity and associated heat output of the remaining 
spent fuel. This is significant because the repository at Yucca 
Mountain is technically limited by the heat content of the stored waste 
rather than simply the volume. If the United States is able to develop 
and deploy an advanced fuel cycle for commercial power reactors that 
includes ``transmutation'' of highly radioactive waste in fast 
reactors, such as the ABR, it may be possible to store all future 
commercially-generated nuclear waste in Yucca 
Mountain.\9\<SUP>,</SUP>\10\<SUP>,</SUP>\11\<SUP>,</SUP>\12\ Without an 
advanced fuel cycle capability, several more geological waste 
repositories like Yucca Mountain will be required.
---------------------------------------------------------------------------
    \9\ The separated uranium is considered low-level waste and can be 
stored as such--that is, it does not need to be stored in a geologic 
repository like Yucca Mountain. While the uranium, which makes up 95 
percent of the spent fuel by weight, theoretically can be treated to 
make it usable reactor fuel again, the technology to do so in practice 
does not exist and is not considered practical in the near-term.
    \10\ Under the most likely U.S. reprocessing scenario, some of the 
most problematic but short-lived radioactive waste could be stored 
above ground in dry casks for 100 years until it decayed significantly, 
at which point it could either be moved to Yucca Mountain or perhaps 
treated further using some other technology. Some of the longer-lived 
material could go directly to Yucca Mountain following the separations 
process. Some of the shorter-lived highly radioactive material would be 
left in with the fuel materials, at least temporarily, to make the fuel 
materials more difficult to divert for weapons purposes. However, this 
same ``protective'' material may have to be separated out before a 
usable fuel can be fabricated.
    \11\ One point of controversy regarding Yucca Mountain is whether 
the radiation standard should be for 10,000 years or more than a 
million years. According the DOE's calculations, the advanced fuel 
cycle scenario described above could result in a hundred-fold increase 
in the technical capacity of the Yucca Mountain repository, as well as 
a reduction in the radiotoxicity of the repository waste to below the 
level of natural uranium ore in less than 1,000 years. A radiation 
level this low would eliminate that particular debate over Yucca 
Mountain.
    \12\ Several countries around the world, including Japan, Russia 
and France, currently reprocess their spent fuel with a process known 
as PUREX, short for plutonium-uranium extraction, in which plutonium 
and uranium streams are isolated from the remaining elements in the 
spent fuel. (PUREX was developed as part of the U.S. weapons program 
explicitly to make plutonium for nuclear weapons.) In the current 
commercial application of PUREX, most of the highly radioactive 
components are cooled and then vitrified, or encased in glass, for 
long-term disposal. The uranium separated through PUREX is disposed of 
as low-level waste. The pure plutonium can be mixed with freshly mined 
and enriched uranium to fabricate a mixed-oxide fuel known as MOX, 
which is recycled into thermal reactors to generate more power. Current 
practice in these countries is to reuse the plutonium only once and 
then dispose of the remaining spent fuel. This approach is known as 
partial recycle, and is far different from the advanced fuel cycle 
envisioned under GNEP. Fast reactors needed to consume other long-lived 
radioactive elements (in particular the transuranics) are not currently 
part of this fuel cycle, but there are plans to incorporate fast 
reactors in France several decades from now.
---------------------------------------------------------------------------
Near-term GNEP technology demonstration plans
    The Administration is requesting $250 million in the FY07 Nuclear 
Energy, Science and Technology (NE) budget to accelerate R&D and begin 
design work on three major advanced fuel cycle demonstration 
facilities: a UREX+ reprocessing facility, an advanced burner (fast) 
reactor, and an advanced fuel cycle facility. According to DOE, $155 
million of that sum, if appropriated, will go toward design work for an 
engineering scale demonstration of UREX+. A preliminary timeline calls 
for all three facilities to be built over the next ten years or so, in 
anticipation of advanced fuel cycle technology initial deployment in 
twenty years. Much of the cost of these facilities will depend upon the 
scale of the facilities and the scope of the R&D. The three facilities 
combined are currently estimated to cost at least $4 billion just to 
build.
            1. UREX+
    UREX+ is based on the PUREX technology originally developed in the 
U.S. and in use today in other countries as mentioned above. In both 
processes, spent fuel rods are chopped up and dissolved in an acidic 
bath before constituent elements are chemically separated. The main 
differences are: 1) UREX+ does not separate a pure plutonium stream--
instead it always leaves plutonium mixed with some combination of other 
highly radioactive elements and 2) UREX+ is a continuous rather than 
batch process. These differences mean that UREX+ is more proliferation-
resistant than PUREX, and could have significantly less liquid 
radioactive waste associated with the process. In fact, DOE's 
conceptual goal is to recycle the liquid solvent in the process 
multiple times, then purify the liquid before disposal by removing the 
remaining radioactive elements. If this proves successful at the 
engineering scale, DOE would be able to mitigate concerns about a 
repeat of the type of environmental problems experienced at the DOE 
Hanford site.
    Different versions of UREX+ have been demonstrated at the bench 
scale in batch processes--processing approximately one kilogram of 
spent fuel per year. DOE officials have been inconsistent in 
predictions of the scale of the demonstration plant, with scales under 
discussion ranging from hundreds of kilograms to 200 metric tons. For 
comparison, an industrial scale reprocessing facility might be on the 
order of 2,000 metric tons total input capacity per year, approximately 
the output of the current fleet of light water reactors. Scale-up of 
chemical processes can involve numerous chemical engineering challenges 
that do not exist at the bench scale. Chemistry involving nuclear 
materials presents additional and unique challenges. Discovering and 
addressing all of these challenges is the main purpose of an 
engineering scale demonstration.
            2. Advanced Burner Reactor
    The advanced burner reactor (ABR) being proposed by DOE is, to be 
more precise, a sodium-cooled fast reactor. This particular design 
selection was made from the six technologies that were considered under 
DOE's Generation IV (GenIV) reactor program. The other designs are 
being pursued by other countries in the GenIV partnership, and domestic 
R&D on those designs has been all but eliminated in the FY07 budget 
request (with the exception of the very high temperature reactor 
selected under the Next Generation Nuclear Plant program). In general, 
GenIV reactors are designed to be more energy efficient, proliferation-
resistant and safer than the current fleet of reactors. In particular, 
the sodium-cooled reactor design chosen for the ABR is considered by 
the technical community to be one of the best choices for efficient 
transmutation of the transuranics. Notably, not a single fast reactor 
has been successfully commercialized anywhere in the world. However, 
the U.S. and several other countries do have a long history of research 
on fast reactor technologies, including sodium-cooled fast reactors.
            3. Advanced Fuel Cycle Facility
    The advanced fuel cycle facility (AFCF) would serve the fuel design 
and testing needs for the ABR. The fast reactor fuels made possible by 
the UREX+ separations process currently exist only in concept. AFCF 
would be a dedicated facility for the R&D necessary to make these fuels 
a reality, assuming there are no as-yet-unknown technical showstoppers. 
Once fuels were designed and tested in the demonstration ABR, tests to 
characterize and understand the new spent fuel, and tests using that 
information to optimize the fuel, would also be done at AFCF.\13\
---------------------------------------------------------------------------
    \13\ A possible future GNEP technology is pyroprocessing, or 
electro-metallurgical reprocessing, a dry process in which fuel rods 
are mechanically chopped and fuel is electrically separated into 
constituent products. At this time, pyroprocessing appears to be the 
best candidate for reprocessing the spent fuel coming out of the ABR, 
assuming that the ABR is operated with metal fuel rather than metal-
oxide fuel (e.g., uranium rather than uranium oxide). The U.S. has 
experience operating a small-scale pyroprocessing facility in Idaho, to 
reprocess the stockpiled spent fuel from the EBR-II, an experimental 
fast reactor shut down ten years ago. However, the nature of that 
stockpile is quite different from the spent fuel that the ABR would 
produce in the advanced fuel cycle, so much research still needs to be 
done on the pyroprocessing technology itself.
---------------------------------------------------------------------------

7. Witness Questions

Mr. Johnson

        <bullet>  Please describe the timelines for major Global 
        Nuclear Energy Partnership (GNEP) demonstration projects as 
        currently envisioned. What are the anticipated costs of each 
        component? What is the life cycle cost of the program and what 
        does that encompass? How and when will the Department of Energy 
        (DOE) determine how to distribute the $250 million requested 
        for fiscal year 2007?

        <bullet>  Please describe the fuel cycle systems analysis that 
        is currently underway by DOE. What questions will this analysis 
        answer? What is its status? To what extent will the results 
        from this analysis influence GNEP program planning?

        <bullet>  What other research will be performed under GNEP?

Dr. Todreas and Dr. Garwin

        <bullet>  How realistic are the goals, timelines and budgets 
        being proposed under the Global Nuclear Energy Partnership 
        (GNEP)?

        <bullet>  What does the Department of Energy (DOE) need to do 
        to develop a robust program to meet its goal of an advanced 
        nuclear fuel cycle--one that includes both recycling and 
        transmutation--while sufficiently addressing non-proliferation 
        and waste management needs?

        <bullet>  What significant research and development (R&D) 
        questions, both science and engineering, exist for UREX+? 
        Sodium-cooled fast reactors? Mixed-actinide fuels? In your 
        view, how well do the GNEP R&D priorities coincide with these 
        research needs?

        <bullet>  DOE is in the process of developing the tools to 
        carry out a cradle-to-grave systems analysis of the advanced 
        fuel cycle. What questions should that systems analysis be able 
        to answer?

Mr. Modeen

        <bullet>  Please summarize the draft report, ``The Nuclear 
        Energy Development Agenda: A Consensus Strategy for U.S. 
        Government and Industry,'' presented by the Electric Power 
        Research Institute at a nuclear energy research and development 
        summit in February. Who was involved in the development of this 
        report and what is its status?

        <bullet>  What are the utility industry's nuclear research and 
        development (R&D) priorities? How do they compare to the R&D 
        priorities in Global Nuclear Energy Partnership (GNEP)?

        <bullet>  How realistic are the goals, timelines and budgets 
        being proposed under GNEP?

        <bullet>  DOE officials have stated that they expect industry 
        to cost-share in the demonstration of GNEP technologies, 
        including reprocessing, fuel fabrication and fast reactor 
        technologies. What does industry see as its role in GNEP 
        technology demonstrations?

Appendix A

                 The Nuclear Energy Development Agenda:

         A Consensus Strategy for U.S. Government and Industry

Executive Summary

    Nuclear energy in the U.S. is entering a renaissance. With strong 
interest and support for new plant construction, there is a sense of a 
bright future not only for nuclear energy's increasing role in U.S. 
electricity generation and reliability, but also in helping meet the 
challenges of (1) revolutionizing the transportation sector's 
dependence on foreign oil, (2) reducing the need to use natural gas for 
electric power generation and for the production of hydrogen for 
industrial applications, (3) fostering safe and proliferation-resistant 
use of nuclear energy throughout the world, and (4) achieving these in 
an environmentally responsible manner.
    Meeting these challenges with nuclear energy requires consensus, 
and a coordinated effort on what needs to be done. Achieving this 
nuclear energy agenda will require the combined efforts of industry and 
government, supported by the innovation of the research community. The 
Department of Energy and Congress will play a critical role in this 
consensus, facilitating nuclear energy's expanding role in a 
sustainable national energy policy.
    The Electric Power Research Institute has developed a technically-
based, market-relevant, and nationally-oriented assessment of the 
nuclear systems needed in the United States over the next half century. 
This assessment was supported by the technical resources of the Idaho 
National Laboratory. The assessment is founded on the assumption that 
nuclear energy will be challenged to expand dramatically in the world 
over the coming decades: It must provide safe, reliable and 
environmentally responsible electricity and process heat to meet the 
needs of the industrial and residential sectors. U.S. nuclear energy 
technology, along with realistic plans, resources and a renewed 
infrastructure must all be ready for this expansion. Government and 
industry must share and coordinate their responsibilities with a 
consensus strategy for nuclear energy.
    To forecast the U.S. nuclear technology needs, moderately 
aggressive planning assumptions were developed to guide the types and 
timing of the technology needed in seven major goals:

        1.  Ensure the continued effectiveness of the operating fleet 
        of nuclear plants.

        2.  Establish an integrated spent fuel management system 
        consisting of centralized interim storage, the Yucca Mountain 
        repository, and, when necessary, a closed nuclear fuel cycle.

        3.  Build a new fleet of nuclear plants for electricity 
        generation.

        4.  Produce hydrogen at large-scale for transportation and 
        industry, and eventually for a hydrogen economy.

        5.  Apply nuclear systems to desalination and other process 
        heat applications.

        6.  Greatly expand nuclear fuel resources for long-term 
        sustainability, commercializing advanced fuel cycles when 
        market conditions demand them in the long-term.

        7.  Strengthen the proliferation resistance and physical 
        protection of closed nuclear fuel cycles both in the U.S. and 
        internationally.

    With these goals, a matrix of technology options to address each 
goal was developed with an assessment of the technology capabilities 
and challenges of each option. From this matrix, a technology 
development agenda was derived, with timing and cost estimates. The 
evolving role of government and industry in the agenda was also 
considered. Finally, current nuclear R&D programs were reviewed in 
relation to this assessment, and three areas were identified for 
action:

1.  Significant light water reactor research is needed. Many 
significant needs exist for the current fleet and the new fleet, 
especially in areas of age-related materials degradation, fuel 
reliability, equipment reliability and obsolescence, plant security, 
cyber security, and low-level waste minimization. Also, developing a 
new generation of LWR fuel with much higher burnup will better utilize 
uranium resources, improve operating flexibility, and significantly 
reduce spent fuel accumulations, resulting in additional improvements 
in nuclear energy economics. A number of these are mid-term R&D needs 
whose impact would be considerable, if accelerated with government 
investment.

2.  Nuclear energy's role in a future hydrogen economy can begin now. 
An essential consideration in reducing dependence on foreign sources of 
oil and natural gas is found in the fact that hydrogen is necessary 
today in upgrading heating oil and gasoline, and in making ammonia for 
fertilizers. In fact, making hydrogen today consumes five percent of 
all natural gas in the U.S. and demand for hydrogen is growing rapidly. 
This situation can be improved with a nuclear system having hydrogen 
production capability as soon as it can be developed. In the mid-term, 
nuclear-produced hydrogen can be used to exploit heavy crude from large 
reserves in Canada and Venezuela. Of course, in the long-term, many 
believe that a hydrogen economy is essential for revolutionizing 
transportation, in which case the demand for competitive and 
environmentally responsible hydrogen will greatly increase. A large-
scale, economical nuclear source would hasten that future.

3.  A proliferation-resistant closed fuel cycle for the U.S. should be 
ready for deployment by mid-century. Establishing a closed fuel cycle 
with the demonstrated ability to handle much more nuclear waste will 
bring added confidence in a stable fuel supply and long-term spent fuel 
management in the U.S. in support of greatly expanding the use of 
nuclear energy. It will also bring the potential for establishing a 
nuclear fuel lease/take-back regime internationally. This would reduce 
the number of countries that need to develop enrichment and 
reprocessing technology, a goal of the President's nuclear 
nonproliferation initiatives. Importantly, various advanced fuel cycle 
technology options provide the ability to supply sufficient nuclear 
fuel in the future to ensure long-term energy and environmental 
sustainability for the U.S. and globally.

    Necessary technologies include cost-effective and proliferation 
resistant reprocessing to separate and manage wastes, and alternate 
reactor concepts (e.g., fast reactors) to generate electricity as they 
generate additional fuel and burn the long-lived minor actinides and 
other constituents that are recycled. These are both critical to 
assuring an adequate and economic supply of fuel, reducing the spent 
fuel backlog, and increasing the effective capacity of Yucca Mountain 
many-fold in the long-term. While the technology challenges and market 
uncertainties are many, large-scale deployment of a closed fuel cycle 
by government and industry could begin by mid-century.

Introduction: A New Paradigm for Public-Private Cooperation on Nuclear 
                    R&D

    For many years, disagreement over the future direction of nuclear 
energy technology in the United States has existed, hindering progress 
toward the full potential of this energy source. There is general 
agreement among experts in government and industry that nuclear energy 
must expand as a major component of national energy policy. In fact, 
the 2001 National Energy Policy included a recommendation supporting 
this expansion for reasons of national security, energy security and 
environmental quality. The disagreements have been over how to achieve 
this expansion safely and economically, with differing views on goals, 
direction, timing, R&D priorities, and the respective roles of public 
and private sectors.
    A recent step toward forging a consensus on the future direction of 
nuclear energy was undertaken by the Idaho National Laboratory in July 
2004, when it assembled a ``Decision-Makers Forum'' in Washington, DC. 
That forum attracted a broad spectrum of key stakeholders in the 
nuclear technology enterprise. Although the Forum was successful at 
engaging industry, national laboratories and academia, significant 
differences among key sectors still remain.
    Using the results of this forum as a starting point, the Electric 
Power Research Institute (EPRI), technically supported by the Idaho 
National Laboratory (INL), has developed this assessment of the nuclear 
systems R&D needed in the United States over the next half century. The 
assessment is founded on the assumption that nuclear energy will be 
challenged to expand dramatically in the world over the coming decades. 
An important focus is on improved coordination and prioritization of 
government and industry nuclear energy R&D programs.
    A series of strategic planning sessions was held to map out a 
common set of high-level goals and time-based planning assumptions for 
nuclear energy, and to then identify the R&D needed to prepare for 
deployment consistent with those assumptions. These assumptions were 
formulated to be aggressive yet achievable, and were grounded upon open 
market principles. Following this, R&D challenges were identified. 
Finally, an assessment of current nuclear R&D programs was made to 
identify opportunities for action.
    A benefit of this joint approach is its potential to build a 
framework for cooperation between public and private sectors for 
completing the needed R&D. This framework would be based on an 80-20 
paradigm, to replace the current paradigm that, ``Government only works 
on long-term research, and industry only works on short-term 
research.'' Instead, having government dedicate about 20 percent of its 
efforts to short-to-medium-term R&D, and having industry dedicate about 
20 percent of its efforts to medium-to-longer-term R&D was seen as a 
new way to encourage collaboration in areas of common interest, and to 
bridge the gaps and sustain the alignment on overall goals for nuclear 
energy.

Vision, Principles and Methods

    The purpose of this consensus strategy is to develop an aggressive, 
success-oriented, yet credible and defensible R&D strategy for nuclear 
energy in the U.S. over the next 50+ years. The long time horizon is 
necessary to include the development of a closed fuel cycle. Emphasis 
was placed on global nuclear issues only to the extent they directly 
impact development in the U.S. Research programs and advances 
internationally were not specifically incorporated.
    Recent works on nuclear energy planning were reviewed (a summary is 
found in Appendix A), and the session leaders agreed that the primary 
focus of the effort should be on national energy and security missions 
and imperatives, and especially on the vision and goals nuclear energy 
must strive toward in meeting those imperatives. While these goals have 
been prepared by EPRI and INL, it is important for the Department of 
Energy (for the government) and the Nuclear Energy Institute (for the 
industry) to consider the merits and credibility of these planning 
assumptions and goals to base new actions. National goals and 
priorities for nuclear energy, if supported by both industry and 
government, will have a substantial impact on the development of new 
nuclear technology. New technologies with great potential to the Nation 
will not be brought to market if government and industry do not jointly 
make them a priority.
    The session leaders reviewed a number of existing high level vision 
and mission statements for nuclear energy, and arrived at a vision 
deemed appropriate for the planning exercise:

         Expand the use of safe and economical nuclear energy in the 
        United States to meet future electricity demand and industrial 
        process heat needs, foster economic growth and energy 
        diversity, provide security and proliferation resistance, and 
        enhance environmental stewardship.

    The session leaders also provided three guiding principles for the 
consensus strategy:

1.  Strive for a moderately aggressive yet credible technology 
portfolio.

2.  Understand the importance of market forces to long-term planning. 
It is recognized that each future Administration and Congress will make 
federal investments in nuclear R&D only to the extent necessary to 
achieve national goals. However, each values the private sector's 
participation in that investment, and ultimately in its deployment. 
Thus, long-term market demand is a key factor in long-term nuclear 
energy investments and deployment.

3.  Align the technology portfolio with evolving nuclear energy 
policies and priorities. There has been a general perception that 
widely divergent views on nuclear energy policy exist in the U.S. Yet a 
surprisingly close consensus exists on the basic priorities for 
technology development, as shown by a review of five key government and 
independent studies on the future of nuclear energy in Appendix A.

    The process was to lay out a high level set of success-oriented 
planning assumptions for 2015, 2030, and 2050, covering reactor 
technologies, fuel cycle technologies, spent fuel management, 
infrastructure needs, etc. These planning assumptions were then weighed 
against the three guiding principles above, in terms of broad national 
energy, economic, safety and environmental goals, considering 
achievability, timing and sequencing.
    Next, the minimum set of nuclear technologies that would satisfy 
the planning assumptions were determined. Where multiple nuclear 
technologies could meet the goal, factors were identified that 
determine which ones should be pursued and/or what the appropriate 
``mix'' in effort or investment should be. These factors included 
budgetary limits on R&D, technology risk, commercial cost-
competitiveness, NRC licensing risk (i.e., cost and duration of review; 
likelihood of success), implications to overall waste management 
strategies and costs, etc. Also considered were market-demand issues. 
For example, ``Will demand for hydrogen lead or lag technology 
development?,'' and ``When will uranium prices justify reprocessing?''
    Finally, the length of time that each of these technologies will 
need to become commercially competitive to support the planning 
assumptions was estimated; and the R&D timeline needed for each 
technology was set to assure in-time licensing, demonstration, and 
commercialization. It is important to be realistic and objective about 
the time and resources needed to commercialize new technologies, 
factoring in technological, licensing, and funding uncertainties. In 
particular, the time required to prepare for and successfully complete 
the regulatory process was included.

Planning Assumptions

    The planning assumptions proposed below are intentionally 
challenging, but also realistic and achievable. The predicted rapid 
growth is enabled by competitive economics, but is also accelerated in 
response to the growing societal demand to reduce the environments 
impacts of fossil fuels, including the risk of global climate change 
(by imposing limits on CO<INF>2</INF>), which will increase demands for 
low- or zero-emitting sources. All three categories of low or zero-
emitting technologies--nuclear energy, renewable energy, and fossil 
energy with carbon capture and sequestration--will face formidable 
challenges. Specific planning assumptions are presented in Appendix B, 
and are summarized below:
Currently Operating Nuclear Plants:

        <bullet>  All existing plants remain operational in 2015, and 
        all have applied for and have been granted a 20-year life 
        extension. Despite continued high safety performance and 
        record-setting reliability, materials aging and equipment 
        obsolescence have moderated their former profitability. 
        Continued high performance is maintained in part by strategic, 
        safety-focused plant management, and in part by new technology 
        solutions, e.g., advanced monitoring and repair techniques, 
        improved fuel performance, remedial coolant chemistry, greater 
        reliance on advanced materials and digital controls.

        <bullet>  In the 2020-2030 timeframe, some plants are granted 
        an additional 20-year life extension (i.e., to 80 years). 
        Advanced fuel designs with higher burnup limits enable longer 
        fuel cycles, significantly increase fuel economy, and 
        significantly reduce the rate of spent fuel generation.

New Plants for Electricity Generation:

        <bullet>  Six to twelve new nuclear plants are in commercial 
        operation by 2015, with many more under construction. 30 GWe of 
        new nuclear electric generating capacity is on line or under 
        construction by 2020. A cumulative total of 100 GWe of new 
        nuclear capacity has been added by 2030. By 2050, nuclear 
        energy is providing 35 percent of U.S. electricity generation 
        by adding a cumulative total of about 400 GWe of new nuclear 
        capacity. This number includes electricity generation from all 
        reactor types. It also includes replacement power for a large 
        segment of the current fleet of reactors, most of which have 
        been retired or are close to retirement by 2050. This build-
        rate severely challenges U.S. industrial infrastructure.

New Plants for Process Heat:

        <bullet>  Based on a prototype Very High Temperature Reactor 
        (VHTR) built and operating by 2020, about twelve VHTRs are in 
        commercial operation by 2030, with about twelve more under 
        construction. VHTRs are assumed to be commercially successful 
        at 600 MWth per module (nominally four modules per plant), and 
        with an outlet temperature around 850-900C. The VHTRs are 
        initially dedicated to producing hydrogen for commercial and 
        industrial use, focused primarily on rapidly expanding hydrogen 
        demand by the oil, gas and chemical industries. They expand to 
        a fleet of roughly 200 by 2050, still focused primarily on 
        industrial applications, but also serving a growing market for 
        hydrogen to power fuel cells in hybrid and plug-in hybrid 
        vehicles. U.S.-built commercial VHTRs are also serving hydrogen 
        demand for U.S. companies at some petrochemical facilities 
        operating overseas.

        <bullet>  Commercial versions of the VHTR, without hydrogen 
        production equipment, also begin to serve process heat needs in 
        the petrochemical and other industries. High value-added 
        applications above 800C are found in recovery of petroleum from 
        oil shale and tar sands, coal gasification, and various 
        petrochemical processes (e.g., ethylene and styrene).

        <bullet>  Nuclear energy begins to assume a significant role, 
        starting in the 2020 timeframe, in support of the desalination 
        mission for arid coastal regions of the U.S. with acute 
        shortages of potable water. Some 16 trillion additional gallons 
        per year will be required in the United States by 2020 for 
        municipal and light industrial uses. This is equivalent to one 
        quarter of the combined outflow from the Great Lakes. If 
        desalination is viable with nuclear energy, it will likely be 
        accomplished by equipment designed for new light water 
        reactors, or by new reactors dedicated to desalination as are 
        being pursued in other countries.

Spent Fuel Management and Expanding Nuclear Fuel Resources:

        <bullet>  Licensing of a spent fuel repository at Yucca 
        Mountain Nevada is completed by 2015, with construction and 
        waste acceptance into the repository and into nearby above-
        ground storage underway by that date. Interim storage away from 
        reactor sites is also established at two other locations in the 
        U.S., one east and one west of the Mississippi River.

        <bullet>  With a rapidly expanding nuclear energy industry and 
        a growing inventory of spent fuel, an integrated spent fuel 
        management plan for the U.S. emerges by 2015 that obtains 
        bipartisan support for implementation. Key elements of the plan 
        include expansion of the capacity of the Yucca Mountain 
        repository, and a decision to maintain continued monitoring of 
        the repository well in excess of 50 years (e.g., 300 years) 
        prior to closure. The plan also includes a commitment to begin 
        reprocessing spent fuel in a demonstration plant by about 2030, 
        based on an active R&D program aimed at identifying cost-
        effective and proliferation-resistant means to recover usable 
        reactor fuel. These technologies will also demonstrate the 
        reduction of radiotoxicity and heat output of spent fuel, and 
        the potential to greatly extend repository capacity. The 
        reprocessing plan is integrated with both reactor technology 
        and repository strategies, and offers a least-cost path for 
        safe, long-term management of spent nuclear fuel.

        <bullet>  The reactor technology part of this integrated 
        strategy develops means (e.g., fast reactors) to recycle light 
        water reactor spent fuel in order to burn minor actinides as 
        well as produce electricity, and later to breed additional 
        fuel. Following a demonstration plant, built and operated with 
        government funding in 2035, new fast reactors are deployed 
        commercially, with government subsidy as needed for the waste 
        burning mission. In the long-term, the price of uranium 
        increases to a level that supports breeding.

R&D Technology Matrix

    A matrix was created to detail the specific technology agendas and 
programs. Goal areas were mapped against specific technology options, 
missions and capabilities. Estimates were made for when each capability 
is needed, how many years are needed to develop, license, and 
demonstrate each, and from these estimates, when R&D must start or ramp 
up. Key R&D needs for each technical capability were identified, along 
with specific challenges that needed to be addressed. Next, the matrix 
was used to compare the relative R&D challenges, and to consider the 
likelihood of success. The full R&D matrix is found in Appendix C, and 
is summarized below.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Timing and Costs of the Nuclear Energy Development Agenda

    The timing and costs associated with addressing the R&D challenges 
were roughly estimated. The timelines in Appendix B are moderately 
optimistic estimates of how long it will take to meet the challenges. 
Costs were estimated based on both U.S. and international experience.
    The near-term deployment goals for electricity generation, 
including a renewed commitment to LWR research, are the least 
expensive. The bulk of federal investments are envisioned to occur over 
the next ten years, with continued modest funding after that as 
necessary. Costs of federal spending on electricity generation are 
based on continued funding on a cost-shared basis of the NP2010 
program, and projections that the private sector will deploy ALWRs for 
electricity generation by 2015, based on limited federal incentives, 
with no federal funding requirements for NP2010 after that date. Total 
federal costs are roughly $500M through 2015, with equal or greater 
cost share by industry. This does not include costs of completing Yucca 
Mountain, which are uncertain; nor does it include the costs of 
revitalizing nuclear industrial infrastructure.
    Federal spending for nuclear generated hydrogen and other process 
heat applications are based on projections that the commercial VHTR 
technology can be demonstrated and will become competitive in the 2020 
timeframe for industrial applications. This timeline assumes that 
conservative technology choices are made to maximize near-term 
licensing and commercial deployment. Total federal costs for the 
nuclear hydrogen mission (exclusive of hydrogen economy infrastructure, 
which come later and are not projected here) are estimated at $2B 
through about 2020, after which VHTRs will go forward as commercial 
units.
    The costs of establishing centralized interim storage and of 
completing Yucca Mountain are covered by the Nuclear Waste fund (funded 
by a fee paid by nuclear generating plants). Eventually, after these 
requirements are met, and as uranium fuel prices justify a shift from 
an open to a closed nuclear fuel cycle, Nuclear Waste Fund revenues, at 
the current fee rate of one mil/KWH), are assumed to defray the costs 
of closed fuel cycle facilities, as discussed below.
    The costs of establishing a closed nuclear fuel cycle are 
considerably higher than reestablishing the ALWR option for electricity 
generation and creating a commercial VHTR option for hydrogen 
generation. There are a number of significant technical, cost, and 
institutional challenges facing reprocessing that will force the 
postponement of the start of prototype demonstration until about 2030, 
and large scale deployment until mid century. Rough costs to the 
Federal Government for the least-cost path will probably exceed $35B by 
2050 and could exceed $60B by 2070, including both R&D and government-
funded subsidy for a portion of the construction and operation of a 
large number of fast reactors and nuclear fuel reprocessing plants. 
These costs assume significant reliance on the private sector to 
construct and operate fast reactors as commercial power plants (after 
the technology is demonstrated and licensed, and the learning curve is 
ascended). These costs are highly uncertain because of the speculative 
nature of estimating when nominal commercial viability can be achieved 
for these facilities.

        <bullet>  Federally funded research for a closed nuclear fuel 
        cycle includes major R&D to develop new separations 
        technologies that are more proliferation resistant and less 
        expensive than current separations processes (i.e., PUREX). R&D 
        is also required to develop alternate fuel cycles and reactor 
        applications (e.g., fast reactors) to generate electricity with 
        reprocessed fuel that includes plutonium and minor actinides 
        from ALWRs. Total RD&D costs to 2050 are estimated at roughly 
        $15B comprising $5B for fast reactor development and 
        demonstration and $10B for advanced separations technology.

        <bullet>  Federal spending to deploy closed fuel cycle 
        technologies is estimated at roughly $20B by 2050. This 
        estimate includes $15B for the first reprocessing plant and 
        initial costs for a second plant beginning construction, and 
        $5B in cumulative subsidies to construct and operate the 
        initial modular fast reactor plants. Fast reactor subsidies 
        would continue until cost parity with ALWRs opens the 
        commercial market for closed cycle systems.

        <bullet>  Full deployment, including conversion of the nuclear 
        generation base in the U.S. to fast reactors will take well 
        over a century to complete.

    Rough costs to the Federal Government through mid-century depend 
primarily on whether the reprocessing plan has been structured to be 
the least-cost path for safe, long-term management of spent nuclear 
fuel (per above planning assumptions), or whether an accelerated plan 
is chosen that does not wait for the market price for uranium to drive 
the shift from the once-through fuel cycle to a closed fuel cycle, and 
from LWRs to a mix of LWRs and fast reactors.
    A rough estimate of federal investments in future nuclear R&D is 
shown in the figure.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    There are fundamental differences between the deployment of nuclear 
energy generation with ALWRs and commercial VHTRs, and technologies to 
close the nuclear fuel cycle. First, there are commercial markets for 
electricity and hydrogen that enable near-term deployment of ALWRs, and 
a transition of VHTRs to the private sector as soon as the technology 
is ready. There is no comparable commercial market for reprocessing. A 
market could evolve for the fast reactor component of closed fuel cycle 
systems because fast reactors can produce electricity. However, based 
on today's technology and uranium ore costs, fast reactors are not 
expected to compete with ALWRs in power generation until about mid-
century. Economic parity could be achieved when new fuel for ALWRs 
based on enriched U-235 becomes sufficiently more expensive than fast 
reactor fuel using recycled components. In the long-term, as uranium 
prices rise, the alternate fuel cycles will advance to breeding and the 
need for subsidy will end.
    In addition, reprocessing plants are expensive and not attractive 
to commercial financing in the context of the U.S. economy. Thus, the 
cost increment for reprocessing (i.e., the incremental cost above the 
cost of repository disposal) will be subsidized initially by the 
Federal Government. Although the estimate above does not include 
repository costs, it is expected that reprocessing will remain more 
expensive than storage (centralized above-ground plus geologic 
repository) for the foreseeable future. Projections of major savings in 
Yucca Mountain repository costs as a result of reprocessing are highly 
speculative at best. On the other hand, the increased revenues to the 
Nuclear Waste Fund from an expanding fleet of new reactors will 
eventually help defray the costs of operating closed fuel cycle 
facilities.
    It is important to note that despite the extended timetable for 
introducing reprocessing in the U.S. (due to R&D prerequisites to 
satisfy cost and nonproliferation objectives, policy considerations, 
etc.), that a single expanded-capacity spent fuel repository at Yucca 
Mountain is adequate to meet U.S. needs, and that construction of a 
second repository is not required under this timetable.
    If, however, reprocessing is implemented on an accelerated schedule 
before it is economic to do so based on fuel costs, then the Federal 
Government will need to bear a much larger cost. As discussed in 
Appendices B and D, the optimum scenarios for transitioning nuclear 
energy to a closed fuel cycle in the U.S. context requires us to focus 
the R&D on those technologies that would enable a transition to cost-
effective and proliferation resistant ``full actinide recycle'' mode 
with fast reactors that would eventually replace light water reactors. 
This path is preferred over one that maintains for decades a ``thermal 
recycle'' mode using MOX fuel in light water reactors, because the high 
costs and extra waste streams associated with this latter path do not 
provide commensurate benefits in terms of either non-proliferation or 
spent fuel management costs.

Assessment of Current Programs

    Current federal programs in three major nuclear energy R&D areas 
were reviewed in relation to the development agenda.
Light Water Reactor R&D
    Many significant needs exist for the current fleet and the new 
fleet, especially in areas of age-related materials degradation, fuel 
reliability, equipment reliability and obsolescence, plant security, 
cyber security, and low-level waste minimization. Also, developing a 
new generation of high reliability LWR fuel with much higher burnup 
will better utilize uranium resources, improve operating flexibility, 
and significantly reduce spent fuel accumulations, resulting in 
additional improvements in nuclear energy economics. A number of these 
are mid-term R&D needs whose impact would be considerable if 
accelerated with government investment.
Process Heat R&D
    An essential consideration in reducing dependence on foreign 
sources of oil and natural gas is found in the fact that hydrogen is 
necessary today in upgrading heating oil and gasoline, and in making 
ammonia for fertilizers. In fact, making hydrogen today consumes five 
percent of all natural gas in the U.S. and demand for hydrogen is 
growing rapidly. This situation can be improved with a nuclear system 
having hydrogen production capability as soon as it can be developed. 
In the mid-term, nuclear-produced hydrogen can be used to exploit heavy 
crude from large reserves in Canada and Venezuela. Of course, in the 
long-term, many believe that a hydrogen economy is essential for 
revolutionizing transportation, in which case the demand for 
competitive and environmentally responsible hydrogen will greatly 
increase. A large-scale, economical nuclear source would hasten that 
future.
Closed Fuel Cycle R&D
    Establishing a closed fuel cycle with the demonstrated ability to 
handle much more nuclear waste will bring added confidence in a stable 
fuel supply and long-term spent fuel management in the U.S. in support 
of greatly expanding the use of nuclear energy. It will also bring the 
potential for establishing a nuclear fuel lease/take-back regime 
internationally. This would reduce the number of countries that need to 
develop enrichment and reprocessing technology, a goal of the 
President's nuclear nonproliferation initiatives. Importantly, various 
advanced fuel cycle technology options provide the ability to supply 
sufficient nuclear fuel in the future to ensure long-term energy and 
environmental sustainability for the U.S. and globally.
    Necessary technologies include cost-effective and proliferation 
resistant reprocessing to separate and manage wastes, and alternate 
reactor concepts (e.g., fast reactors) to generate electricity as they 
generate additional fuel and burn the long-lived minor actinides and 
other constituents that are recycled. These are both critical to 
assuring an adequate and economic supply of fuel, reducing the spent 
fuel backlog, and increasing the effective capacity of Yucca Mountain 
many-fold in the long-term. While the technology challenges and market 
uncertainties are many, large-scale deployment of a closed fuel cycle 
by government and industry could begin by mid-century.

Conclusions

        <bullet>  The strategy for nuclear energy development and 
        implementation in the United States requires a consensus of 
        industry and government.

        <bullet>  The overall strategy should be determined by a 
        combination of market needs and long-term nationally 
        established energy goals for energy security, national 
        security, and environmental quality.

        <bullet>  The priorities in the consensus nuclear energy 
        strategy should address near-term, medium-term, and long-term 
        priorities. R&D needs to proceed now on all fronts, but 
        priorities for implementation and deployment are as follows:

                -  Near-term: license renewal for the current fleet, 
                and licensing and deployment of new, standardized ALWRs 
                within the next decade. Near-term deployment of ALWRs 
                will require demonstration of a workable licensing 
                process, and completion of first-of-a-kind engineering 
                for at least two standardized designs. Industry and DOE 
                should cost share these R&D programs.

                   To enable the resurgence of nuclear energy, the 
                near-term elements of an integrated spent fuel 
                management plan must proceed with bipartisan support 
                from both the Administration and Congress. These near-
                term elements include completion of the repository at 
                Yucca Mountain, deployment of multi-purpose canisters 
                approved by the NRC, implementation of an effective 
                spent fuel transportation system, and provision for 
                centralized interim storage. This effort should be 
                funded by the Nuclear Waste Fund, established by 
                Congress and paid for by nuclear energy ratepayers and 
                nuclear plant licensees for these purposes, in 
                accordance with the Fund provisions in the Nuclear 
                Waste Policy Act.

                -  Medium-term: development of a high temperature 
                commercial VHTR capable of generating hydrogen and 
                electricity at competitive costs, for initial use by 
                the petroleum and chemical industries. Deployment will 
                require concept development, defining end-user 
                requirements and interfaces, engineering, resolution of 
                design and licensing issues and prototype 
                demonstration. This effort should be funded by 
                government, but targeted for rapid commercialization.

                -  Long-term: development of new closed fuel cycle 
                technologies supporting an integrated, cost-effective 
                spent fuel management plan. Key elements of the plan 
                include expansion of the capacity of the Yucca Mountain 
                repository, and a decision to maintain continued 
                monitoring of the repository well in excess of 50 years 
                prior to closure. The plan also includes provisions for 
                centralized interim storage of spent fuel, and a 
                commitment to begin reprocessing spent fuel in a 
                demonstration plant by about 2030, based on an active 
                R&D program aimed at identifying more cost-effective 
                and proliferation-resistant means to recover usable 
                reactor fuel. It also includes development of safe and 
                cost-effective fast-spectrum reactor technology for 
                ``burning'' the long-lived actinides in spent fuel, and 
                ``recycling'' the usable uranium and plutonium 
                recovered from spent fuel. These capabilities, along 
                with other advanced fuel cycle options, should be used 
                to achieve long-term energy supply sustainability--long 
                after fossil fuel supplies are exhausted. These 
                facilities should be funded by government. They are not 
                authorized expenses to be recovered from the Nuclear 
                Waste Fund, but eventually, as uranium fuel prices 
                justify a shift from an open to a closed nuclear fuel 
                cycle, Nuclear Waste Fund revenues are assumed to 
                defray the costs of closed fuel cycle facilities.

        <bullet>  A strategy for rebuilding the nuclear industrial 
        infrastructure in the U.S. is necessary. Currently, major 
        equipment must be procured offshore. Long-term energy security 
        requires that the U.S. industry have the capability of 
        supplying and supporting U.S. energy producers, and better 
        integrating energy supplier and end-user needs. These 
        infrastructure needs include large numbers of new skilled 
        construction workers, engineers, nuclear plant operators and 
        other key personnel needed for construction, operation and 
        maintenance of new facilities.

Appendix B

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairwoman Biggert. The Subcommittee on Energy of the 
Science Committee will come to order.
    I will now recognize myself for an opening statement.
    I want to welcome everyone to this hearing on the 
President's Global Nuclear Energy Partnership, commonly 
referred to as GNEP. The purpose of this partnership is to 
clear the way for the safe expansion of nuclear energy 
worldwide. How do we do this? By using technology to address 
growing inventories of spent nuclear fuel, and today we intend 
to take a look at the goals, schedules, and costs associated 
with this innovative research and development program.
    In 20 years, electricity demand in the United States is 
expected to increase by 50 percent. We must meet that demand 
and do so in an environmentally responsible way. Carefree 
increases in greenhouse gas emissions are not an option. We 
need a diverse supply of clean electricity, and nuclear power 
must be part of that mix. It is the only reliable, carbon-free, 
emissions-free source of electricity currently available that 
could provide the baseload capacity to meet this demand. If we 
cannot supply our nation's need for clean energy, we run the 
risk of unacceptable environmental and economic consequences.
    However, for the United States and the world to benefit 
from the expanded use of nuclear energy, there is one vitally 
important issue that must be resolved: What do we do with the 
inventory of spent nuclear fuel? Yucca Mountain was to be the 
solution. Unfortunately, its intended opening slipped from 1998 
to 2010, and it slipped again to 2012 or 2014, or even possibly 
later. And we all know by now that the statutory limit of Yucca 
Mountain is such that the repository effectively will be full 
from the waste generated by 2010.
    Yesterday, President Bush sent to Capitol Hill draft 
legislation intended to speed construction of the nuclear waste 
repository at Yucca Mountain. As part of this proposal, 
President Bush would lift the statutory limit on the capacity 
of Yucca Mountain, which is set at 70,000 metric tons under the 
current law. Lifting this limit would allow for storage of up 
to 120,000 metric tons of spent fuel, which is still less than 
the repository's technical capacity.
    This proposal certainly buys us some time, but it would not 
obviate the need for additional repositories this century. At 
one of this subcommittee's previous hearings on the future of 
nuclear energy, a witness testified that the United States 
would need up to nine additional repositories, nine additional 
Yucca Mountains, to accommodate the waste generated in the 21st 
century alone.
    The good news is that we can achieve the vision of a single 
repository for the next century. And how do we do this? By 
transitioning to a closed, or some prefer the word advanced, 
fuel cycle now. The advanced fuel cycle that I envision 
involves a lot more than just the reprocessing of spent nuclear 
fuel. Reprocessing alone won't help, it won't really help. It 
would only reduce the heat load of waste destined for Yucca 
Mountain by 10 percent. We also need to recycle and reduce 
spent fuel using fast reactors for transmutation, which could 
reduce the heat load by a factor of 10 or more.
    To ensure a sustainable future for nuclear power in the 
United States, we must develop an advanced fuel cycle with all 
three components. We must take bold action now to realize the 
benefits of the advanced fuel cycle to our energy security, our 
economic security, and our national security. And I believe 
that the Administration has stepped up to the challenge with 
the announcement of the Global Nuclear Energy Partnership.
    GNEP supports the comprehensive development of an advanced 
fuel cycle, including all three of the important elements that 
I just mentioned: reprocessing, recycling, and the use of 
advanced burner reactors to reduce the waste. And it puts their 
development on a very aggressive timetable. We need to start 
now, because these technologies won't be developed overnight.
    We are eager to learn more about the details of this 
important initiative, especially details about the 
comprehensive systems analysis. It is essential that DOE 
understands how every component of the advanced fuel cycle 
interacts as the fuel moves through the system from cradle to 
grave. This will ensure the success of the program and raise 
the confidence of Congress and the public that we are making 
smart choices. Through modeling that incorporates the relevant 
technical, economic, and policy considerations, this ``systems 
approach'' will allow us to optimize the fuel cycle and make 
informed decisions about how to proceed.
    I understand that this effort is already underway, and I 
applaud DOE for requesting a separate funding line in the 
fiscal year 2007 budget request to support this systems 
analysis. I believe such an analysis is the linchpin of the 
GNEP.
    Whether we are motivated by climate change, our addiction 
to foreign sources of energy, or skyrocketing energy costs, all 
of which have national security implications, nuclear power is 
a necessary and significant part of the solution. However, 
nuclear energy, as we know it today, won't be sustainable 
without an advanced fuel cycle.
    I realize that some of the witnesses on the panel today are 
concerned about the timeliness and research and development 
priorities proposed by the DOE. I think it is important that we 
allow smart, informed nuclear scientists and engineers from 
outside the Administration to weigh in. It is also important 
that we hear from members of the energy industry, who, in the 
long-term, will be an important player in the development of an 
advanced fuel cycle.
    Without hesitation, I support the vision of GNEP. We owe 
our children and grandchildren our best efforts to secure a 
clean, safe, reliable future--fuel for the future.
    With that, I want to thank our witnesses for agreeing to 
share their knowledge and insight with us today, and I look 
forward to an open and spirited discussion on this very 
important subject.
    [The prepared statement of Chairman Biggert follows:]

              Prepared Statement of Chairman Judy Biggert

    I want to welcome everyone to this hearing on the President's 
Global Nuclear Energy Partnership, commonly referred to as GNEP. The 
purpose of this partnership is to clear the way for the safe expansion 
of nuclear energy worldwide. How do we do this? By using technology to 
address growing inventories of spent nuclear fuel, including the risk 
of proliferation. Today we intend to take a look at the goals, 
schedules and costs associated with this innovative research and 
development (R&D) program.
    In twenty years, electricity demand in the United States is 
expected to increase by 50 percent. We must meet that demand and do so 
in an environmentally responsible way. Carefree increases in greenhouse 
gas emissions are not an option. We need a diverse supply of clean 
electricity, and nuclear power must be part of that mix. It is the only 
reliable, carbon-free emissions-free source of electricity currently 
available that could provide the base-load capacity to meet this 
demand. If we cannot supply our nation's need for clean energy, we run 
the risk of unacceptable environmental and economic consequences.
    However, for the United States and the world to benefit from the 
expanded use of nuclear energy, there is one vitally important issue 
that must be resolved--what we do with growing inventories of spent 
nuclear fuel. Yucca Mountain was to be the solution. Unfortunately, its 
intended opening slipped from 1998 to 2010. Then it slipped again to 
2012 or 2014, or possibly even later. And we all know by now that the 
statutory limit of Yucca Mountain is such that the repository 
effectively will be full from the waste generated by 2010.
    Yesterday, President Bush sent to Capitol Hill draft legislation 
intended to speed construction of the nuclear waste repository at Yucca 
Mountain. As part of his proposal, President Bush would lift the 
statutory limit on the capacity of Yucca Mountain, which is set at 
70,000 metric tons under current law. Lifting this limit would allow 
for the storage of up to 120,000 metric tons of spent fuel, which is 
still less than the repository's technical capacity.
    This proposal certainly buys us some time, but it would not obviate 
the need for additional repositories this century. At one of this 
subcommittee's previous hearings on the future of nuclear energy, a 
witness testified that the U.S. would need up to nine additional 
repositories--nine additional Yucca Mountains--to accommodate the waste 
generated in the 21st Century alone.
    The good news is that we can achieve the vision of a single 
repository for the next century. How do we do this? By transitioning to 
a closed--or some prefer the term advanced--fuel cycle now.
    The advanced fuel cycle that I envision involves a lot more than 
just the reprocessing of spent nuclear fuel. Reprocessing alone won't 
really help. It would only reduce the heat load of waste destined for 
Yucca Mountain by 10 percent. We also need to recycle and reduce spent 
fuel using fast reactors for transmutation, which could reduce the heat 
load by a factor of 10 or more.
    To ensure a sustainable future for nuclear power in the United 
States, we must develop an advanced fuel cycle with all three 
components. We must take bold action now to realize the benefits of the 
advanced fuel cycle to our energy security, our economic security, and 
our national security. And I believe that the Administration has 
stepped up to the challenge with the announcement of the Global Nuclear 
Energy Partnership.
    GNEP supports the comprehensive development of an advanced fuel 
cycle, including all three of the important elements I just mentioned--
reprocessing, recycling, and the use of advanced burner reactors to 
reduce the waste. And it puts their development on a very aggressive 
timetable. We need to start now because these technologies won't be 
developed overnight.
    We are eager to learn more about the details of this important 
initiative, especially details about the comprehensive systems 
analysis. It is essential that DOE understands how every component of 
the advanced fuel cycle interacts as the fuel moves through the system 
from cradle to grave. This will ensure the success of the program and 
raise the confidence of Congress and the public that we are making 
smart choices. Through modeling that incorporates the relevant 
technical, economic, and policy considerations, this ``systems 
approach'' will allow us to optimize the fuel cycle and make informed 
decisions about how to proceed.
    I understand that this effort already is underway, and I applaud 
DOE for requesting a separate funding line in the FY07 budget request 
to support this systems analysis. I believe such an analysis is the 
lynchpin of GNEP.
    Whether we are motivated by climate change, our addiction to 
foreign sources of energy, or skyrocketing energy costs--all of which 
have national security implications--nuclear power is a necessary and 
significant part of the solution. However, nuclear energy as we know it 
today won't be sustainable without an advanced fuel cycle.
    I realize that some of the witnesses on the panel today are 
concerned about the timelines and R&D priorities proposed by the DOE. I 
think it's important that we allow smart, informed nuclear scientists 
and engineers from outside the Administration to weigh in. It's also 
important that we hear from members of the energy industry, who, in the 
long-term, will be an important player in the deployment of an advanced 
fuel cycle.
    Without hesitation, I support the vision of GNEP. We owe our 
children and grandchildren our best effort to secure a clean, safe, 
reliable fuel for the future.
    With that, I want to thank our witnesses for agreeing to share 
their knowledge and insight with us today. I look forward to an open 
and spirited discussion on this very important subject.

    Chairwoman Biggert. I will now recognize the Ranking 
Member, Mr. Honda, for his opening statement.
    Mr. Honda. Thank you. And I thank the Chairwoman Biggert 
for holding this hearing today so we can learn more about the 
Global Nuclear Energy Partnership, which President Bush 
announced without providing much detail in February in his 
budget request.
    As we all know, currently, the United States does not 
reprocess nuclear spent fuel because of concerns about the 
proliferation of nuclear weapons material.
    In addition, reprocessing is not cost-effective since 
uranium supplies around the world are plentiful and can be 
fabricated into fuel at far less cost than reprocessing spent 
fuel. The economics of the situation have not changed and are 
not going to change for a long time.
    Which brings us to the real reason that the Bush 
Administration is putting forward a nuclear fuel reprocessing 
program, the problem of dealing with nuclear waste.
    The politics of Yucca Mountain have made it clear that 
siting and licensing a second waste repository is highly 
unlikely. At this point, it still isn't clear how things are 
going to proceed with Yucca Mountain.
    The Bush Administration has seized upon this political 
situation to justify reprocessing of spent fuel to reduce the 
heat of the material that would potentially be put in Yucca 
Mountain in order to expand the capacity of the proposed 
repository.
    Yesterday, the Administration sent a legislative proposal 
to Congress to expedite the repository, which would lift the 
current statutory limit on the amount of waste that could be 
stored there. Such a move is essential to justify developing a 
reprocessing program.
    What troubles me about this whole Global Nuclear Energy 
Partnership proposal is the haste with which it seems to have 
been developed and the fact that a very small number of people 
seem to have made all of the key decisions without much input 
from the industry or scientific community.
    For example, it appears that the technology for 
reprocessing spent fuel, UREX+, has already been selected by 
the advocates for the program. While the final decision hasn't 
been made, it seems that the decision has essentially been made 
to use metal fuel, which would require the construction of a 
pyroprocessing plant for each fast reactor that will be used to 
convert reprocessed fuel into electricity.
    What isn't clear to me is who made these decisions, what 
process was used to make those decisions, or even why they have 
been already made, given the premature stage of the 
technologies and huge uncertainty as to whether they will be 
successful and cost effective.
    The spent nuclear fuel we have now can safely be stored in 
dry casks for 50 years or more, giving us plenty of time to do 
more research, more fully evaluate technology alternatives, and 
have a greater engagement from all interested parties in the 
decision-making process.
    Now for a program that may cost as much as hundreds of 
billions of dollars in taxpayer money, it seems that such a 
study and scrutiny is at--the least we can do to ensure that 
the best policy is what is pursued.
    From where I sit, the way that the Global Nuclear Energy 
Partnership has been put together and then proposed looks a lot 
like the way in which the President took the Nation to war in 
Iraq.
    The policy decisions have already been made by a small 
isolated group within the Administration without all of the 
facts and without input from the experts from outside the 
group. Once that decision was made then a justification for it 
was developed and sold to Congress.
    A story posted on the website of the scientific journal 
Nature yesterday about the disbanding of the Secretary of 
Energy's advisory board, which was chartered to provide the 
Secretary with timely, balanced external advice on issues of 
importance only reinforces the impression that outside input is 
not welcome on major programs such as GNEP.
    But as with Iraq, there seems to be major uncertainties in 
GNEP, uncertainties in the technical feasibility, the cost, and 
uncertainty in the ability of the agency in charge to 
successfully carry out such a large effort. I don't believe 
that it is wise for us to rush to judgment on GNEP, as we 
rushed the war, and I certainly don't want to see the kind of 
outcome that a rushed decision and incomplete plan are sure to 
deliver.
    This decision doesn't need to be made today. We have other 
means for storing nuclear waste temporarily while we wait for 
all of the facts.
    In closing, Madame Chairwoman, I thank you again for 
holding this hearing so that we can try to get some answers on 
how these decisions were made, we can hear some outside 
thoughts on this proposal, and perhaps hear some alternative 
options for dealing with the problem.
    Thank you.
    [The prepared statement of Mr. Honda follows:]

         Prepared Statement of Representative Michael M. Honda

    I thank Chairwoman Biggert for holding this hearing today so that 
we can learn more about the Global Nuclear Energy Partnership, which 
President Bush announced without providing much detail in February with 
his budget request.
    As we all know, currently the United States does not reprocess 
nuclear spent fuel because of concerns about the proliferation of 
nuclear weapons material.
    In addition, reprocessing is not cost effective, since uranium 
supplies around the world are plentiful and can be fabricated into fuel 
at far lest cost than reprocessing spent fuel. The economics of this 
situation have not changed and are not going to change for a long time.
    Which brings us to the real reason that the Bush Administration is 
putting forward a nuclear fuel reprocessing program--the problem of 
dealing with nuclear waste.
    The politics of Yucca Mountain have made it clear that siting and 
licensing a second waste repository is highly unlikely. At this point, 
it still isn't clear how things are going to proceed with Yucca 
Mountain.
    The Bush Administration has seized upon this political situation to 
justify reprocessing of spent fuel to reduce the heat of the material 
that would potentially be put in Yucca Mountain in order to expand the 
capacity of the proposed repository.
    Yesterday the Administration sent a legislative proposal to 
Congress to expedite the repository which would lift the current 
statutory limit on the amount of waste that could be stored there. Such 
a move is essential to justifying developing a reprocessing program.
    What troubles me about this whole Global Nuclear Energy Partnership 
proposal is the haste with which it seems to have been developed and 
the fact that a very small number of people seem to have made all of 
the key decisions without much input from industry or the scientific 
community.
    For example, it appears that the technology for reprocessing spent 
fuel, UREX+, has already been selected by the advocates for the 
program. While the final decision hasn't been made, it seems that the 
decision has essentially been made to use metal fuel, which would 
require the construction of a pyroprocessing plant for each fast 
reactor that will be used to convert reprocessed fuel into electricity.
    What isn't clear to me is who made these decisions, what process 
was used to make those decisions, or even why they have already been 
made, given the premature stage of the technologies and huge 
uncertainty as to whether they will be successful and cost effective.
    The spent nuclear fuel we have now can safely be stored in dry 
casks for 50 years or more, giving us plenty of time to do more 
research, more fully evaluate technology alternatives, and have greater 
engagement from all interested parties in the decision making process.
    For a program that may cost as much as hundreds of billions of 
dollars in taxpayer money, it seems that such study and scrutiny is the 
least we can do to ensure that the best policy is what is pursued.
    From where I sit, the way that the Global Nuclear Energy 
Partnership has been put together and then proposed looks a lot like 
the way in which the President took the Nation to war in Iraq.
    The policy decisions have already been made by a small, isolated 
group within the Administration without all of the facts and without 
input from experts from outside their group. Once that decision was 
made, then a justification for it was developed and sold to Congress.
    A story posted on the web site of the scientific journal Nature 
yesterday about the disbanding of the Secretary of Energy's Advisory 
Board, which was chartered to provide the Secretary with timely, 
balanced external advice on issues of importance, only reinforces the 
impression that outside input is not welcome on major programs such as 
GNEP.
    But as with Iraq, there seem to be major uncertainties in GNEP, 
uncertainties in the technical feasibility, the cost, and uncertainty 
in the ability of the agency in charge to successfully carry out such a 
large effort.
    I don't believe that it is wise for us to rush to judgment on GNEP 
as we rushed to war, and I certainly don't want to see the kind of 
outcome that a rushed decision and incomplete plan are sure to deliver. 
This decision doesn't need to be made today, we have other means for 
storing nuclear waste temporarily while we wait for all of the facts.
    In closing, Madame Chairwoman, I thank you again for holding this 
hearing so that we can try to get some answers on how these decisions 
were made, we can hear some outside thoughts on this proposal, and 
perhaps hear some alternative options for dealing with the problem.

    Chairwoman Biggert. Thank you, Mr. Honda.
    With that, any additional opening statements submitted by 
Members may be added to the record.
    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    Thank you, Mr. Chairman and Ranking Member.
    According to the Energy Information Administration, Texas ranked 
7th among the 31 states with nuclear capacity.
    In 2004, the Nation set a new record for electricity generation at 
nuclear power plants.
    During 2004, the larger of Texas' two nuclear power plants was up-
rated in capacity, contributing to a new State record for nuclear 
output. For the first time, Texas generated more than 40 billion 
kilowatt hours. Of Texas energy, ten percent comes from nuclear plants.
    Together, the Comanche Peak plant near Dallas and South Texas plant 
near Houston produce 100 percent of the nuclear energy in Texas.
    As Texas makes great strides with nuclear energy, the state 
continues to struggle to modernize its overall energy economy.
    Texas regrettably still relies heavily on fossil fuels to the 
detriment of the environment. Texas ranks first in the Nation in carbon 
dioxide emissions, third in nitrogen oxide, and fourth in sulfur 
dioxide. These chemicals contribute toward Texas' poor air quality.
    I am concerned for my constituents in Dallas as well as residents 
in Houston, two major Texas cities with some of the poorest air quality 
in the Nation. Bad air leads to cancer, asthma, and a host of other 
diseases.
    For these reasons I strongly advocate for clean, efficient and 
alternative fuel sources. Development of these technologies and support 
of a national infrastructure will require great investment.
    But Mr. Chairman, if one has a toothache, does it not make sense 
that one would pay the dollars to have the issue addressed?
    I look at federal investment in clean energy that way. It may cost 
money, but it is an investment we cannot afford not to make.
    Thank you, Mr. Chairman. I yield back.

    [The prepared statement of Mr. Davis follows:]

           Prepared Statement of Representative Lincoln Davis

    Good morning. Thank you, Madame Chairwoman and Ranking Member, for 
the opportunity for us to discuss the Global Nuclear Energy Partnership 
(GNEP) Proposal. I would also like to thank all the witnesses for their 
presence today.
    Before I get into the issue at hand, I would like to express my 
support for nuclear energy in this country. As America has become more 
addicted to fossil fuels that pollute our air and our water, I believe 
nuclear energy can play a major role in our country's energy future. 
Opponents of nuclear energy argue that it is unsafe.
    With that mind set America has not ordered a new nuclear plant in 
over 25 years. However, over the same time the Navy has acquired over 
80 vessels that contain nuclear reactors. To date, there have been no 
incidents reported on any of these 80 vessels and none of the crew on 
these ships has become ill from serving on them. So, clearly the 
technology exists that can make nuclear power safe. It is my hope once 
we solve the nuclear waste question we can add more nuclear power to 
the Nation's power grid.
    While I believe that nuclear energy needs to play a major role in 
our energy future, I also have serious reservations about the GNEP 
proposal. My main concerns stem from the fact that it appears a 
majority of important decisions about this program have already been 
made--such as site locations and specific technologies to be used for 
GNEP. These possible actions concern me because they exclude the 
expertise of industry leaders and scientists who are at the forefront 
of nuclear energy. I believe for this program to be successful we must 
include all the experts and not just a selective few.
    As you may know, Oak Ridge National Lab is near my district and 
employs some of the brightest and most experienced scientists on 
nuclear technology. For years Oak Ridge has been at the forefront of 
developing and maintaining nuclear programs for DOE and DOD. However, 
to my knowledge no one from Oak Ridge was involved in the development 
of GNEP. To me it makes sense to have people involved that have a clear 
and long history of working within this field to help plan the future 
of the technology.
    I hope today's hearing will ease some of my concerns as I believe 
we must act now to deal with nuclear waste and the successful expansion 
of nuclear energy in America.
    Madame Chairwoman, thank you and I yield back the balance of my 
time.

    [The prepared statement of Ms. Jackson Lee follows:]

        Prepared Statement of Representative Sheila Jackson Lee

    Chairwoman Biggert, Ranking Member Honda, I want to thank you for 
organizing this very important Energy Subcommittee hearing on the 
Global Nuclear Energy Partnership (GNEP). While energy policy may not 
captivate the attention of most Americans right now, it is one of the 
most important and complex issues that the Nation must face in the 
coming years. And we will need hearings such as this to discuss our 
future energy policies.
    In the news these days, most of what we see are stories from Iraq 
and Afghanistan, or the latest political scandal. The energy policies 
of the United States are complex and multi-faceted, and many Americans 
simply do not understand the gravity of the issues. I hope that the 
witnesses testifying today will shed some light on a very difficult 
issue that often falls through the cracks.
    Madam Chairwoman, I have a number of concerns regarding the 
policies put forth in the GNEP. Not the least of my concerns is the 
cost of the program. Over the next decade, the Bush Administration 
wants to build three new uranium reprocessing facilities that will cost 
the taxpayers an estimated $20 to $40 billion dollars.
    In this age of skyrocketing record deficits, this is not the time 
to take on massive new projects when we cannot get our fiscal house in 
order. Until we have scientific data to prove that this alternative is 
feasible, now may not be the time to increase the deficit even more.
    Nuclear energy is a large part of our nation's energy structure. 20 
percent of all the electricity generated in the U.S. comes from nuclear 
sources. And with nuclear energy comes a large amount of nuclear waste. 
With every single nuclear power plant generating about 20 tons of 
highly radioactive nuclear waste every year, we must find a way to deal 
with the waste. The Yucca Mountain waste storage facility was supposed 
to have been the solution 20 years ago, so we do need to plan our next 
steps. The GNEP program has good ideas for a starting place. But the 
simple fact is that the budget may not currently allow it.
    Madam Chairwoman, President Bush recently announced that he will 
run a $423 billion deficit this year. The Congress was just forced to 
raise the debt ceiling once again. It now stands at $9 trillion. That 
means that every child born in the United States is immediately saddled 
with over $28,000 in debt. We are essentially giving the child a birth 
certificate and a credit card bill. Our energy policy is not perfect. 
However, until we can afford to build new facilities, we should not be 
spending over $20 billion without specific, clear, and informed plans.
    In addition, even if we did build the small-scale reprocessing 
facilities, and even if they did work as they are supposed to work, 
there are indications that they would only process a small fraction of 
our nuclear waste output. In order to reduce the waste output to the 
level that GNEP envisions, it could easily end up costing US taxpayers 
over $100 billion.
    The current nuclear energy policies are not sustainable. Over the 
next two decades, we are going to need to change the way that waste is 
handled, or build new storage facilities. I look forward to today's 
hearing to shed some light on how we can effectively move forward.
    Thank you, Madam Chairwoman, and I yield the remainder of my time.

    Chairwoman Biggert. And at this time, I would like to 
introduce our witnesses and thank you all for coming this 
morning. And going from left to right--or my left to right, Mr. 
Shane Johnson is the Deputy Director for Technology in the 
Office of Nuclear Energy, Science, and Technology at the 
Department of Energy, though just a few days ago, Mr. Johnson 
served as the Acting Director of the Office. So thank you, 
Shane, for agreeing to appear before us today. We do understand 
that three days on the job probably wasn't enough for your new 
Assistant Secretary, Dennis Spurgeon, to catch up on 
everything, but I do want to take this opportunity to 
congratulate Mr. Spurgeon and to brag a little. Mr. Spurgeon 
would be a Director rather than an Assistant Secretary if I 
hadn't fought hard for the elevation of that position in the 
Energy Bill last summer, and I think that is a--that was a 
much-needed change in title.
    Dr. Neil Todreas is the Kepco Professor of Nuclear 
Engineering at the Massachusetts Institute of Technology. He is 
also a member of the distinguished MIT panel that wrote the 
2003 report on the future of nuclear power. Welcome.
    Dr. Richard Garwin is an IBM Fellow Emeritus at the Thomas 
J. Watson Research Center in New York and has a--has had a long 
and distinguished career in research, teaching, writing, and 
government policy on nuclear issues. Welcome.
    And then Mr. David Modeen is the Vice President for Nuclear 
Power and the Chief Nuclear Officer of the Electric Power 
Research Institute and is also a nuclear engineer by training.
    As the witnesses know, spoken testimony will be limited to 
five minutes each, after which the Members will have five 
minutes each to ask questions.
    So we will start with Mr. Johnson. You are recognized for 
five minutes.

    STATEMENT OF MR. R. SHANE JOHNSON, DEPUTY DIRECTOR FOR 
 TECHNOLOGY, OFFICE OF NUCLEAR ENERGY SCIENCE AND TECHNOLOGY, 
                      DEPARTMENT OF ENERGY

    Mr. Johnson. Chairman Biggert, Ranking Member Honda, and 
Members of the Subcommittee, I would like to express my thanks 
for the opportunity to discuss the Administration's proposed 
Global Nuclear Energy Partnership, or GNEP, with you this 
morning. I have submitted a written statement for the record 
but would like to provide a few summary remarks.
    The Global Nuclear Energy Partnership is the nuclear energy 
component of the President's Advanced Energy Initiative, and it 
addresses the global issues of energy security, the 
environment, and nuclear proliferation. To support the Global 
Nuclear Energy Partnership, the Department has proposed $250 
million in fiscal year 2007 to accelerate efforts already 
underway under our Advance Fuel Cycle Initiative to demonstrate 
technologies associated with spent nuclear fuel recycling. My 
testimony today focuses on the goals, schedule, and anticipated 
cost of the technology development component of the Global 
Nuclear Energy Partnership.
    The President has stated a policy goal that includes 
worldwide expansion of nuclear energy. The reasons for this are 
obvious: nuclear power is the only mature technology of 
significant potential to provide large amounts of emission-free 
baseload power, resulting in cleaner air, reduced global 
greenhouse gas intensities, pollution abatement, and energy 
diversity.
    To accomplish the objectives of the Global Nuclear Energy 
Partnership, the Department proposes to accelerate the 
development, demonstration, and deployment of new technologies 
to recycle spent fuel through the Office of Nuclear Energy's 
Advanced Fuel Cycle Initiative. As an initial step, the 
Department has requested $250 million in our fiscal year 2007 
budget request.
    As part of this initial step, the Department proposes to 
accelerate the demonstration of more proliferation-resistant 
recycling technologies. In concert with this, the Department 
will work with international partners to incorporate advanced 
safeguard technologies into the design and potential 
construction of advanced facilities. In broad outline, the 
technology demonstration phase consists of developing, 
designing, constructing, and operating an integrated set of 
demonstration facilities: an advanced separations technology, 
called Uranium Extraction Plus, or UREX+, which features a 
group transuranic separations process; an advanced fast burner 
reactor that could consume the transuranics from the spent 
fuel, significantly reducing the amount of nuclear waste 
requiring disposal; and a new fuel cycle laboratory for 
developing the transuranic fuels needed for the advanced 
reactor.
    By proceeding with the demonstrations of these 
technologies, we will learn the practicality of closing the 
fuel cycle in the United States. We have had considerable 
success demonstrating the advanced separations technology at 
the laboratory scale. However, by demonstrating the closure of 
the fuel cycle at an engineering scale, we will be able to 
optimize the design of a future full-scale facility and reduce 
the cost and time to deploy such a facility.
    The Department has established a target range of 2011 to 
2015 for initial operation of the advanced separations 
facility, 2014 to 2019 for initial operation of the advanced 
test burner reactor using conventional fuels, and 2016 to 2019 
for the first modules of the advanced fuel cycle laboratory.
    Early preconceptual estimates of the cost to bring these 
facilities to the point of operation range from $4 billion to 
$10 billion. As the project matures, we will develop more 
detailed and accurate baselines of cost and schedule.
    Presently, the Department's efforts are aimed at conducting 
the applied research, engineering, and environmental studies 
needed over the next two years to inform a decision in 2008 on 
whether to proceed to detailed design and construction of these 
facilities.
    In fiscal year 2007, the Department would continue the 
applied research to refine the UREX+ technology, begin work on 
the conceptual design, functions, and operational requirements 
and other analyses leading to the development of baseline costs 
and schedules for these three facilities.
    The Department would also propose to invest in the 
development of the advanced burner reactor technology, initiate 
conceptual design studies, and start a series of extensive 
studies again, to establish cost and schedule baselines for the 
advanced burner reactor.
    To guide this effort, the Office of Nuclear Energy has 
instituted a multi-laboratory process to develop the detailed 
program plan that will lay out the scope of work for the next 
five years. This plan will establish the milestones and work to 
be accomplished and establish the research priorities for the 
next five years, subject to appropriations. This plan is 
expected to be completed in May 2006.
    The integration of basic research and simulation in the 
Global Nuclear Energy Partnership is a key priority for the 
Department. The Department organized a workshop on simulation 
for the nuclear industry at our Lawrence Livermore National 
Lab, and the Office of Science will lead a program of basic 
science workshops this summer. The results from these workshops 
will help guide our long-term R&D agenda for closing the fuel 
cycle.
    We are in a much stronger position to shape the future if 
we are part of it.
    In closing, this is an ambitious plan, and the technology 
demonstrations will be a key challenge for the United States 
and our partner countries. But it is an endeavor, if 
successful, that can ensure that nuclear energy is available, 
safe, and secure for generations to come. We seek the advice 
and support of this Committee and of the Congress, and I look 
forward to answering your questions.
    [The prepared statement of Mr. Johnson follows:]

                 Prepared Statement of R. Shane Johnson

    Chairman Biggert, Ranking Member Honda, and Members of the 
Committee, it is an honor for me to be here today before the House 
Science Subcommittee on Energy to discuss the Administration's proposed 
Global Nuclear Energy Partnership or GNEP. GNEP is the nuclear energy 
component of the President's Advanced Energy Initiative and it 
addresses the global issues of energy security, the environment, and 
nuclear proliferation. To support GNEP, the Department has proposed 
$250 million in fiscal year 2007 to accelerate efforts under the 
Advanced Fuel Cycle Initiative (AFCI) to demonstrate technologies 
associated with spent nuclear fuel recycling. My testimony today 
focuses on the goals, schedule and anticipated costs of the technology 
development component of GNEP.
    As you know, the President has stated a policy goal of promoting a 
significant expansion of nuclear power here in the United States and 
around the world. The reasons for this are clear--total world energy 
demand will double by 2050 and over the next twenty years, electricity 
demand alone will increase 75 percent over current levels. The safety 
and performance record of nuclear energy in the U.S. has been 
outstanding. It is a proven technology that can deliver large 
quantities of electricity that will be needed in the future, reliably, 
predictably, affordably and without producing harmful air emissions.
    Building on the efforts of the Administration and because of 
Congress efforts in passing the Energy Policy Act of 2005, we are 
confident that there will be new plants built in the U.S. over the next 
10 years. With more than 130 new nuclear plants under construction, 
planned or under consideration world-wide, many countries around the 
world are clearly moving forward with new nuclear plants.
    As such, it is important for our own future that nuclear energy 
expands in a way that is safe and secure, in a way that will not result 
in nuclear materials or technologies used for non-peaceful purposes. 
But significant growth will not be possible unless we effectively 
address the fuel cycle and spent fuel management.
    The U.S. operates a once-through fuel cycle, meaning that the fuel 
is used once and then disposed of without further processing. In the 
1970's, the U.S. stopped the old form of reprocessing, principally 
because it could be used to produce separated quantities of plutonium, 
a nuclear proliferation concern. But the rest of the nuclear 
economies--France, Japan, Great Britain, Russia and others operate 
closed fuel cycles, in which spent fuel is processed and the plutonium 
and uranium are recovered from the spent fuel to be recycled back 
through reactors. As a result, the world today has a buildup of nearly 
250 metric tons of separated civilian plutonium. The world also has 
vast amounts of spent fuel and we risk the continued spread of fuel 
cycle technologies. Furthermore, recent years have seen the unchecked 
spread of enrichment technology around the world.
    Opening Yucca Mountain remains a key priority of the Administration 
and is a necessity. We are committed to beginning operations at Yucca 
Mountain as soon as possible so we can begin to fulfill our obligation 
to dispose of the approximate 55,000 metric tons already generated and 
approximate 2,000 metric tons being generated annually. Whether we 
recycle or not we must have Yucca Mountain open as soon as possible. 
However, the statutory capacity of Yucca Mountain will be 
oversubscribed by 2010 and without GNEP simply maintaining existing 
nuclear generating capacity would require additional repositories in 
the U.S.
    GNEP seeks to address the challenges of the expansion of nuclear 
power and limiting proliferation risk by developing technologies that 
can recycle the spent nuclear fuel from light water reactors in a more 
proliferation-resistant manner. In addition, GNEP supports a reordering 
of the global nuclear enterprise to encourage leasing of fuel from what 
we call fuel cycle states in a way that presents strong commercial 
incentives against new states building their own enrichment and 
reprocessing capabilities. For the U.S., transition to a closed fuel 
cycle would enable more efficient use of our nuclear fuel resources, 
would significantly reduce the nuclear waste that requires disposal in 
a geologic repository and would assure sufficient repository capacity 
through the end of the century.
    To accomplish these objectives, the Department proposes to 
accelerate the development, demonstration, and deployment of new 
technologies to recycle spent fuel through the Office of Nuclear 
Energy's AFCI program. These are technologies that would not result in 
separated plutonium--a key proliferation concern presented by current 
generation reprocessing technologies. Moreover, these technologies 
would be deployed in partnership with other fuel supplier nations. As 
an initial step, the Department has requested $250 million in FY 2007.
    By proceeding with the demonstrations of the separations, fuels and 
reactor technologies, we will learn the practicality of closing the 
fuel cycle in the U.S. We have had considerable success demonstrating 
the advanced separations technology, in particular, at the ``laboratory 
scale.'' However, by demonstrating a closed fuel cycle at an 
``engineering scale,'' will enable us to optimize the design of a full-
scale facility and reduce costs and time to deploy a full-scale 
facility. This will give us the information we need to design and 
deploy full-scale recycling facilities by the time they are needed 
decades from now.
    The U.S. would propose to work with international partners to 
conduct an engineering-scale demonstration of advanced separations 
technologies (e.g., a process called Uranium Extraction Plus or UREX+) 
that would separate the usable components in used commercial fuel from 
its waste components, without separating pure plutonium from other 
transuranic elements.
    In addition, the Department would propose to demonstrate the 
ability to consume transuranic elements separated from the spent 
nuclear fuel in a fast reactor called the Advanced Burner Test Reactor 
(ABTR). In conjunction with this, DOE would propose an Advanced Fuel 
Cycle Facility (AFCF) to fabricate and test the actinide based fuels 
for the demonstration test reactor.
    The Department has established a target of 2011 for initial 
operation of the advanced separations demonstration facility, 2014 for 
initial operation of the Advanced Burner Test Reactor using 
conventional fuels, and 2016 for the first modules of an AFCF. The 
first mission of the AFCF would be to produce actinide-based fuels for 
the ABTR.
    Early, pre-conceptual estimates of the ten-year cost to bring the 
engineering scale facilities to the point of initial operation range 
from $4 billion to $9 billion. As the project matures, we will develop 
more detailed and accurate baseline of cost and schedule estimates. The 
experience with the engineering scale demonstrations will inform the 
design, cost estimates and schedule for building full-scale recycling 
facilities. More accurate estimates of the demonstration phase will be 
available as the conceptual and preliminary design phases are 
completed.
    The GNEP technology demonstration program is a phased program. Each 
phase would begin after a well defined decision on the results of the 
previous phase and an assessment of the risks associated with 
proceeding to the next phase. DOE would only proceed to detailed design 
and construction of these engineering scale demonstrations after the 
Department is confident that the cost and schedules are understood and 
after we have put in place the project management framework that will 
allow these projects to succeed. Presently, the Department's efforts 
are aimed at conducting the applied research, engineering and 
environmental studies needed over the next two years to inform a 
decision in 2008 on whether to proceed to detailed design and 
construction of the engineering scale demonstration facilities. The 
$250 million requested in FY 2007 is the Department's best assessment 
of the funding required for GNEP program technical development 
priorities and sequencing toward demonstration facilities.
    This week, the Department approved the mission need for the 
demonstration facilities. The Department also issued an advance notice 
of intent, announcing plans to prepare an environmental impact 
statement for the GNEP technology demonstration program. The EIS effort 
is anticipated to be completed over the next two years. Also last 
month, the Department announced that it is seeking expressions of 
interest from the public and private sectors for hosting advanced 
recycling demonstration facilities and related activities. The 
Department anticipates issuing a Request for Proposals after 
consideration of the comments received and would anticipate contract 
awards for site evaluation studies later this year.
    In FY 2006 and FY 2007, the Department would continue the applied 
research to refine the UREX+ technology, begin work on a conceptual 
design, acquisition strategy, functions and operating requirements and 
other analyses leading to the development of baseline costs and 
schedules for the UREX+ demonstration, the advanced burner test 
reactor, and the advanced fuel cycle facility by 2008. The Department 
would also propose to invest $25 million in FY 2007 on the advanced 
burner reactor technology, to initiate conceptual design studies and a 
series of extensive studies to establish cost and schedule baselines 
and determine the scope, safety, and health risks associated with fuel 
design, siting and acquisition options.
    To guide this effort, the Office of Nuclear Energy has instituted a 
multi-lab process to develop a program plan and a five-year technology 
plan. The effort involves nine national laboratories. The overall 
effort also involves several program secretarial offices, including the 
National Nuclear Security Administration. For example, NNSA will 
provide key assistance in assuring that safeguards approaches and 
technologies are incorporated into the demonstration facilities early 
in the planning for the facilities.
    The five-year technology plan will establish the milestones, the 
work to be accomplished and establish applied research priorities over 
the next five years, subject to appropriations. The technology plan is 
anticipated to be completed by the end of May 2006. Execution would 
extend from the Department down to the multi-lab teams.
    In addition, while DOE currently sponsors university research 
grants through the Nuclear Energy Research Initiative, universities 
will be engaged through an embedded research and development program. 
Industry will also be engaged as the program progresses through the 
design process to provide specific expertise.
    Demonstration of the key technologies demands that DOE carry out a 
variety of research; ranging from technology development for those 
processes initially identified (equipment, waste forms) to longer-term 
research and development on alternatives (equipment, processes) for 
risk reduction. In addition, the Office of Science is initiating a 
program of basic science in support of nuclear technology with three 
technical workshops in July 2006. Although not specific to GNEP, the 
results of this activity will help guide the long-term R&D agenda for 
closing the fuel cycle.
    Furthermore, simulation is expected to play an important role in 
the development of this program. DOE organized a workshop on simulation 
for the nuclear industry at Lawrence Livermore National Laboratory 
which was chaired by Argonne's Lab Director, Dr. Robert Rosner, and Dr. 
William Martin from the University of Michigan. We expect to see a 
greater role for simulation as a result, supported by both the Office 
of Science and the Office of Nuclear Energy.
    Systems analysis forms an important part of the ongoing AFCI 
program and will have an increased role during the next two years. The 
systems analysis will investigate several key issues. One such issue is 
the required rate of introduction of burner reactors and separations 
facilities to avoid a second repository this century. Another would be 
a detailed study of the technical requirements for the facilities and 
how they relate to the top level goals of the program. The results of 
these analyses are essential to establishing the basis for each key 
decision in the accelerated AFCI program and will have a profound 
effect on GNEP program planning.
    In closing, the U.S. can continue down the same path that we have 
been on for the last thirty years or we can lead a transformation to a 
new, safer, and more secure approach to nuclear energy, an approach 
that brings the benefits of nuclear energy to the world while reducing 
vulnerabilities from proliferation and nuclear waste. We are in a much 
stronger position to shape the nuclear future if we are part of it. 
This is an ambitious plan and the technology demonstrations will be a 
key challenge for U.S. and our partner nations. But it is an endeavor, 
which if successful, can ensure that nuclear energy is available, safe 
and secure for generations to come. We seek the advice and support of 
this committee and of Congress and I look forward to answering your 
questions.

                     Biography for R. Shane Johnson

    Shane Johnson is the Deputy Director for Technology within DOE's 
Office of Nuclear Energy. Since 2004, Mr. Johnson as served as Deputy 
Director for Technology, responsible for the Department's nuclear 
energy research and support to U.S. nuclear engineering programs. Mr. 
Johnson served as Acting Director for the Office of Nuclear Energy, 
Science and Technology between May 2005 and March 2006.
    For the last six years, Mr. Johnson has led the Office's nuclear 
technology initiatives, serving a key leadership role in the initiation 
and management of all of the Office's major research and development 
initiatives, including the Generation IV nuclear systems initiative, 
the Advanced Fuel Cycle Initiative, and the Nuclear Hydrogen 
Initiative.
    Mr. Johnson serves a central role in the Department's efforts to 
reassert U.S. leadership in nuclear technology development. He is the 
senior principal in NE responsible for the recently announced Global 
Nuclear Energy Partnership. He also led the formation of the Generation 
IV International Forum (GIF), an international collective of ten 
leading nations and the European Union's Euratom, dedicated to 
developing advanced reactor and fuel cycle technologies. He leads the 
Office's international cooperation activities, including establishment 
of cooperative research agreements with other countries and the 
development by the GIF of the Generation IV technology roadmap, which 
resulted in the selection of six promising reactor and fuel cycle 
technologies by the GIF for future development efforts. Mr. Johnson 
currently serves as the U.S. representative to the GIF policy 
committee.
    Mr. Johnson has over twenty years of relevant management and 
engineering experience within the Government and industry. During his 
career with NE, he has had direct management responsibility for all of 
the NE programs, including nuclear and research facilities. Prior to 
joining DOE, Mr. Johnson was employed for five years by Duke Power 
Company and Stoner Associates, Inc. where he was responsible for 
performing engineering studies for nuclear, natural gas, and water 
utilities.
    Mr. Johnson received his B.S. degree in Nuclear Engineering from 
North Carolina State University and his M.S. degree in Mechanical 
Engineering from Pennsylvania State University. He is a licensed 
professional engineer.

    Chairwoman Biggert. Thank you very much.
    I would just like to interrupt a moment to extend a warm 
welcome to our colleague from California, Mr. Rohrabacher, who 
I know is very interested in this issue. And I would ask 
unanimous consent that he would be allowed to sit with the 
Subcommittee and participate in today's hearing. Without 
objection, so ordered.
    Dr. Todreas, you are recognized for five minutes.

 STATEMENT OF DR. NEIL E. TODREAS, KEPCO PROFESSOR OF NUCLEAR 
ENGINEERING; PROFESSOR OF MECHANICAL ENGINEERING, MASSACHUSETTS 
                    INSTITUTE OF TECHNOLOGY

    Dr. Todreas. Thank you, Madame Chairwoman and Members of 
the Committee.
    It is an honor to appear before you to discuss GNEP. The 
program offers a strategic vision for expanded use of nuclear 
energy in the world and in the United States. Its achievement 
of its goals, as a long-term objective, is highly desirable.
    However, my concerns deal with the apparent schedule of 
rapid implementation of GNEP program elements, a schedule which 
implies near-term choice and deployment. And here, I am not 
speaking of R&D. I am making a distinction of R&D with choices 
on reprocessing technologies, fast reactor fuel, fast reactor 
design characteristics, and associated reactor demonstration 
facilities. These near-term choices are not necessary since 
alternate approaches are sufficient for spent fuel and 
proliferation management over the time period before GNEP could 
provide an effect. Rapid implementation of choices is unwise 
since it threatens the successful execution of a GNEP program. 
By successful program execution, I mean effective integration 
and coordination of program elements, expenditures which are 
both reasonable and sustainable, protection of the public as 
well as worker health and safety, facilities with adequate and 
demonstrable physical protection, and an expanding nuclear 
deployment with adequate proliferation safeguards.
    My focus this morning, and in my written statement, was on 
the formulation and timing of the R&D program. I speak on GNEP 
from limited literature materials. I must say the depth of 
detail provided by DOE on GNEP through these sources is 
technically very meager.
    I framed my views in the written statement and this 
morning, as I talk, on the key facilities for GNEP, 
particularly their missions and their time scales. It is these 
deployment schedules which shape the allowed depth and breadth 
of the R&D associated with each facility.
    First is the simulation and visualization lab.
    Simulation and visualization are properly the initial step 
underlying all subsequent selections among process, 
fabrication, and reactor design choices. It is here the R&D 
data are used to formulate and/or validate predictive models 
for such selections. Our MIT study highlighted the lack of such 
a capability in the Nation's nuclear program and recommended 
that among 11 program elements we proposed, it received the 
largest R&D expenditure, that of $100 million per year over 10 
years. I applaud the launching and the plan for this.
    The Engineering Scale Demonstration is next to be operable 
in 2011. It is here the process for separation of uranium and 
short-lived fission products from the transuranics and the 
long-lived fission products is to be demonstrated. The 
selection of the separation process is the first critical step. 
As has been mentioned, UREX+1, or perhaps UREX+1A, I haven't 
been able to figure that out yet, has been selected at a 
capacity of 100 to 200 tons per year. The important question is 
whether there is a satisfactory basis for this selection for 
scale-up from the laboratory to pilot plant since it is an 
important and large expenditure. The criteria against which 
these questions must be answered are process economics, safety, 
materials accountability, and physical protection. Some 
demonstration above the laboratory scale must be made, but it 
shouldn't be premature, because it locks GNEP into a critical, 
likely irreversible, plan.
    I have comments on each of the facilities. We can discuss 
these, if you want. I will move toward a conclusion.
    By the facilities, I mean the test reactor, the advanced 
burner reactor, and the fuel cycle--advanced fuel cycle 
facility, as well as, actually, small-scale reactors. Those 
four are additional critical facilities.
    I wanted to close, though, with pointing out to you that 
while the partnership is very technically-intensive and long-
term, its execution and the probability of the success will 
depend heavily on the technical strengths of the new generation 
of nuclear professionals recruited to its ranks.
    The U.S. academic community today lacks depth in its 
faculty in reprocessing technology and in reactor design. So it 
is unfortunate in two aspects that the existing AFCI fellowship 
program in the new budget proposed has been cut in half and 
also that the Department terminated the broader, all-
encompassing university research fuel and assistance support 
program, which is the primary vehicle for supporting the 
infrastructure of the nuclear engineering academic community.
    In summary, GNEP is worthy of pursuit, however, there are 
serious decisions about its possible and optimum pace to be 
resolved, which involve technical readiness, facility processes 
and scale selection, and the consequences of redirecting most 
of the available funding for nuclear energy to this program.
    Thank you.
    [The prepared statement of Dr. Todreas follows:]

                 Prepared Statement of Neil E. Todreas

Madam Chairwoman and Members of the Committee:

    It is an honor to be called before you to discuss the subject of 
the Global Nuclear Energy Partnership, a matter of considerable 
importance to the future of nuclear energy as well as to the effort to 
prevent the further spread of nuclear weapons.\1\
---------------------------------------------------------------------------
    \1\ Previous hearings of this subcommittee reviewed the security 
and economic aspects of reprocessing, a key element of the GNEP vision.
---------------------------------------------------------------------------
    The GNEP program offers a strategic vision for the expanded use of 
nuclear energy in the U.S. and the world. Its goals are to ease the 
long-term management of spent fuel by destroying the transuranic (TRU) 
elements that contribute most to the long-term radiological risk and to 
reduce proliferation risk by creating a fuel cycle supplier and user 
state regime. This will enable other nations, including developing 
nations, to acquire/expand nuclear energy while minimizing 
proliferation risk. Achievement of these goals as a long-term objective 
is highly desirable.
    However, my concerns deal with the apparent schedule of rapid 
implementation of the GNEP program elements--a schedule which implies 
near-term choice and deployment of reprocessing technologies, fast 
reactor fuel, fast reactor design characteristics as well as associated 
reactor demonstration facilities. These near-term choices are not 
necessary since alternate approaches are sufficient for spent fuel and 
proliferation management over the time period before GNEP could provide 
an effect. Rapid implementation of choices is unwise since it threatens 
the successful execution of a GNEP program. By successful program 
execution I mean effective integration and coordination of the program 
elements, expenditures which are both reasonable and sustainable 
considering program benefits, protection of public as well as worker 
health and safety, facilities with adequate and demonstrable physical 
protection and an expanding nuclear deployment with adequate 
proliferation safeguards.
    My focus this morning will be on the formulation and timing of the 
R&D program underlying such a successful GNEP program execution. The 
broader questions of the alternate approaches to deal with GNEP goals 
in the next several decades as well as GNEP's potential detrimental 
effect on nearer-term nuclear priorities such as achievement of the 
Nuclear Power 2010 program I'll set aside for industry representatives 
and your later questions.
    I speak on the GNEP program based on the limited open literature 
materials I have found (Appendix A). As a member of the general nuclear 
community, I have not been briefed on GNEP; as a member of NERAC, I 
have had access to only a very general DOE briefing and the recent 
report of our relevant Subcommittee. In sum, I must say the depth of 
detail on GNEP provided by DOE through these sources is technically 
very meager.
    I will frame my views through comment on the key facilities of GNEP 
and particularly their missions and timelines. (Appendix B) It is these 
deployment schedules which shape the allowed breadth and depth of the 
R&D associated with each facility. I have found no information on the 
projected costs of these facilities. This is not unreasonable since the 
process selection and designs of these facilities are likely in their 
infancy--a situation I respect but which reflects the significant R&D 
challenge ahead.
    From the GNEP website, the first facility to be operational is the 
Simulation & Visualization Laboratory. Simulation and Visualization are 
properly the initial step underlying all subsequent selections among 
process, fabrication and reactor design choices. It is here that R&D 
data are used to formulate and/or validate predictive models for such 
selections. Our MIT Study on the Future of Nuclear Power (7/03) 
highlighted the lack of such capability in our nuclear program and 
recommended that it receive the largest sustained R&D expenditure 
($100M/year over 10 years) among the eleven program elements we 
proposed.
    The Engineering Scale Demonstration (ESD) is the next facility to 
be operational, in 2011. Here the process for separating uranium and 
short-lived fission products from the transuranics and longer-lived 
fission products is to be demonstrated at an engineering significant 
scale. The transuranics are to be supplied to the next facility, the 
Advanced Fuel Cycle Facility (AFCF), for conversion and fabrication 
into fast reactor fuel.\2\ The selection of the ESD separation process 
is the first critical fuel cycle step of GNEP. The UREX+1 process and 
its capacity at 100-200 tons per year have been selected. This capacity 
is about four to eight percent of the anticipated full-scale need for 
our LWR fleet. The important question is whether there exists 
satisfactory basis for this selection process for scale-up from the 
laboratory to a pilot plant. The criteria against which these questions 
must be answered are process economics, safety, materials 
accountability and physical protection. I have not been privy to the 
evidence which supports the current GNEP selections. Some demonstration 
above laboratory scale must be made--it must not be made prematurely 
because it locks GNEP into a critical, likely irreversible path.
---------------------------------------------------------------------------
    \2\ Lanthanide fission products are likely extracted in the TAL 
SPEAK process before TRU conversion and fabrication into fuel elements.
---------------------------------------------------------------------------
    The Advanced Burner Test Reactor (ABTR) is next operational in 
2014. Nuclear fuel, because of the long lead time needed for 
irradiation testing, is always the critical path item in reactor 
development. For transmutation in TRU fueled elements such testing is 
essential, hence the need for a test reactor. Limited testing 
capability exists in Japanese, Russian, Indian and--for a very limited 
future period--French reactors, which I presume is being arranged. The 
U.S. facility, the FFTF, is now unavailable--is it irretrievably lost 
to us? I support the need for a U.S. fast spectrum test reactor as part 
of a robust R&D program. Timing dictates it be sodium cooled and, 
likely at least initially, oxide fueled. Since Advanced Burner Reactors 
of similar design may follow, the construction and safety standards as 
well as the regulatory review process developed for this test reactor 
can be tailored to set precedent and practice for this follow-on fleet. 
This was the practice followed in the execution of the FFTF project. 
While costly to the test reactor schedule, such a practice 
significantly enhances the progress of deployment of any follow-on 
power reactor fleet. A 2014 operational target date is most aggressive 
but the goal can be reached in the 2010s decade.
    The Advanced Fuel Cycle Facility (AFCF) is envisioned as a multi 
module facility first operational in 2016. It will have modules to 
perform production scale

        1)  separations operations on spent LWR fuel,

        2)  remote fabrication of TRU-bearing fuel for Advanced Burner 
        Reactors,

        3)  spent fast reactor fuel processing,

        4)  waste and storage form development,

        5)  advanced separations process development.

    This is the mainstay facility for execution of the closed fuel 
cycle. It is critical that the fast reactor fuel selected allow 
achievement of both the desired fast reactor performance 
characteristics and the needed processing and fabrication 
characteristics. The economics, safety, materials accountability and 
physical protection of the GNEP closed cycle must be reasonably assured 
through simulation and visualization based on firm R&D results before 
construction of such a facility is undertaken. The announced schedule 
of achievement of operational modules for these three functions between 
2016 and 2019 is highly optimistic.
    The deployment of Advanced Burner Reactors (ABR) for TRU management 
then follows beginning in 2023. These fast reactors are likely to be 
sodium cooled, although gas and liquid lead cooled designs are 
possible. This selection was one of the goals of the Generation IV 
down-select process which the current level of research activity does 
not support. ABRs will be electricity producers owned and operated by 
industry along with the thermal LWRs needed to achieve expected nuclear 
power demand. Significant deployment of ABRs will be needed to 
measurably impact TRU management. It is therefore essential that these 
ABRs produce electricity at cost competitive with the LWRs. Given that 
the fuel cycle is likely to be more expensive than the existing once-
through cycle and when last built in the 1990s sodium fast reactors 
were 1.2 to 1.5 times the capital cost of LWRs, this prospect is 
daunting. To achieve cost competitiveness a major R&D effort on cost 
efficient fast reactor innovations is essential. Its success is far 
from assured. The proposed timeframe of ABR deployment in 2023 is most 
unlikely considering the time needed to select and test its fuel, 
develop its reprocessing technology, make its design cost effective 
and, importantly, effectively engage industry as the owners and 
operators of the subsequent ABR fleet.
    It is also not obvious why, at least for a transition period of 
multiple decades, a two-tier strategy is not envisioned to allow a fast 
reactor concept to be designed and tested. One such strategy would 
recycle the plutonium plus the other actinides in fertile free pins 
which comprise a fraction of a LWR core. Although final passes in a 
fast spectrum are likely needed because of curium buildup in a thermal 
spectrum, thermal recycling has been determined to destroy significant 
quantities of TRU. The benefit of this scheme is the existing 
availability of operating LWRs to do this transmutation function.
    The final facilities in GNEP are Small-Scale Reactors for 
developing economies for which fresh fuel would be provided and spent 
fuel returned to the supplier states. The small scale is not 
necessitated by the fuel cycle but rather the electrical grid and 
capital structure of the developing economy. Such a supply and spent 
fuel return arrangement would provide adequate proliferation safeguards 
in an era of worldwide expansion of nuclear technology. It is, however, 
by no means certain that the capital and fuel cycle costs of these 
small-scale reactors would yield an attractive cost of electricity 
(COE) for these economies. Considerable R&D needs to be supported by 
DOE to refine such designs to a level where realistic COE can be 
projected and proliferation resistant effectiveness assessed especially 
if fast spectrum design options are to be considered. There are, 
however, some innovative LWR designs already existing and pebble bed 
reactors being developed in South Africa and China that offer 
considerable advances in reactor safety features which bode well for 
introduction of nuclear power into technically unsophisticated nuclear 
economies, if competitive COE can be achieved.
    Two important topics remain--first, the proliferation dangers of 
diffusion of reprocessing technology and second, the readiness of the 
U.S. educational infrastructure to sustain the GNEP. The first involves 
the proposition that these dangers are so serious that all work should 
be avoided, especially since the practical need for deployment of 
reprocessing is so distant. The alternate view is that U.S. R&D is 
necessary to maintain U.S. credibility and influence in international 
affairs.
    Quoting from a working paper of the MIT Study (Deutch, 2/03), 
``There are basically three costs of the U.S. not supporting separation 
technology going forward. First, and most importantly, we will lack the 
technical knowledge to be credible and influential in the evolution of 
commercial nuclear power. Second, we will not acquire the knowledge 
necessary to develop effective safeguards for operating reprocessing 
facilities in other nations. Third, we will not acquire the knowledge 
to permit us to make timely and informed judgments about long-term 
options for closed nuclear fuel cycles that may be of importance in 
future generations.'' These costs dictate that we pursue such R&D.
    In closing, let me remind you that this Partnership is a very 
technically intensive and long-term undertaking. Its execution and 
certainly its probability of success will depend heavily on the 
technical strength of the new generation of nuclear professionals 
recruited to its ranks. The U.S. nuclear academic community today lacks 
depth in faculty skilled in recycling and particularly reprocessing as 
well as fast reactor analysis and design technology. Consequently, the 
stream of graduates in these areas is very small. The Department's AFCI 
program has started an education assistance initiative which I presume 
will be subsumed by a GNEP program although it has been proposed to be 
halved by DOE for FY 2007. However, these very limited actions need the 
existence of the broader program of Department nuclear education 
support to build and sustain the infrastructure necessary for the 
success of these limited, targeted AFCI/GNEP fellowship programs. 
University administrators look to government and industry support of 
such programs for indication that the nuclear renaissance is real. It 
is ironic and self-defeating that, coincident with the launching of 
GNEP, the Department has proposed termination of its University Reactor 
Fuel Assistance and Support Program, which is a primary vehicle for 
supporting nuclear engineering graduate students and university faculty 
research.
    In summary, GNEP is worthy of pursuit; however, there are serious 
decisions about its possible and optimum pace to be resolved which 
involve technical readiness, facility processes and scale, and the 
consequences of redirecting essentially most of the available funding 
for nuclear energy to this effort.

Appendix A

                           Sources Consulted

1.  DOE websites

          www.gnep.gov or

          www.gnep.energy.gov

2.  Advanced Fuel Cycle Initiative, FY 2007 Congressional Budget 
Request

3.  Statement of Clay Sell to FY 2007 Appropriations Hearing on the 
Global Nuclear Energy Partnership, March 2006

4.  GNEP Presentation to Nuclear Energy Research Advisory Committee 
(NERAC) on February 22, 2006 by R. Shane Johnson, Acting Director, 
Office of Nuclear Energy, Science and Technology, U.S. DOE

5.  Presentation on March 10, 2006 by Phillip Finck, Argonne National 
Laboratory, ``The Benefits of the Closed Nuclear Fuel Cycle''

6.  EPRI-INL, Nuclear Energy Development Agenda, January 4, 2006

7.  Report of NERAC's ANTT Subcommittee of March 22, 2006 transmitted 
to NERAC for review.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                     Biography for Neil E. Todreas

    Dr. Neil Todreas is the Korea Electric Power Corp. Professor of 
Nuclear Engineering and a Professor of Mechanical Engineering at the 
Massachusetts Institute of Technology. He has served at MIT for 34 
years, including an eight-year period from 1981-1989 as the Nuclear 
Engineering Department Head. From 1975 to 2003, was a co-director of 
the MIT Nuclear Power Reactor Safety summer course,. He holds Bachelor 
and Master of Mechanical Engineering degrees from Cornell and the Sc.D. 
in Nuclear Engineering from MIT. His area of technical expertise is 
thermal and hydraulic aspects of nuclear reactor engineering and safety 
analysis.
    He has an extensive record of service for government (Department of 
Energy--DOE, U.S. Nuclear Regulatory Commission--USNRC, and national 
laboratories), utility industry review committees, and international 
scientific review groups. Dr. Todreas started his professional career 
with nine years of service with the U.S. Atomic Energy Commission, four 
years initially with Naval Reactors and a subsequent five years with 
Civilian Reactor Development. He is a member of the National Academy of 
Engineering and a fellow of the American Nuclear Society (ANS) and the 
American Society of Mechanical Engineers (ASME).
    His current service is as a member of the National Accreditation 
Board of INPO, the DOE Nuclear Energy Research Advisory Committee, and 
the CEA Nuclear Energy Division Scientific Committee.

HONOR & AWARDS

Effective Teaching Award, MIT Graduate Student Council--1975

Outstanding Professor Award, Nuclear Engineering Department--1976, 1980

Fellow, American Nuclear Society--1981

Fellow, American Society of Mechanical Engineers--1983

American Nuclear Society Best Paper Award, Thermal-Hydraulic Div.--1987

National Heat Transfer Conference Best Paper Award--1987

Member, National Academy of Engineering--1988

Chair, Korea Electric Power Corp. Professor of Nuclear Engineering--
        1992

American Nuclear Society Technical Achievement Award, Thermal-Hydraulic 
        Division--1994

MIT School of Engineering Ruth & Joel Spira Award for Distinguished 
        Teaching--1995

American Nuclear Society Arthur Holly Compton Award--1995

Inaugural Lecture, Distinguished Lecture Series of the Department of 
        Mechanical & Nuclear Engineering, Pennsylvania State 
        University--2001

Inaugural Lecture, O'Hanian Engineering Lecture Series, University of 
        Florida--2002

Henry DeWolf Smyth Nuclear Statesman Award--2005

PUBLICATIONS

    Professor Todreas has made important contributions in the areas of 
reactor heat transfer and fluid flow. He has written or been co-author 
of more than 190 publications, a two-volume textbook published in 1990, 
which is widely used internationally for the study of reactor thermal 
analysis and a reference book on safety features of light water 
reactors.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairwoman Biggert. Thank you, Doctor.
    And now, Dr. Garwin, you are recognized for five minutes. 
Could you make sure your mike is on?

STATEMENT OF DR. RICHARD L. GARWIN, IBM FELLOW EMERITUS, THOMAS 
        J. WATSON RESEARCH CENTER, YORKTOWN HEIGHTS, NY

    Dr. Garwin. Thank you. I have provided some visual aids to 
help me keep on track.
    So I am speaking on my own. Affiliation is given for 
identification only.
    The U.S. nuclear power plants, 103 of them, provide almost 
20 percent of U.S. electricity, and we want to see that 
expanded in the future. So first, the requirement for GNEP is 
that it do no harm to this industrial base and its future 
expansion.
    Now GNEP includes the provision of reactor fuel to 
international partners and take-back of spent fuel for 
disposal. This is a policy matter, not so much a technical 
matter. We need to create an international system. This is not 
just going to be bilateral.
    Reprocessing can extend uranium resource for light water 
reactors by 20 percent at most and at a cost that is very high, 
$130 to $1,000 per kilogram of uranium saved. The DOE purpose 
in reprocessing is primarily to save the repository resource. 
But at what cost and risk? How much does it cost to save 
compared with expanding the repository, as we will see?
    Yucca Mountain can be extended and replicated. Dry cask 
storage is cheap and safe for 50 to 100 years, so there is 
really no hurry to move on reprocessing, if we do it at all.
    GNEP doesn't propose reprocessing and recycle into light 
water reactors, and for good reason. This was really a failed 
bet on the part of the Japanese, French, and British. The price 
of uranium did not rise, so it has cost them a lot of money and 
immobilized a lot of radioactivity that would otherwise be 
sitting pretty harmlessly in spent fuel.
    The once-through U.S. fuel cycle is far more proliferation 
resistant than is the proposed UREX+ reprocessing. For example, 
to obtain 10 kilograms of plutonium to make a bomb, you must 
steal and reprocess 1,000 kilograms of self-protecting spent 
fuel. With UREX+, you steal 11 kilograms of separated plutonium 
plus some other transuranics.
    GNEP's proposed UREX+ separation for LWR fuel and burning 
in fast neutron advanced burner reactors is far more costly 
than enhancing repository space. Yucca Mountain is estimated at 
200,000 tons technically, and there is a proposal to expand it 
halfway there. The cost that--the charge from DOE is 1 mil per 
kilowatt hour. Eminently affordable, reprocessing and burning 
is going to be at least five times that much.
    Refining the GNEP program without the promised systems 
analysis tool is like driving without a map. Such a tool would 
show that the $155 million first year UREX+ program is 
misguided. UREX is not significantly better than PUREX when 
conducted in the United States or other nuclear weapon state.
    The advanced burner reactor fuel reprocessing needs to be 
99-plus percent efficient, not the LWR reprocessing that is 
done just once. So the goals for UREX+ for reprocessing light 
water reactor fuel are set technically too high. We don't need 
them. We could approach them gradually.
    The ABRs, at least 30 percent of the light water reactors, 
will need to be government-operated or heavily subsidized. With 
this heavy subsidy, it is important to know how much it is 
going to be and for how long. It is very important to have the 
ABR, its fuel form, its fuel reprocessing all decided together 
with an extended design competition that should justifiably 
take decades in order to minimize the subsidy that would be 
required and to find out how much it is.
    Well, what should we do? Lift the arbitrary cap on Yucca 
Mountain, commit to dry cask interim storage, take the lead in 
creating an international system for a short supply of LEU 
reactor fuel and assured disposal, lead in the institutional 
design to encourage commercial competitive mined geologic 
repositories that would be certified by the IAEA to accept IAEA 
certified spent fuel and waste forms, and we should outsource 
to repositories elsewhere, not just in the United States.
    And finally, the United States Government should fund 
worldwide evaluation of resource versus cost of currently 
uneconomic terrestrial and seawater uranium resources. Are 
there 170 million tons of terrestrial uranium up to $260 per 
kilogram? Can we obtain 2,000 million tons of uranium from 
seawater at $300 or $1,000 per kilogram? If we are talking 
about reprocessing and saving uranium at $1,000 per kilogram, 
we ought to know the alternatives. And we need, urgently, to 
complete and use the systems analysis tool to guide decisions, 
not to justify them after the fact.
    Thank you. My prepared testimony, I hope, justifies these 
comments.
    [The prepared statement of Dr. Garwin follows:]

                Prepared Statement of Richard L. Garwin

    I provide here a narrative form of discussion of elements of the 
proposed GNEP, in order that the Committee should understand better my 
recommendations.
    Most important is to understand that 103 reactors in the United 
States provide some 17 percent of U.S. electricity needs now with high 
reliability and that dry cask storage of spent nuclear fuel from these 
reactors is a safe, low-cost approach to covering any further delays in 
the availability of the mined geologic repository at Yucca Mountain.
    I begin by answering the four questions in the invitation from the 
Chairman.

1.  How realistic are the goals, timelines and budgets being proposed 
under the Global Nuclear Energy Partnership (GNEP)?

    Garwin Reply: The goals and timelines advanced under the major 
portion of GNEP are unrealistic. Such a long-term program should not be 
considered without consideration of the long-term budgets rather than 
the near-year expenditures.

2.  What does the Department of Energy (DOE) need to do to develop a 
robust program to meet its goal of an advanced nuclear fuel cycle--one 
that includes both recycling and transmutation--while sufficiently 
addressing non-proliferation and waste management needs?

    Garwin reply: DOE needs to step back from its dirigiste/gigantesque 
(in English, government-directed) approach in GNEP to one that more 
modestly and realistically addresses the primary goal--a reduction in 
repository requirement, while highlighting the cost of alternative 
approaches that include expanding Yucca Mountain, taking the initiative 
toward international commercial competitive mined geologic 
repositories, and greatly expanding the spectrum of reactors to be 
considered for burning the TRU waste.

3.  What significant research and development (R&D) questions, both 
science and engineering, exist for UREX+? Sodium-cooled fast reactors? 
Mixed-actinide fuels? In your view, how well do the GNEP R&D priorities 
coincide with these research needs?

    Garwin reply: GNEP R&D priorities hardly match the needs for 
decision--whether the burner reactors will be sodium or lead cooled, or 
whether they will indeed be thermal high-temperature encapsulated fuel 
reactors. Whether the fuel for the fast-neutron reactor will be 
metallic, carbide, nitride, or based on an inert matrix for one of 
these forms. GNEP assumes the answer and would launch us into a costly 
program that would surely cost more to do the job less well than would 
a program at a more measured pace guided by a more open process.

4.  DOE is in the process of developing the tools to carry out a 
cradle-to-grave systems analysis of the advanced fuel cycle. What 
questions should that systems analysis be able to answer?

    Garwin reply: The GNEP program must await either good human 
leadership or the promised cradle-to-grave systems analysis of the 
advanced fuel cycle. In particular, the questions should include:

        a.  Cost and availability of competitive commercial mined 
        geologic repositories for the direct disposal option.

        b.  Costs and performance (including safety and 
        nonproliferation measures) for reactors suitable for burning 
        TRUs separated from LWR fuel.

        c.  The spectrum of fuels for such burner reactors, 
        understanding that reactor type, fuel choice, and reprocessing 
        approach are coupled, and that not only fast-neutron reactors 
        but some thermal reactors can achieve reductions in 
        transuranics that would expand capacity of a given repository 
        at least several fold.

        d.  The benefit associated with government-funded resource 
        estimation for amount of uranium available as a function of 
        price. This needs to include research and demonstration on 
        obtaining uranium from seawater, where there is at least 2000 
        million tons readily available, but at a price that is very 
        uncertain. Yet the exploration of seawater uranium at costs up 
        to $1000/kg is vital for decision-making in this field and is 
        long overdue.

    There are important points to be made beyond the answers to these 
specific questions.
    There is wide agreement that the ABRs cannot operate economically 
as power producers in competition with LWRs. Yet there is no estimate 
of the government subsidy that would be required for private operation 
or the cost of government operation of these plants. All the more 
reason for a combined technical and economic effort to provide the 
least-cost solution for this vision, in competition with evaluating the 
straightforward approach of commissioning more mined geologic 
repositories.
    As emphasized in my book with Georges Charpak\1\ and in the 
September 2005 book with Charpak and Venance Journe,\2\ we believe that 
the expansion of nuclear power can best be helped now by the United 
States and other nuclear states taking the lead in changing the rules 
to permit and encourage competitive, commercial, mined geologic 
repositories. These would be approved by the IAEA, and would accept 
only spent fuel forms and packages (and vitrified fission-product forms 
and packages) approved by IAEA.
---------------------------------------------------------------------------
    \1\ Book by R.L. Garwin and G. Charpak, ``Megawatts and Megatons: 
The Future of Nuclear Power and Nuclear Weapons,'' University of 
Chicago Press, January 2003.
    \2\ French publication of book by G. Charpak, R.L. Garwin, and V. 
Journe, ``De Tchernobyl en tchernobyls,'' Odile Jacob, September 2005.
---------------------------------------------------------------------------
    Commercial firms operating the repositories would provide 
employment and benefits to the local communities, and rather than 
seeing a repository as a burden, it would be seen by many as a 
commercial opportunity. Russia, China, the United States, Australia, 
and even Sweden might be locations for such repositories.
    The other urgent matter for the U.S. and other governments is to 
determine the cost to obtain vastly more uranium. It is essential to 
know whether half of the 4000 million tons of uranium in seawater can 
be extracted at a cost of $300/kg, as is tentatively suggested by the 
Redbook. Or whether the GEN-IV working group approach that leads to an 
estimate of 170 million tons of uranium from terrestrial deposits at an 
extraction price less than $260/kg is valid.
    So in general I admire the goal of GNEP, but visions that ignore 
technical reality have often led to disasters, since they preclude more 
conventional and incremental approaches.
    Aside from important elements such as the assured fuel supply--
provision of enriched fuel and take back of spent fuel--and the supply 
of cartridge reactors (in competition with other nuclear supplier 
countries, no doubt) GNEP embodies a major vision for the United States 
and for the world.

THE GNEP VISION

    This is to handle in the intermediate term (on the order of 100 
years) the spent fuel from existing nuclear reactors by separating the 
plutonium and other actinides so that they can be burned in fast-
neutron reactors. This is quite different from the reprocessing and 
recycle that has been practiced in France and that is going to take 
place in Japan as well, where the plutonium is fabricated into MOX fuel 
and burned in LWRs. This recycle in LWRs does not in any way solve the 
actinide problem, nor does it help with repository space, because the 
spent MOX fuel element has at least four times the long-term heat 
output of a spent UOX fuel element, and so does not diminish the 
repository space required. Reprocessing as practiced in France, 
Britain, and about to begin in Japan has been a costly way to delay 
putting spent fuel into the repository that all agree is necessary; far 
cheaper would have been the straightforward approach of dry cask 
storage for whatever delay was desired.
    The GNEP vision, however, would have most of the fission products 
extracted from the spent LWR fuel, together with most of the uranium, 
so that a fuel form that might be 15-20 percent actinides mixed with 
some of the initial uranium would provide fuel for a generation of 
fast-neutron Advanced Burner Reactors--ABRs, which are essentially 
breeder reactors without the uranium ``blanket.'' All of the actinides 
can be fissioned with fast neutrons, so they do not accumulate to the 
extent that curium does, for instance, in multiple recycle into LWRs. 
However, since one obtains only about 25 percent burnup of fuel in a 
fast reactor, that fuel needs to be reprocessed and recycled many times 
before the LWR actinides are substantially destroyed. In addition, if 
the actinides are mixed with uranium, the ABR is likely to have a 
``conversion ratio'' on the order of at least 0.50, so that half of the 
actinides destroyed are replaced by Pu-239 that will need to be burned 
in the ABR and thus reduce the rate at which LWR actinides are 
destroyed, for a given thermal output power of the ABR. The question 
for the GNEP vision is how big a repository is needed for U.S. 
commercial fuel (and for possible U.S. reprocessing of foreign fuel) 
and at what cost for the repository and for the measures to reduce the 
necessary size. All indications are that the cost of direct disposal of 
spent LWR fuel is much less than the cost of the reprocessing and ABRs 
that are intended to reduce repository size.
    There are major questions as to the fuel form for the generation of 
ABRs. Will it be metallic fuel, carbide fuel, nitride fuel, or oxide 
fuel? Will it be normal ``mixed fuel'' with uranium, that gives rise to 
more Pu-239, or will it be a ``sterile fuel''--so-called inert matrix 
fuel (IMF)--rather than uranium-based. What will be the delayed neutron 
fraction in that reactor, and how will a safe operating margin be 
achieved?
    Will the ABRs be cooled with liquid sodium or with molten lead? 
There are good arguments on both sides, but GNEP and its supporters 
appear to assume that the cooling will be liquid sodium, in order to be 
able to build the first ``demonstration'' ABR rapidly. This haste and 
ill-defined purpose recall the Clinch River sodium-cooled reactor 
project, terminated in 1977 and against which I testified, which would 
simply have demonstrated the high cost of fast-reactor power in 
comparison with LWRs. If the purpose is to have a ``demonstration/test 
reactor which would be used to effect qualification of advanced burner 
reactor fuel to consume transuranic elements (TRU) from spent light 
water reactor fuel and spent fast reactor fuel,'' why not use existing 
fast reactors in Russia and France for this purpose, thus saving years 
of delay? Simply building another sodium-cooled fast reactor to show 
that it can be done in the U.S. is not likely to advance the 
acquisition of knowledge necessary to the coupled choice of reactor 
type, fuel, and approach for the really difficult job of reprocessing 
ABR fuel with process losses of 0.1 percent or less.
    The reprocessing for the ABR is a more important choice than the 
reprocessing for the LWR, since it needs to be done multiple times, and 
will also set the basis for a later breeder economy. So why is $155M of 
the $250M first-year budget sought for GNEP to go to the demonstration 
of UREX+ reprocessing for LWR fuel? Contrary to the 99.9 percent 
efficiency (0.1 percent loss) sought for each of the many reprocessing 
cycles for ABR fuel, 90 percent efficiency for the one-time 
reprocessing of PWR fuel would obtain most of the benefit. The proposed 
UREX+ ESD plant for PWR fuel is excessively large and has technical 
goals totally unnecessary for this task.
    That fuel for the ABR will need to be available only when we have 
the first-generation ABR coming on-line, and it is an economic waste to 
reprocess the LWR fuel prematurely. The discounted present value (cost) 
of reprocessing is much less if reprocessing is delayed by a further 20 
years, for instance.
    It seems that one ought to have multiple design competitions for 
fast-neutron ABRs, and when the best two ABR designs have been chosen 
after the detailed technical evaluation that such a momentous step 
warrants, two separate engineering designs should be commissioned for 
each, in order to have some confidence of being able to choose the 
better.
    One of the chief concerns with the ABR, as indicated, is its fuel 
composition, and the ABR reprocessing choice needs to be made in 
conjunction with the choice of fuel composition.
    My major concern with the GNEP program as it has been presented is 
that it has the priorities all wrong--with premature initiation of an 
engineering scale demonstration--ESD--of UREX+ for LWR fuel, when what 
we need is to move rapidly to see whether it is technically and 
economically feasible at all to deploy the vast numbers of ABRs that 
are required. This is an old dream, and if it is not feasible, the 
reprocessed LWR fuel will be a security and economic nightmare and an 
impediment to the expansion of nuclear energy supply. Furthermore, the 
technical goals of the program are set far higher than is needed to 
obtain the benefits of reprocessing of PWR fuel.
    The goal of ``proliferation resistance'' is not met in any case, 
because the UREX process itself separates essentially all of the 
uranium. To obtain 10 kg of plutonium from ordinary PWR spent fuel 
containing one percent Pu, a terrorist would need to acquire and 
reprocess 1000 kg of highly radioactive material. Once the uranium and 
the fission products have been removed in any of the UREX processes, 
the plutonium will be contaminated only with a modest amount of 
transuranics (TRU) so that the terrorist would need to reprocess a mere 
11 kg of material, and according to recent DOE studies, this would have 
only about 1/2000 of the penetrating radiation that would count as 
``self protecting.'' In fact, Pu metal contaminated with minor 
actinides could perfectly well be used in an implosion bomb. So UREX 
really offers no significant benefit over PUREX so far as resistance to 
proliferation or terrorist acquisition of weapon-usable materials. Of 
course, radioactivity could be left with or the Pu (actinide) fraction 
and removed after shipment from the PWR reprocessing plant to the ABR 
complex, but the likely contaminant, lanthanides, offer relatively 
little protection and, in any case, does not change the fact that only 
one percent as much material needs to be diverted and processed as in 
the case of spent LWR fuel itself.
    The relatively minor goal of reducing uranium requirement comes at 
an extremely high price. Recycle of all of the TRU can reduce uranium 
requirements by about 20 percent (unless one has a breeder reactor that 
then does not eliminate the plutonium but preserves or expands its 
supply). Sound, recent studies show that this uranium saved comes at an 
equivalent cost of $130-1000/kg of natural uranium that would otherwise 
need to be bought. At a time when two million tons of uranium can be 
mined at costs below $40/kg, this is far from a good investment!
    The main benefit claimed for the UREX+ teamed with the deployment 
of large numbers of ABRs is the reduced requirement for space in a 
mined geologic repository. Here we are greatly aided by an April 2006 
paper from the Argonne National Laboratory.\3\ The authors refer, and 
appropriately so, to a ``recent review by the National Academy of 
Sciences, where the potential benefits regarding dose rate, decay heat 
load, and nonproliferation were discussed and estimated, at least 
qualitatively.'' \4\ Strangely, the 1996 report is hardly referenced in 
the DOE literature on GNEP, but it is a monumental study that should be 
understood by all involved. It concluded:
---------------------------------------------------------------------------
    \3\ ``Separations and Transmutation Criteria to Improve Utilization 
of a Geologic Repository,'' by R.A. Wigeland, T.H. Bauer, T.H. Fanning, 
and E.E. Morris, Nuclear Technology, Vol. 154, pp. 95-106, (April 
2006).
    \4\ ``Nuclear Wastes: Technologies for Separations and 
Transmutation,'' by the Committee on Separations Technology and 
Transmutation Systems, (``STATS'' for short), National Research 
Council, National Academy Press, Washington, DC (1996).

         ``The excess cost for an S&T disposal system over once-through 
        disposal for the 62,000 tons of LWR spent fuel is uncertain but 
        is likely to be no less than $50 billion and easily could be 
---------------------------------------------------------------------------
        over $100 billion if adopted by the United States.''

    This is equivalent to $800-1600/kg of fuel (undiscounted), or 
roughly 2-4 mill/kWh.
    A current EPRI-INL paper provides a sobering assessment both of the 
prospects for the reprocessing approach and of its necessity:\5\
---------------------------------------------------------------------------
    \5\ ``The Nuclear Energy Development Agenda: A Consensus Strategy 
for U.S. Government and Industry.''

         ``In addition, reprocessing plants are expensive and not 
        attractive to commercial financing in the context of the U.S. 
        economy. Thus, the cost increment for reprocessing (i.e., the 
        incremental cost above the cost of repository disposal) will be 
        subsidized initially by the Federal Government. Although the 
        estimate above does not include repository costs, it is 
        expected that reprocessing will remain more expensive than 
        storage (centralized above-ground plus geologic repository) for 
        the foreseeable future. Projections of major savings in Yucca 
        Mountain repository costs as a result of reprocessing are 
        highly speculative at best. On the other hand, the increased 
        revenues to the Nuclear Waste Fund from an expanding fleet of 
        new reactors will eventually help defray the costs of operating 
---------------------------------------------------------------------------
        closed fuel cycle facilities.

         ``It is important to note that despite the extended timetable 
        for introducing reprocessing in the U.S. (due to R&D 
        prerequisites to satisfy cost and nonproliferation objectives, 
        policy considerations, etc.), that a single expanded-capacity 
        spent fuel repository at Yucca Mountain is adequate to meet 
        U.S. needs, and that construction of a second repository is not 
        required under this timetable.

         ``If, however, reprocessing is implemented on an accelerated 
        schedule before it is economic to do so based on fuel costs, 
        then the Federal Government will need to bear a much larger 
        cost. As discussed in Appendices B and D, the optimum scenarios 
        for transitioning nuclear energy to a closed fuel cycle in the 
        U.S. context requires us to focus the R&D on those technologies 
        that would enable a transition to cost-effective and 
        proliferation resistant ``full actinide recycle'' mode with 
        fast reactors that would eventually replace light water 
        reactors. This path is preferred over one that maintains for 
        decades a ``thermal recycle'' mode using MOX fuel in light 
        water reactors, because the high costs and extra waste streams 
        associated with this latter path do not provide commensurate 
        benefits in terms of either non-proliferation or spent fuel 
        management costs.''

    The Wigeland, et al., paper arrives at conclusions that are 
summarized, for instance, in its Fig. 7, which I reproduce here.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    This bar chart shows the increase in repository capacity that can 
be achieved by separating out plutonium, americium, cesium, and 
strontium, for various assumed fractions remaining in the waste. Note 
that the removal of the uranium does nothing to increase the capacity 
of the repository, which is limited by the decay heat of the 
radioactive materials. With no removal of these materials, the 
repository is planned for a reference value of initial 1.1 metric ton 
of heavy metal of spent PWR fuel per meter of ``drift'' space--1.1 
MTIHM/m of the mined drift. If 90 percent of the Pu and Am are removed 
from the PWR waste, while all the Cs and Sr are retained, the 
repository capacity would be increased by a factor 4.3. But repository 
space is also required for the reprocessing waste from the ABR recycle 
process.
    The paper notes that separation and recycle of Pu into LWRs cannot 
achieve this increase in repository performance, because the spent fuel 
from this recycle has as much TRU heat in a single fuel element as in 
the four or five UOX fuel elements that were reprocessed to make it. 
The fast-neutron ABR, however, is able to fission the minor actinides 
so that they do not contribute to the decay heat, thus enabling the 
increase in repository capacity shown in Fig. 7.
    Removing 90 percent of the Cs and Sr results in the bar labeled 
``9.5'' for the factor by which the spent fuel loading in the 
repository could be increased. Note that this could be achieved either 
by chemical separation or by holding the waste for an additional 100 
years, which gives a further factor 10 decay of the amount of Cs and Sr 
in the waste.
    The 1996 STATS report used a 0.1 percent process loss estimate, and 
the Wigeland paper begins with a one percent process loss, as 
illustrated in its Fig. 6.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In Fig. 6 of Wigeland, et al., the FR fuel was burned to 80 GWD/
MTHM, with about four tons of fuel in the FR. Assumed separation 
efficiency for the PWR fuel was 99.9 percent.\6\
---------------------------------------------------------------------------
    \6\ Personal communication from R. Wigeland, April 5, 2006.
---------------------------------------------------------------------------
    The arguments for GNEP assert that 99.9 percent might be achieved, 
and a big part of the UREX+ ESD demonstration is to go from 
demonstrated 99 percent removal efficiency to 99.9 percent in the case 
of LWR fuel! But this effort is misguided; it is the ABR reprocessing 
that would benefit from efficiencies above 99 percent--not the PWR 
UREX+ process.
    No rational business person or economist looking at Fig. 7 would 
want to do the UREX+ ESD program at the level requested.
    What is happening here is that one has a cost structure that 
includes the cost of separation and transmutation (the ``chemical 
plant'' and the ABRs) and also the cost of the repository, presumably 
reduced by a factor comparable with the increased loading that can be 
achieved. A factor 10 improvement in repository capacity is sufficient 
to reduce the already low cost of the repository (estimated at 0.1 
cents per kWh) to a much lower value. One could perfectly well leave 
further reduction in repository costs and increase in permitted loading 
to the much longer-term future rather than expending vast sums and time 
up front to demonstrate on a large scale unnecessarily efficient 
processes.
    Therefore, a reasonable goal for the performance of the chemical 
plant on PWR (or, more generally, LWR) fuel is 90 percent removal of Pu 
and Am, and similar 90 percent removal of Cs and Sr, if that is 
economically achievable. Note that even substantially less removal of 
Cs and Sr would not much diminish the factor 9.5 increase in repository 
capacity. Performance already demonstrated far exceeds that required 
for PWR spent fuel separations. This minimal requirement for separation 
efficiency for the one-time PWR fuel separation contrasts strikingly 
with the 99+ percent that is needed for repeated separation and recycle 
in the ABR, just because of the multiple recycles required in the case 
of the ABR fuel.
    These specific points reinforce my global point that the 
uncertainty is what kind of burner reactor can be built to operate 30 
or 50 years hence, that will be safe and as close as possible to 
economically competitive with the LWR or other thermal reactor for the 
production of electrical power. This is the critical question and is 
linked to the type of fuel to be burned and hence to the separations 
technology that must be achieved in ABR fuel recycle.
    Since a major element of cost and performance in this ``waste 
reduction'' program is the subsidy that would be required for the ABRs, 
it is of interest to note that there is a very different technology 
under development that would also modestly reduce repository needs. 
This is the thermal neutron reactor championed and developed by General 
Atomics that had deployed two plants--one at Peach Bottom and the other 
at Fort St. Vrain, that relies on millimeter-size pressure vessels of 
carbon and silicon carbide to contain the fissile fuel and the 
resulting fission products. In the form of a modular high temperature 
gas turbine reactor--(MHTGTR)--such systems could be deployed in a 
``deep burn'' mode, without reprocessing of this fuel, so as to achieve 
the modest benefits to the repository that could compete with or 
supplement expanding the repository capacity.
    The American Physical Society Nuclear Energy Study Group\7\ in its 
May 2005 report concluded,
---------------------------------------------------------------------------
    \7\ Its membership included the Chairman of the Advanced Nuclear 
Transformation Technology Subcommittee of DOE's Nuclear Energy Research 
Advisory Committee.

         ``Any decision to reprocess spent fuel in the United States 
        must balance the potential benefits against the proliferation 
        risks. Fortunately, there is no near-term urgency to make a 
        decision on implementing reprocessing in the United States. No 
        foreseeable expansion of nuclear power in the U.S. will make a 
        qualitative change in the need for spent fuel storage over the 
        next few decades. Even though Yucca Mountain may be delayed 
        considerably, interim storage of spent fuel in dry casks, 
        either at current reactor sites, or a few regional facilities, 
        or at a single national facility, is safe and affordable for a 
---------------------------------------------------------------------------
        period of at least 50 years.''

    The ``GNEP Program'' needs to be disaggregated and the technical 
priorities set appropriately--the design of the ABR or other waste-
burning reactor to be as safe and inexpensive as possible, and the 
choice of the nature of that reactor together with its fuel. As for the 
role of GNEP in assured supply of enriched uranium and take back of 
fuel from much of the world, those policy problems must be addressed, 
as to whether the United States wishes alone to dispose of radioactive 
wastes from the rest of the world, or whether it wishes to take the 
lead in a process that is commercially viable and environmentally 
acceptable to have internationally approved repositories storing 
internationally approved waste forms in appropriate areas of the world.
    As noted, the other urgent matter for the U.S. and other 
governments is to determine the cost to obtain vastly more uranium. It 
is essential to know whether half of the 4,000 million tons of uranium 
in seawater can be extracted at a cost of $300/kg, as is tentatively 
suggested by the Redbook. Or whether the GEN-IV working group approach 
that leads to an estimate of 170 million tons of uranium from 
terrestrial deposits at an extraction price less than $260/kg is valid.
    So in general I admire the goal of GNEP, but visions that ignore 
technical reality have often led to disasters, since they preclude more 
conventional and incremental approaches. The reprocessing and 
transmutation aspect of GNEP must be seen as a gamble, and an 
optional--not a necessary--gamble. It is presented as an alternative to 
expansion of the approved repository capacity, but is linked to the 
momentous decision to deploy highly subsidized fast reactors in numbers 
that would generate about 77 percent as much power\8\ as the light-
water reactors with which they would co-exist. And it blithely assumes 
above-ground storage for hundreds of years of separated cesium and 
strontium waste, as well as the operation of reprocessing plants, all a 
high-cost, technically risky, and proliferation-prone approach to 
saving a low-cost resource--space in a mined geological repository and 
the auxiliary interim dry-cask storage.
---------------------------------------------------------------------------
    \8\ The number ``1/3'' is often quoted by advocates of Separation 
and Transmutation, but the fast-neutron reactor of Footnote 3 
(Wigeland, et al., of April 2006) has a conversion ratio (CR) of 0.64 
for TRU. For each TRU atom burned by fission, 0.64 is regenerated (R.A. 
Wigeland, personal communication to the author, 04/18/06) so that only 
0.36 TRU atom is consumed per fission. Since a LWR produces 0.23 TRU 
per fission, fast-neutron reactors consuming LWR waste would have an 
electric power 0.23/0.36 = 64 percent as large as the LWR complex, if 
the thermal efficiency were the same. Because of the higher operating 
temperature of the liquid-metal fast-neutron reactors only about 0.83 
as many heat-producing fissions are required in an ABR to produce the 
same electrical power as a set of LWRs; the power output of a set of 
such ABRs consuming LWR waste is then 0.64/0.83 = 77 percent that of 
the LWR reactors.

    Note added by R.L. Garwin 06/25/06:
    On 06/19/061 received via R.A. Wigeland an analysis by Robert N. 
Hill of ANL indicating that in the AFCI program by 2004, fast-neutron 
reactors were analyzed with a conversion ratio of 0.25 (TRU atoms 
produced per TRU atom destroyed). These ABRs use fuel that is as much 
as 50 percent TRU. Under these circumstances, the ABR electrical power 
would be 0.23/(0.75-0.83) = 37 percent of the LWR reactor power. No 
such reactor has yet been built; nor has an engineering design been 
accomplished.
    I add here also material from the EPRI report: of May 2006 
``Program on Technology Innovation: Room at the Mountain--Analysis of 
the Maximum Disposal Capacity for Commercial Spent Nuclear Fuel in a 
Yucca Mountain Repository. EPRI, Palo Alto CA: 2006. 1013523.'' There 
we read, ``EPRI is confident that at least four times this legislative 
limit (260,000 MTU) can be emplaced in the Yucca Mountain system...'' 
And EPRI believes that with additional site characterization this 
minimum factor of four could well be a factor nine.''
    I restate my principal conclusions and recommendations:

        1.  The Engineering Scale Demonstration of UREX+ for the 
        reprocessing of LWR fuel to 99.9 percent efficiency at a scale 
        of 100 to 200 tons of fuel per year is highly premature, for 
        the reasons given above.

        2.  The big technical uncertainty in the program is the design 
        of an affordable and safe fast-neutron burner reactor, with its 
        associated fuel form and reprocessing. To the extent that 
        reprocessing of LWR fuel is considered, all the effort under 
        GNEP should be associated with competitive designs for the ABR, 
        its fuel, and its reprocessing.

        3.  There is no necessity to reprocess fuel in implementing a 
        fuel leasing and take back program, if the United States would 
        take the lead in encouraging the creation of commercial, 
        competitive, mined geologic repositories open to the deposit of 
        spent fuel and reprocessed spent fuel. The repositories and the 
        spent fuel should be subject to IAEA regulation. Unreprocessed 
        spent fuel can be kept in interim storage casks for at least 
        100 years, thus easing the ultimate burden on the repositories 
        and providing more time for their construction or for the 
        possible development of economical burner reactors and 
        associated reprocessing industry.

        4.  GNEP, as formulated and presented at the hearing of April 
        6, 2006, is not necessary to achieve the stated goals of 
        nonproliferation and is more likely to hinder the achievement 
        of those goals. A proposal to lease fresh fuel and take back 
        the spent fuel was published by Harold M. Agnew, then Director 
        of the Los Alamos Scientific Laboratory in the Bulletin of the 
        Atomic Scientists (May 1976, page 23), as ``Atoms for lease: An 
        alternative to assured nuclear proliferation.''

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
                    Biography for Richard L. Garwin

    Richard L. Garwin was born in Cleveland, Ohio, in 1928. He received 
the B.S. in Physics from Case Institute of Technology, Cleveland, in 
1947, and the Ph.D. in Physics from the University of Chicago in 1949.
    He is IBM Fellow Emeritus at the Thomas J. Watson Research Center, 
Yorktown Heights, New York. After three years on the faculty of the 
University of Chicago, he joined IBM Corporation in 1952, and was until 
June 1993 IBM Fellow at the Thomas J. Watson Research Center, Yorktown 
Heights, New York; Adjunct Research Fellow in the Kennedy School of 
Government, Harvard University; and Adjunct Professor of Physics at 
Columbia University. In addition, he is a consultant to the U.S. 
Government on matters of military technology, arms control, etc. He has 
been Director of the IBM Watson Laboratory, Director of Applied 
Research at the IBM Thomas J. Watson Research Center, and a member of 
the IBM Corporate Technical Committee. He has also been Professor of 
Public Policy in the Kennedy School of Government, Harvard University. 
From 1994 to 2004 he was Philip D. Reed Senior Fellow for Science and 
Technology at the Council on Foreign Relations, New York.
    He has made contributions in the design of nuclear weapons, in 
instruments and electronics for research in nuclear and low-temperature 
physics, in the establishment of the nonconservation of parity and the 
demonstration of some of its striking consequences, in computer 
elements and systems, including superconducting devices, in 
communication systems, in the behavior of solid helium, in the 
detection of gravitational radiation, and in military technology. He 
has published more than 500 papers and been granted 45 U.S. patents. He 
has testified to many Congressional committees on matters involving 
national security, transportation, energy policy and technology, and 
the like. He is co-author of many books, among them Nuclear Weapons and 
World Politics (1977), Nuclear Power Issues and Choices (1977), Energy: 
The Next Twenty Years (1979), Science Advice to the President (1980), 
Managing the Plutonium Surplus: Applications and Technical Options 
(1994), Feux Follets et Champignons Nucleaires (1997) (in French with 
Georges Charpak), and Megawatts and Megatons: A Turning Point in the 
Nuclear Age? (2001) (with Georges Charpak).
    He was a member of the President's Science Advisory Committee 1962-
65 and 1969-72, and of the Defense Science Board 1966-69. He is a 
Fellow of the American Physical Society, of the IEEE, and of the 
American Academy of Arts and Sciences; and a member of the National 
Academy of Sciences, the Institute of Medicine, the National Academy of 
Engineering, the Council on Foreign Relations, and the American 
Philosophical Society. In 2002 he was elected again to the Council of 
the National Academy of Sciences.
    The citation accompanying his 1978 election to the U.S. National 
Academy of Engineering reads ``Contributions applying the latest 
scientific discoveries to innovative practical engineering applications 
contributing to national security and economic growth.'' He received 
the 1983 Wright Prize for interdisciplinary scientific achievement, the 
1988 AAAS Scientific Freedom and Responsibility Award, the 1991 Erice 
``Science for Peace'' Prize, and from the U.S. Government the 1996 R.V. 
Jones Foreign Intelligence Award and the 1996 Enrico Fermi Award. In 
2003 he received from the President the National Medal of Science.
    From 1977 to 1985 he was on the Council of the Institute for 
Strategic Studies (London), and during 1978 was Chairman of the Panel 
on Public Affairs of the American Physical Society. He is a long-time 
member of Pugwash and has served on the Pugwash Council.
    His work for the government has included studies on anti-submarine 
warfare, new technologies in health care, sensor systems, military and 
civil aircraft, and satellite and strategic systems, from the point of 
view of improving such systems as well as assessing existing 
capabilities. For example, he contributed to the first U.S. 
photographic reconnaissance satellite program, CORONA, that returned 
three million feet of film from almost 100 successful flights 1960-
1972.
    He has been a member of the Scientific Advisory Group to the Joint 
Strategic Target Planning Staff and was in 1998 a Commissioner on the 
nine-person ``Rumsfeld'' Commission to Assess the Ballistic Missile 
Threat to the United States. From 1993 to August 2001, he chaired the 
Arms Control and Nonproliferation Advisory Board of the Department of 
State. On the 40th anniversary of the founding of the National 
Reconnaissance Office (NRO) he was recognized as one of the ten 
Founders of National Reconnaissance. In June, 2002, he was awarded la 
Grande Medaille de l'Academie des Sciences (France)-2002.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairwoman Biggert. Thank you very much, Dr. Garwin.
    Mr. Modeen, you are recognized for five minutes.

   STATEMENT OF MR. DAVID J. MODEEN, VICE PRESIDENT, NUCLEAR 
POWER; CHIEF NUCLEAR OFFICER, ELECTRIC POWER RESEARCH INSTITUTE

    Mr. Modeen. Okay. Thank you very much.
    On behalf of the Electric Power Research Institute and its 
nuclear utility members, I would like to express our 
appreciation for this opportunity to address your Committee, 
Chairman Biggert, on the matter of nuclear energy and the 
research and development we need to expand its use, not only 
nationally, but globally.
    EPRI, working with the Idaho National Laboratory, recently 
completed a document entitled ``The Nuclear Energy Development 
Agenda: A Consensus Strategy for the U.S. Government and 
Industry.'' I was glad to see that the Committee Members were 
given a copy of that, and I also appreciated, of course, 
listening to your remarks at the most recent NEI R&D summit 
where we had, really, our first public unveiling of that 
strategy.
    The agenda that I refer to is included in my written 
testimony in more detail, but I will focus here on three main 
points.
    The first point, for nuclear energy to expand and prosper 
as a key element of our national energy strategy, industry and 
government must work together more. Specifically, industry and 
government need to reach a consensus on the strategy and work 
together on both the planning and the execution.
    The second point, the longer-term future of nuclear energy 
must be built on a solid foundation that is grounded in the 
current, ongoing nuclear energy initiatives, which, we believe, 
must be successful in order for the longer-term elements, those 
included in GNEP, I believe, that really have any relevance.
    And those three initiatives that form that foundation are: 
first, the continued safe and effective operation of our 
current fleet of reactors; the second, the near-term licensing 
and deployment of advanced light water reactors; and third, the 
licensing and construction of a geologic repository of Yucca 
Mountain.
    And the third point, enabled by success in these three 
nearer-term areas, longer-term goals for nuclear energy become 
possible through advances in technology. And here again, there 
are three initiatives required: expanding the application of 
nuclear energy into process heat applications, including 
production of hydrogen for industrial and transportation uses 
as well as desalination; and the second is greatly expanding 
the nuclear fuel resources for long-term energy and 
environmental sustainability through spent fuel recycling; and 
then third, strengthening the proliferation resistance and 
physical protection of any nuclear fuel cycle.
    And what I would like to do now is expand on each of those 
three areas that I just mentioned.
    First, on the need for industry and government to work 
together. To a large degree, the paradigm, at least in nuclear 
R&D the past 10 years or more, has been that government only 
works on the long-term research and industry works on only the 
relatively short-term. We believe that paradigm has been an 
obstacle to really achieving alignment on goals and priorities. 
And in fact, trying to achieve alignment in forming the basis 
for a consensus strategy is why we developed the paper that we 
did. It was our motivation and really agreed upon by my CEO as 
well as the Director of the Idaho National Lab. And so, 
consequently, we agreed that the government should dedicate 
more of its efforts to the short, medium-term and tried to 
outline what those might be, and then vice-versa, industry 
needs to step up to some of those longer-term.
    And this really has three objectives. The first is to 
leverage the government R&D investment. The second is to 
introduce mission focus and market relevance in the R&D 
decision making. And third, to accelerate that research and 
development process and the transfer of results into the 
economy in the marketplace. And consequently, again, I can 
reinforce that I believe the industry and government, by 
working synergistically in planning and execution, will achieve 
more.
    And adding to a point that Dr. Todreas mentioned, I would 
like to refer that the industry that I am talking about is more 
than utilities. It includes the vendors, the architect 
engineers, the manufacturers, academia, and craft labor: 
entities that are absolutely necessary to achieve our goals. 
And we certainly recognize that we need a more comprehensive 
plan to restore the nuclear-industrial infrastructure in this 
country. And I share Dr. Todreas' concern about the loss of 
funding to the nuclear university education programs.
    The renaissance in nuclear energy that is beginning to take 
shape poses challenges for both industry and government, and 
challenges, I believe, are probably the greatest of our 
professional careers in the nuclear industry. The expectations 
are high, the schedules are aggressive, and the resources will 
be limited. Planning must be realistic and address commercial 
deployment in a competitive marketplace, not just the cost of 
completing the R&D. And we believe the utility industry has 
much to offer the Department of Energy as it embarks on major 
new technology development programs. We want to be part of that 
planning as well as the execution, and we are looking forward 
to working with the new leadership.
    The second area that I talked about was the near-term 
priorities for nuclear energy, because they do have some 
insights relevant to the GNEP activity.
    First, we commend the Congress for its insight and support 
for creating a new program authorized in the Energy Policy Act 
of 2005 focused on the current plants, entitled ``The Nuclear 
Energy Systems Support Program.'' EPRI has long argued that 
there is an important federal role in certain aspects of 
current plant R&D, particularly in areas where there is either 
a strong federal interest in the success, and I will give an 
example in a moment, or where the technology challenges are 
just too high or the risk is too high for the private sector to 
fund on its own.
    A good example is high-performance nuclear fuel, both for 
the current fleet and the advanced light water reactors. This 
high-performance fuel, we believe, can achieve burn-up levels, 
and that is really energy production, twice as high as the 
current fleet, and this would reduce the volume of spent fuel 
generated by a factor of two. And if, in fact, that the stated 
goal of GNEP--one of the stated goals is to reduce the volume 
of waste that would be required in a disposal in a repository 
by 80 percent, it certainly stands to reason that this type of 
technology is in the federal interest and should be a priority.
    The second piece is that near-term--or second element is 
the near-term licensing and deployment of advanced light water 
reactors, which is critical to the industry's ability to 
provide safe, economic, and reliable electric generation for 
decades to come. We were pleased to see that GNEP recognized 
this strategic importance of the NP-2010 program and believe 
this cost-shared program requires acceleration to support the 
new plant project schedule. The recent Nuclear Regulatory 
Commission called for a design-centered approach for combined 
license applications will require more extensive work upfront 
in standardizing these submittals.
    And finally, the EPRI-INL strategy paper calls for an 
integrated and cost-effective spent fuel management plan. The 
lynchpin of this strategy is the repository at Yucca Mountain. 
Not only is the geologic repository needed under all strategies 
and scenarios for the future, but near-term progress on 
licensing of Yucca Mountain is essential to expanding nuclear 
energy in this country. The other key elements of that 
integrated strategy include allowing expansion of the Yucca 
Mountain site to its whole technical capacity, as Dr. Garwin 
mentioned, reducing the rate of spent fuel generation via 
deployment of high-performance light water reactor fuel, 
maintaining engineered cooling of the repository well in excess 
of 50 years prior to closure, providing for interim centralized 
storage where aging pads for dry canister passive cooling, 
deploying multi-purpose canisters, and implementing an 
effective spent fuel transportation system, and eventually the 
recycling of spent fuel to reduce volume and heat grade, thus 
making more effective use of the repository space.
    These steps, if taken together and coordinated, provide 
ample time for long-term R&D that I will discuss next, to be 
completed before concerns arise as to the need for a second 
repository.
    And a final perspective, then, on the longer-term goals 
regarding process heat and hydrogen generation. There is a 
market today, and we believe that we support the plan laid out 
in the Energy Policy Act of 2005.
    Regarding GNEP specifically, our paper was developed with 
no knowledge of GNEP and before it was issued and that we do 
support the vision and the goals. It is really just a matter 
of, I think, the timing. And consequently, we support the 
funding for it, such that we can really get in and explore the 
types of issues that Dr. Todreas and Dr. Garwin had cited.
    And I think I am out of time, Chairman.
    Thank you for the opportunity to address your committee.
    [The prepared statement of Mr. Modeen follows:]

                 Prepared Statement of David J. Modeen

    On behalf of EPRI and its nuclear utility membership, I'd like to 
express our appreciation for this opportunity to address your 
committee. Most of my remarks today are based on a document prepared 
jointly by EPRI and the Idaho National Laboratory (INL), entitled, 
``Nuclear Energy Development Agenda: A Consensus Strategy for U.S. 
Government and Industry.''
    I will focus initially on the rationale and desired outcome of this 
strategy paper, as it relates to achieving closer alignment between 
industry and government on research & development (R&D) priorities, and 
its value. Second, I will review key content and recommendations from 
our paper. Finally, I will offer a few observations relative to the 
Global Nuclear Energy Partnership.
    To a large degree, the paradigm for nuclear R&D has become, 
``Government only works on long-term research, and industry only works 
on short-term research.'' The EPRI-INL paper attempts to address this 
situation, which has become an obstacle to alignment on goals and 
priorities.
    Steve Specker, our EPRI CEO, and John Grossenbacher, the Director 
of INL, met in May 2005 and committed to a joint effort to articulate a 
vision for nuclear energy and a supporting R&D agenda that could form 
the basis for a consensus between industry and government. The 
framework they agreed to pursue was based on an 80-20 paradigm, to mend 
the long-term--short-term chasm: government should dedicate about 20 
percent of its efforts to short-to-medium-term R&D, and industry should 
dedicate about 20 percent of its efforts to medium-to-longer-term R&D.
    EPRI and INL were well positioned to undertake this effort. EPRI is 
a nonprofit organization that manages a broad collaborative energy R&D 
program for the Nation's electric utility industry, with significant 
international utility participation. Its R&D programs cover all 
technologies for electricity generation, transmission, distribution, 
and end-use. Specifically with respect to generation, EPRI advocates a 
diverse portfolio where nuclear plays a key role, along with clean 
coal, natural gas and renewables, wind, biomass and solar. My remarks 
today will only focus on the nuclear portfolio. All U.S. nuclear 
utilities are members of EPRI's nuclear power sector, along with many 
international utilities representing about 50 percent of the world's 
nuclear electric generation capacity. Together, they sponsor about 
$100M/year in R&D.
    INL was identified by DOE in 2004 as its lead laboratory for 
nuclear energy research, development, demonstration, and education, 
with the goal of becoming the premier laboratory for nuclear energy 
within a decade. INL has extensive experience and supporting research 
facilities in all facets of nuclear energy research, including advanced 
reactor design, advanced fuel cycle design, nuclear materials and fuel 
design and testing, and advanced digital controls.
    The renaissance in nuclear energy in the U.S. that is beginning to 
take shape poses challenges for both industry and government. 
Expectations will be high for safe, high quality, high performance 
technologies, delivered on aggressive schedules. The technology thrusts 
are highly interdependent. There will be significant resource 
limitations to goal achievement, requiring careful planning and 
prioritization. Planning must be realistic and address the commercial 
deployment in a competitive marketplace, not just the cost of 
completing the R&D. In short, we support industry and government 
working synergistically in pursuit of the technologies that will enable 
a major expansion of nuclear energy to improve energy security and 
environmental quality. For industry and government to achieve common 
objectives, we need alignment around a consensus strategy, as well as 
collaboration in both planning and execution.
    EPRI and INL sought to align the technology portfolio with evolving 
nuclear energy policies and priorities. We reviewed five key government 
and independent studies on the future of nuclear energy, and found 
among them a consensus on the basic priorities for technology 
development:

        1.  ``National Energy Policy: Report of the National Energy 
        Policy Development Group,'' May 2001. Augmented by Presidential 
        Initiatives supporting the National Energy Policy.

        2.  ``The Future of Nuclear Power,'' Massachusetts Institute of 
        Technology (MIT), July 2003.

        3.  ``U.S. Department of Energy/Nuclear Power Industry 
        Strategic Plan for Light Water Reactor Research and 
        Development,'' February 2004.

        4.  ``Ending the Energy Stalemate: A Bipartisan Strategy to 
        Meet America's Energy Challenges,'' The National Commission on 
        Energy Policy (NCEP), December 2004.

        5.  ``Moving Forward with Nuclear Power: Issues and Key 
        Factors: Final Report of the Secretary of Energy Advisory Board 
        Nuclear Energy Task Force,'' January 2005.

    Starting with consensus goals that were based on these well-
recognized government and independent strategic plans, EPRI and INL 
assessed the nuclear energy R&D needed in the U.S. over the next half 
century.
    A team of EPRI and INL staff mapped out a common set of high-level 
goals and time-based planning assumptions for nuclear energy, and then 
identified the R&D needed to prepare for deployment. These assumptions 
were formulated to be aggressive yet achievable, and were grounded upon 
open market principles. R&D challenges were identified, after which an 
assessment of current nuclear R&D programs was made to identify 
opportunities for action. The resulting strategy paper is currently 
undergoing industry review. We have shared the paper with DOE and are 
looking forward to discussing its merits and implications with DOE in 
detail.
    These goals, paraphrased, are:

        1.  Ensure continued effectiveness of the operating fleet of 
        nuclear power plants.

        2.  Establish an integrated spent fuel management system 
        consisting of centralized interim storage, the Yucca Mountain 
        repository, and, when necessary, a closed nuclear fuel cycle.

        3.  Build a new fleet of nuclear power plants for electricity 
        generation.

        4.  Produce hydrogen for transportation and industry, and 
        eventually for a hydrogen economy.

        5.  Apply nuclear systems to other process heat applications, 
        including desalination.

        6.  Greatly expand nuclear fuel resources for long-term 
        sustainability, commercializing advanced fuel cycles when 
        market conditions demand them in the long-term.

        7.  Strengthen proliferation resistance and physical protection 
        of nuclear fuel cycles.

    The end result of the process that EPRI and INL followed was 
something we like to call ``the R&D continuum.'' The fifty-plus year 
strategy for nuclear energy expansion and enhanced spent fuel 
management starts with a prioritized set of technology goals that flow 
logically and function in an integrated manner to achieve national 
objectives. This long time horizon is necessary to assess the R&D and 
demonstrations required to deploy nuclear fuel recycle systems, which 
will eventually be needed to assure sustainability as fuel resources 
are diminished through expanded use of the present once-through 
systems. With these ``continuum'' goals and supporting planning 
assumptions, a matrix of technology options was developed to address 
each goal, with an assessment of the technology capabilities and 
challenges of each option. From this matrix, a technology development 
agenda was derived, with timing and budgets aimed as much as practical 
to lead to private sector investment and deployment. The strategy paper 
assumed that each future Administration and Congress will expect 
Federal investments in nuclear R&D to be based on market demand as a 
key driver for long-term energy investments and deployment.

Planning Assumptions

    The planning assumptions are intentionally challenging in order to 
help identify potential technology gaps, but also realistic and 
achievable. The predicted rapid growth is enabled by economic 
competitiveness and is also accelerated by the growing societal demand 
to increase non-emitting sources of generation. The planning 
assumptions are summarized below:
Currently Operating Nuclear Plants:

        <bullet>  All existing plants remain operational in 2015, and 
        all have applied for and have been granted a 20-year life 
        extension. Despite continued high safety performance and 
        reliability, materials aging and equipment obsolescence demand 
        rigorous monitoring, maintenance and modification with enhanced 
        technology. Continued high performance is maintained in part by 
        strategic, safety-focused plant management, and in part by new 
        technology solutions, e.g., advanced monitoring and repair 
        techniques, improved fuel performance, remedial coolant 
        chemistry, greater reliance on advanced materials and digital 
        controls.

        <bullet>  In the 2020-2030 timeframe, some plants are granted 
        an additional 20-year license renewal (i.e., to 80 years). 
        Advanced high performance fuel designs are introduced to enable 
        longer fuel cycles, increase fuel economy, and significantly 
        reduce the spent fuel generation rate.

New Plants for Electricity Generation:

        <bullet>  Many new nuclear plants are in commercial operation 
        by 2015, with many more under construction. About 30 GWe of new 
        nuclear electric generating capacity is on line or under 
        construction by 2020. A cumulative total of about 100 GWe of 
        new nuclear capacity has been added by 2030. By 2050, nuclear 
        energy is providing roughly 35 percent of U.S. electricity 
        generation, by reaching a cumulative total of about 400 GWe of 
        new nuclear capacity. These numbers include electricity 
        generation from all reactor types. They also include 
        replacement power for a large segment of the current fleet of 
        reactors, most of which have been retired or are close to 
        retirement by 2050. This assumed build-rate severely challenges 
        the existing U.S. industrial infrastructure.

New Plants for Process Heat:

        <bullet>  Based on a prototype Very High Temperature Reactor 
        (VHTR) built and operating by 2020, a few VHTRs are in 
        commercial operation by 2030, with more under construction. The 
        VHTRs are initially dedicated to producing hydrogen for 
        commercial and industrial use, focused primarily on rapidly 
        expanding hydrogen demand by the oil, gas and chemical 
        industries. They expand to a sizable fleet by 2050, still 
        focused primarily on industrial applications, but also serving 
        a growing market for hydrogen to power fuel cells in hybrid and 
        plug-in hybrid vehicles. U.S.-built commercial VHTRs are also 
        serving hydrogen demand for U.S. companies at some 
        petrochemical facilities operating overseas.

        <bullet>  Commercial versions of the VHTR, without hydrogen 
        production equipment, also begin to serve process heat needs in 
        the petrochemical and other industries. High value-added 
        applications above 800 C are found in recovery of petroleum 
        from oil shale and tar sands, coal gasification, and various 
        petrochemical processes (e.g., ethylene and styrene).

Spent Fuel Management and Expanding Nuclear Fuel Resources:

        <bullet>  Licensing of a spent fuel repository at Yucca 
        Mountain Nevada is completed by 2015, with construction and 
        waste acceptance into the repository and into a co-located used 
        fuel aging facility by that date. Interim storage away from 
        reactor sites is established at two locations in the U.S., one 
        east and one west of the Mississippi River (per NCEP 
        recommendation).

        <bullet>  With a rapidly expanding nuclear energy industry and 
        a growing inventory of spent fuel, an integrated spent fuel 
        management plan for the U.S. emerges by 2015 that obtains 
        bipartisan support for implementation. Key elements of this 
        plan include expansion of the capacity of the Yucca Mountain 
        repository; engineered cooling of the repository well in excess 
        of 50 years (e.g., up to 300 years) prior to closure, in 
        combination with centralized interim storage of spent fuel. 
        Reprocessing of spent fuel is expected to begin in a 
        demonstration plant by about 2030. The integrated plan 
        addresses reprocessing, reactor and repository strategies, and 
        offers a least-cost path for safe, long-term management of 
        spent nuclear fuel.

                  The reprocessing part of this integrated strategy is 
                based on an aggressive R&D program aimed at identifying 
                cost-effective and diversion-resistant means to recover 
                usable reactor fuel. These technologies will also 
                demonstrate the ability to separate isotopes that 
                contribute the most to heat output from spent fuel, 
                thereby increasing repository storage capacity.

                  The reactor technology part of this integrated 
                strategy develops fast reactors to recycle light water 
                reactor spent fuel in order to transmute minor 
                actinides as well as produce electricity. Following a 
                demonstration plant, built and operated with government 
                funding by about 2035, new fast reactors are deployed 
                commercially, with government subsidy as needed for the 
                waste-consuming mission. In the long-term, the price of 
                uranium increases to a level that supports recycle and 
                eventually breeding.

Timing and Costs of the Nuclear Energy Development Agenda

    The length of time that each technology will need to become 
commercially competitive to support the planning assumptions was 
estimated; and the R&D timeline needed for each technology was set to 
assure in-time licensing, demonstration, and commercialization. It is 
important to be realistic and objective about the time and resources 
needed to commercialize new technologies, factoring in technological, 
licensing, and funding uncertainties. The time required to prepare for 
and successfully complete regulatory approval was included.
    The near-term deployment goals for Advanced Light Water Reactors 
(ALWRs) for electricity generation, and a renewed commitment to R&D 
applicable to all LWRs (including current plants), are the least 
expensive. The bulk of federal investments are envisioned to occur over 
the next ten years, with continued modest funding after that as 
necessary, particularly on strategic areas such as advanced LWR fuels 
and materials. Costs of federal spending on electricity generation are 
based on continued funding of the NP2010 program on a cost-shared 
basis, and projections that the private sector will deploy ALWRs for 
electricity generation by 2015, based on limited federal incentives. No 
federal funding is expected for NP2010 after initial deployment of the 
first six plants. Total federal costs are roughly $500M, with equal or 
greater cost share by industry. This does not include costs of 
completing Yucca Mountain, which are uncertain; nor does it include the 
costs of revitalizing the nuclear industrial infrastructure.
    Federal spending for nuclear generated hydrogen and other process 
heat applications are based on projections that the commercial VHTR 
technology can be demonstrated and will become competitive in the 2020 
timeframe for industrial applications. This timeline assumes that 
conservative technology choices are made to maximize near-term 
licensing and commercial deployment potential. Total federal RD&D costs 
for the nuclear hydrogen mission are estimated at $2B through about 
2020, after which VHTRs will go forward as commercial units.
    The costs of establishing nuclear fuel recycle are considerably 
higher than reestablishing the ALWR option for electricity generation 
and creating a commercial VHTR option for hydrogen generation. There 
are a number of significant technical, cost, and institutional 
challenges facing reprocessing that likely will delay the start of 
prototype demonstration until about 2030, and large scale deployment 
until about mid century. Rough costs to the Federal Government may 
reach $35B by 2050 and $60B by 2070. These estimates include both the 
RD&D costs and government-funded subsidies for a portion of the 
construction and operation of fast reactors and nuclear fuel 
reprocessing plants. These costs assume significant reliance on the 
private sector to construct and operate fast reactors as commercial 
power plants (after the technology is demonstrated and licensed, and 
the learning curve is ascended). These costs are highly uncertain 
because of the speculative nature of estimating when nominal commercial 
viability can be achieved for these facilities.
    Rough costs to the Federal Government through mid-century depend 
primarily on whether the reprocessing plan has been structured to be 
the least-cost path for safe, long-term management of spent nuclear 
fuel (per above planning assumptions), or whether an accelerated plan 
is chosen for deployment that does not wait for the market price for 
uranium to drive the shift from the once-through fuel cycle to a closed 
fuel cycle, and from LWRs to a mix of LWRs and fast reactors.
    There are fundamental differences between the deployment of nuclear 
energy generation with ALWRs and commercial VHTRs, and technologies to 
close the nuclear fuel cycle. There are commercial markets for 
electricity and hydrogen that enable near-term deployment of ALWRs and 
a transition of VHTRs to the private sector as soon as the technology 
is ready. There is no comparable existing commercial market for fuel 
recycle.
    A market will evolve for the fast reactor component of closed fuel 
cycle systems because fast reactors can produce electricity. However, 
based on today's technology and uranium ore/enrichment costs, fast 
reactors are not expected to compete with ALWRs in power generation 
until about mid-century. Economic parity could be achieved when ALWR 
fuel based on enriched U-235 becomes sufficiently more expensive than 
fast reactor fuel using recycled components. In the long-term, as 
uranium prices rise, the alternate fuel cycles will advance to breeding 
and the need for subsidy will end.
    Even with the extended timetable for introducing fuel recycle in 
the U.S., a single expanded-capacity spent fuel repository at Yucca 
Mountain is still adequate to meet U.S. needs. Construction of a second 
repository is not required under this timetable. If, however, 
reprocessing is implemented on an accelerated schedule before it is 
economic to do so based on fuel costs, then the Federal Government will 
need to bear a much larger cost.
    In the U.S. context, the optimum scenarios for transitioning to 
fuel recycling require an R&D focus on those technologies that enable 
``full actinide recycle,'' and fast reactors. This path is preferred 
over one that maintains a ``thermal recycle'' mode using MOX fuel in 
light water reactors, because the high costs and extra waste streams 
associated with this latter path do not provide the desired benefits in 
terms of either non-proliferation or spent fuel management costs.

Priorities for R&D Programs

Light Water Reactor R&D
    Significant R&D needs exist for the current fleet and the new 
fleet, especially in areas of age-related materials degradation, fuel 
reliability, equipment reliability and obsolescence, plant security, 
cyber security, and low-level waste minimization. Also, developing a 
new generation of high reliability LWR fuel with much higher burnup 
will better utilize uranium resources, improve operating flexibility, 
and significantly reduce spent fuel volume and transportation needs, 
resulting in additional improvements in nuclear energy economics. These 
are mid-term R&D needs whose impact would be considerable if 
accelerated with government investment.
Process Heat R&D
    An essential consideration in reducing dependence on foreign 
sources of oil and natural gas is that hydrogen is necessary today in 
upgrading heating oil and gasoline, and in making ammonia for 
fertilizers. Making hydrogen today consumes five percent of all natural 
gas in the U.S. and demand for hydrogen is growing rapidly. This 
situation can be improved with a nuclear system having hydrogen 
production capability as soon as it can be developed. In the long-term, 
many believe that a hydrogen economy is essential for revolutionizing 
transportation, in which case the demand for competitive and 
environmentally responsible hydrogen production will greatly increase. 
A large-scale, economical nuclear source would hasten that future.
Fuel Recycle R&D
    Establishing a fuel recycle with the demonstrated ability to 
improve the management of nuclear wastes will bring added confidence in 
greatly expanding the use of nuclear energy. More importantly, advanced 
fuel cycle technology options provide the ability to supply sufficient 
nuclear fuel in the future to ensure long-term energy and environmental 
sustainability.
    Necessary technologies include cost-effective and diversion-
resistant reprocessing to extract fuel and separate and manage wastes, 
as well as alternate reactor concepts (e.g., fast reactors) to generate 
electricity as they generate additional fuel and consume the long-lived 
actinides and other constituents. These increase confidence in 
achieving a sustainable economic fuel supply, reducing the spent fuel 
backlog, and increasing the effective capacity of Yucca Mountain many-
fold in the long-term. While there are significant technology 
challenges and market uncertainties, large-scale deployment of fuel 
recycle by government and industry could begin by mid-century.

Conclusions

        <bullet>  The strategy for nuclear energy development and 
        implementation in the United States requires a consensus of 
        industry and government.

        <bullet>  The overall strategy should be determined by 
        considering a combination of market needs and national goals 
        for energy security, national security, and environmental 
        quality.

        <bullet>  The strategy should integrate near-term, medium-term, 
        and long-term priorities. R&D needs to proceed now on all 
        fronts, but priorities for deployment are as follows:

                -  Near-term: License renewal for the current fleet, 
                and licensing and deployment of new, standardized ALWRs 
                are high priorities within the next decade. Timely 
                near-term deployment of ALWRs will require 
                demonstration of a workable licensing process, and 
                completion of first-of-a-kind engineering for at least 
                two standardized designs. Industry and DOE should cost 
                share these R&D programs at a level to achieve 
                deployment by 2015. In addition, DOE and industry 
                should cost share certain LWR technology thrusts with 
                significant national benefits, e.g., a new generation 
                of LWR fuel. The newly authorized Nuclear Energy 
                Systems Support Program is key to this objective.

                   To enable the resurgence of nuclear energy, the 
                near-term elements of an integrated spent fuel 
                management plan must proceed. These near-term elements 
                include completion of the repository at Yucca Mountain, 
                deployment of multi-purpose canisters approved by the 
                NRC, implementation of an effective spent fuel 
                transportation system, and provision for ``aging pads'' 
                to allow cooling prior to placement in the repository.

                -  Medium-term: Development of a high temperature 
                commercial VHTR is needed, capable of generating 
                hydrogen at competitive costs, for initial use by the 
                petroleum and chemical industries. Deployment will 
                require concept development, defining end-user 
                requirements and interfaces, resolution of design and 
                licensing issues and prototype demonstration. This 
                effort should be funded primarily by government, but 
                targeted for expanding industry cost-sharing as 
                commercialization becomes more promising.

                -  Long-term: Development of fuel recycling 
                technologies will eventually be needed for a 
                sustainable nuclear energy future. These technologies 
                will also support an integrated and more cost-effective 
                spent fuel management plan. Key elements of this 
                integrated plan include expansion of the capacity of 
                the Yucca Mountain repository; provisions for 
                engineered cooling of the repository well in excess of 
                50 years prior to closure, in combination with co-
                located ``aging pads'' for spent fuel. Reprocessing of 
                spent fuel is expected to begin in a demonstration 
                plant by about 2030, based on an aggressive R&D program 
                aimed at identifying cost-effective and diversion-
                resistant means to recover usable reactor fuel. 
                Successful development of fast-spectrum reactors will 
                be required for ``recycling'' the usable uranium and 
                plutonium recovered from spent fuel, while consuming 
                the long-lived actinides. These facilities should be 
                funded by government.

        <bullet>  The strategy should address rebuilding the nuclear 
        industry infrastructure in the U.S. Currently, major equipment 
        for nuclear plants must be procured offshore. Long-term energy 
        security requires that the U.S. industry have the capability of 
        supplying and supporting U.S. energy producers, and better 
        integrating energy supplier and end-user needs. These 
        infrastructure needs include large numbers of new skilled 
        construction workers, engineers, nuclear plant operators and 
        other key personnel needed for construction, operation and 
        maintenance of new facilities.

Initial Observations Relative to GNEP:

    The above Consensus Nuclear Energy R&D Strategy for U.S. Government 
and Industry was drafted prior to DOE announcing its Global Nuclear 
Energy Partnership. Nevertheless, there is significant agreement and 
alignment between these independent planning efforts.
    EPRI supports the vision and goals of the GNEP. We look forward to 
the opportunity to work with DOE on this important initiative.
    The consensus strategy paper was intended to address the continuum 
of nuclear energy R&D needs. In contrast, GNEP has a somewhat more 
focused scope, so there are understandable differences between the two 
approaches.
    Important areas of substantial agreement include:

        <bullet>  Near-term deployment of ALWRs and the licensing of 
        Yucca Mountain. The NP2010 program is critical to the future 
        expansion of nuclear power and ultimately to moving the Nation 
        to a more sustainable and secure energy future. Further, we 
        agree with GNEP that under all strategies and scenarios for the 
        future of nuclear power, the U.S. will need a permanent 
        geologic repository.

        <bullet>  Creating a nuclear fuel leasing and used fuel take-
        back regime for ``user'' nations in return for their commitment 
        to refrain from developing and deploying enrichment and 
        reprocessing technologies. This central foundation for GNEP was 
        supported by the EPRI-INL paper, based primarily on the 
        recommendation in the Dec. 2004 report of the National 
        Commission on Energy Policy, as a vital non-proliferation 
        initiative.

        <bullet>  Improving the cost and diversion resistance of 
        reprocessing technologies before deployment. Advanced 
        separation technologies that are more proliferation resistant 
        and more cost effective than currently available technologies 
        are essential objectives. Today's recycling technology has 
        significant limitations that effectively eliminate it as an 
        option to accomplish the GNEP non proliferation and spent fuel 
        management objectives.

        <bullet>  Developing advanced fast spectrum reactors for 
        reducing the long-lived, heat producing isotopes present in 
        spent fuel. This is an essential step for improving spent fuel 
        management, since single-pass recycling in LWRs provides little 
        or no reduction in long-lived waste volume and heat output. The 
        alternative, ``full actinide recycle'' will reduce heat output, 
        and may also contribute to diversion resistance by relying on 
        processing schemes that keep minor actinides and plutonium 
        together.

        <bullet>  Advanced reactors will need to be certified by the 
        Nuclear Regulatory Commission.

        <bullet>  Perhaps most important to Congressional 
        deliberations, our work and the GNEP agree that well-crafted, 
        deliberate, and rigorous R&D is needed now to advance both 
        reprocessing and fast reactor technologies.

    As discussed above, our estimate is that reprocessing in a large 
scale demonstration plant would begin operation by about 2030, with 
fast reactor technology demonstration in the same timeframe. Smaller 
scale pilot demonstrations may be feasible earlier than 2030. Full 
scale commercial deployment would occur in the 2050 timeframe. These 
timelines are more conservative than corresponding deployment estimates 
provided in GNEP documents. We believe that the significant technical, 
resource, and licensing challenges facing these advanced technologies 
will drive deployment dates.
    It is important to note the origin and implications of these timing 
projections. As previously stated, we believe that starting the R&D now 
is a high priority. In short, our longer timelines should not be 
interpreted as a recommendation to ``go slow,'' but rather as a belief 
that the technical challenges to moving from laboratory to commercial 
scale are daunting, and that achieving end results that are cost 
effective is equally challenging. Hence we encourage adequate funding 
for GNEP, with a program timeline and challenging yet achievable 
milestones. We also encourage adequate funding for other priority 
nuclear energy programs such as NP2010, Nuclear Energy Systems Support 
Program, and the nuclear hydrogen mission. We believe that an 
aggressive nuclear fuel recycling technology development program, even 
if it takes longer than currently envisioned, will still be beneficial.
    On the subject of repository deployment, we found that ``a single 
expanded-capacity spent fuel repository at Yucca Mountain is adequate 
to meet U.S. needs, and that construction of a second repository is not 
required under this timetable.'' This is due to a number of factors, 
including:

        <bullet>  Modifying the legislative limit on the Yucca Mountain 
        repository capacity to permit utilization of its full technical 
        capacity.

        <bullet>  Developing a new generation of high performance LWR 
        fuel in the 2010-2020 timeframe, which will reduce the rate of 
        spent fuel generation in the U.S. by up to a factor of two.

        <bullet>  Maintaining engineered cooling of the repository 
        before final closure for periods of time in excess of 50 years 
        to allow for decay of the shorter-term fission products.

        <bullet>  Alternatively or in combination with in-repository 
        cooling, temporary centralized storage or aging pad sites can 
        be provided where spent fuel is cooled for an appropriate 
        length of time before repository emplacement.

        <bullet>  Deployment of reprocessing and fast reactors can be 
        initiated in time to adequately manage used fuel within a 
        single expanded-capacity geological repository.

    The EPRI-INL paper identifies energy and environmental 
sustainability as the primary justification for fuel recycling. 
Recycling nuclear fuel may also enable breeding of new fuel, which will 
extend nuclear power's contribution to future energy supplies for many 
centuries to come. We believe that improved spent fuel management is a 
potential inherent benefit of recycling, with the degree of improvement 
dependent upon technology advances. Based on its extensive work, EPRI 
believes that the current repository design poses a small and 
acceptable risk to society. This will remain so, whether or not the 
long lived actinides are reduced by recycling. So the advantages of 
recycling to the repository primarily relate to the efficient use of 
repository space, and having the flexibility to recover and recycle 
prior-emplaced used fuel, if and when technical and economic conditions 
so dictate.
    We support the assured fuel supply and used fuel take-back regime 
proposed by the Administration. For this regime to gain acceptance 
among user nations, the U.S. and other fuel supplier nations must 
provide assurance of their ability to meet commitments for both fuel 
supply and take-back, in order to obtain early commitments from the 
user nations to forgo enrichment and reprocessing. This is an important 
reason why completion of centralized interim storage facilities and a 
permanent repository are urgent to success of the fuel supply and take-
back regime, even before recycling is ready.
    Finally, we support development of a comprehensive plan and joint 
efforts to rebuild our national nuclear infrastructure. Currently, 
major equipment must be procured offshore, and aging workforce issues 
point to the need for aggressive training and recruiting initiatives. 
Long-term energy security requires that the U.S. industry have the 
capability of supplying and supporting U.S. energy system vendors, 
architect-engineers, and better integrating energy supplier and end-
user needs. Workforce infrastructure needs include large numbers of new 
skilled construction workers, engineers, nuclear plant operators and 
other key personnel needed for construction, operation and maintenance 
of new facilities. I share with other industry spokesmen the current 
concern for lost funding to nuclear university education programs.
    In summary, EPRI would like to work with DOE on creating a 
consensus nuclear R&D strategy for the future. U.S. utilities accept 
the DOE premise that GNEP is primarily a federal initiative for 
governmental purposes, and thus should be funded by federal 
appropriations. Our members are presently focused on maintaining 
excellent performance of current plants and preparing for near-term 
deployment of ALWRs. These are the areas that utilities believe justify 
cost-sharing with DOE at the present time. EPRI and its members are 
interested in helping inform the R&D agenda for long-term programs. If 
the R&D is successful, they will be ready to cost share advanced 
reactor deployment in a manner consistent with the EPRI-INL Nuclear 
Energy R&D Strategy paper and the ``80-20 paradigm'' discussed earlier.

                     Biography for David J. Modeen

    David J. Modeen has over 29 years of operational, technical and 
policy experience in the nuclear field. Dave joined EPRI in March 2003 
as the Vice President, Nuclear Sector & Chief Nuclear Officer. In this 
capacity, he leads the team responsible for development of EPRI's 
Nuclear Power technology research and development program and business 
development, in close concert with its advisors, both domestic and 
international. The technology development plans and outcomes are 
reflected in annual, three-year, and longer-term nuclear strategic 
planning documents aligned with EPRI's overarching Electricity 
Technology Roadmap.
    Previously, Dave was a Director at the Nuclear Energy Institute 
(NEI) located in Washington, DC, with responsibilities in a variety of 
areas, including engineering, security/access authorization, training 
and risk assessment. During his 14 years at NEI and its predecessor 
organization, he managed the development and ultimate approval of a 
number of formal industry positions requiring collaboration among EPRI 
staff, INPO, vendor and utility advisors. His leadership resulted in 
industry executives endorsing industry guidance from NEI that 
effectively mandated implementation.
    Prior to his Washington experience, Dave spent seven years with the 
Portland General Electric Company as a Senior Engineer, and obtained a 
Senior Reactor Operator certificate and stood watch as a Shift 
Technical Advisor at the Trojan Nuclear Plant. He had broad technical 
responsibilities at Trojan including upgrade of the Emergency Operating 
Procedures, development of Safety Parameter Display System, Control 
Room Design Review, and fire protection safe shutdown analysis and 
alternative shutdown procedures.
    An honors graduate of Iowa State University, Modeen holds a B.S. 
degree in industrial engineering. He served five years in the U.S. Navy 
as a submarine warfare officer, qualifying as Engineer while serving on 
board the USS Patrick Henry. He serves on the Institute of Nuclear 
Power Operations Advisory Council, is a registered nuclear and 
mechanical professional engineer in the state of Oregon, and is a 
member of ANS.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               Discussion

    Chairwoman Biggert. Thank you very much.
    And we will now have--Members will ask questions. Again, we 
have a time limit for us, for five minutes. And I will begin 
with the first question.
    Mr. Johnson, Dr. Garwin supports the vision of GNEP, but he 
asserts in his testimony that technical goals of the program 
are more ambitious than is really needed. Achieving GNEP's 
technical goals could increase the effective storage capacity 
of Yucca Mountain's repository by a factor of 100 whereas a 10-
fold increase in capacity, which could be achieved at lower 
cost, would enable Yucca Mountain to store the waste produced 
by commercial power reactors operating for the next century. Do 
you agree with this?
    Mr. Johnson. Based on simply hearing the statement this 
morning, I can't say that I hear anything I disagree with, but 
I would prefer to read a little bit more in detail and 
understand the basis for the conclusions.
    Chairwoman Biggert. Well, then would you think that DOE 
would consider scaling back the technical requirements for 
separation efficiency in the--in your systems analysis?
    Mr. Johnson. If, upon further study and investigation, that 
is the correct course of action; yes.
    Chairwoman Biggert. Okay. Thank you.
    Then this is for Dr. Garwin, Mr. Johnson, and Dr. Todreas. 
I cannot say that. Todreas. Is that right?
    Dr. Todreas. Todreas.
    Chairwoman Biggert. Todreas. I am putting an extra syllable 
in there. Thank you. Todreas.
    Again, Dr. Garwin asserts in his testimony that the 
ordering of R&D priorities in GNEP is all wrong, and he 
suggested any near-term demonstration of UREX is premature and 
wasteful and we should instead focus on the advanced burner 
reactors and the fuels for the ABRs and the reprocessing 
technology necessary for the ABRs. So do you agree with that, 
Dr. Todreas?
    Dr. Todreas. Yes, let me start.
    The other thing Dr. Garwin said is that the fuel 
reprocessing and the reactor design have to be done together 
and in coordination. This is new in reactor technology. We 
always used to design the reactor with the fuel then throw the 
fuel over the fence and let people take care of it from a waste 
management point of view. In this new activity, particularly 
with reprocessing, you have to do them all together in terms of 
coordination. And so the bottleneck here is the reactor design 
and its fuel selection, as well as successful reprocessing. So 
my answer would be you have got to pursue UREX, or whatever 
comes out of it, and in parallel, design a fast reactor, select 
the fuel, and most importantly, which hasn't been mentioned, is 
you have got to get the capital cost of the fast reactors down 
so they can be cost-competitive so that industry will take over 
the operation of these, which will make electricity on the 
competitive market.
    Chairwoman Biggert. If there were to be built, then, a new 
reactor, the light water reactor, wouldn't that show how to cut 
the cost on that? We haven't built a reactor, you know, in this 
country, in so long. Would that help to start with that and 
then determine how to build the other?
    Dr. Todreas. Yes. First, getting a light water reactor 
order to get the industry going to rejuvenate people, that is 
critical. But if you are implying that there is not significant 
difference between the design and the objectives of a fast 
reactor for----
    Chairwoman Biggert. No, I am not suggesting that.
    Dr. Todreas. Okay. So you have to start with the light 
water reactor, but then the challenges of a fast spectrum 
reactor for transmutation with its fuel, with its reprocessing, 
are a factor above a light water reactor design. And you have 
got to get after that, too.
    Chairwoman Biggert. Well, I think we need to start that 
process right away, but--and some of you are saying we should 
wait, but I think that--also with the industry to start.
    Mr. Johnson, do you have anything to add to that?
    Mr. Johnson. What we have tried to do is lay out a 
development program where we are scaling up to an appropriate 
size of demonstration facilities to better inform the question 
and the cost of any further commercialization of the 
technology. We are trying to walk through this in a step-wise 
fashion, better understand the technology, better understand 
the ultimate cost and schedule requirements.
    Chairwoman Biggert. Thank you.
    Dr. Garwin, how would we obtain enough material to 
fabricate and test new fuels without a sizable UREX 
demonstration plant?
    Dr. Garwin. You know, there is plenty of separated fuel 
available abroad. There is MOX fuel, if you wanted to go to 
mixed oxide fuel, 40 tons of it that was prepared for the 
Superphenix in France. So it is no problem, and what you want 
is test fuel. That is, you want small amounts of fuel, not a 
full reactor load. The advanced burner test reactor is to be a 
neutron source, a fast spectrum source, for testing small 
amounts.
    Chairwoman Biggert. And if we don't want to use MOX, then 
what----
    Dr. Garwin. Well, it is very much up in the air as to 
whether one uses metal fuel or oxide fuel or carbide fuel or a 
nitride fuel. And there are advantages to both of them. As Dr. 
Todreas says, it has never really been considered altogether, 
the reactor design, its safety, its margins, the fuel form, and 
the reprocessing. And that is exactly what needs to be done 
here in order to get the capital cost of this fast reactor 
down.
    So this is a big gamble, and the question is can we 
increase the odds of winning it. But I do emphasize that the 
engineering scale demonstration for UREX+ is far too big, 
whatever its technical requirements. It assumes that there will 
be a single 2,000 ton per year plant, and one percent is a 
typical demonstration scale. That would be 20 tons per year, 
not 200 tons per year. Much too big, much too soon, much too 
high requirements are set on it.
    Chairwoman Biggert. I think we have wasted 25 years since 
we have stopped this process. I hope that we will move ahead.
    Mr. Modeen, you wanted to make a comment?
    Mr. Modeen. Yes, Madame Chairman. I--just a couple of 
things. Listening to the answers to the--first, as an example 
to support Dr. Todreas, the French experience with the Phoenix 
and then the Super Phoenix reactor. Phoenix, the smaller 
reactor, worked very well. In fact, it is still working today. 
Scaled up to large commercial size, 1,300, 50-megawatt electric 
Super Phoenix ran on and off, but eventually, after 10 or 12 
years, made the decision to decommission it. They just could 
not make it work right at that level.
    The second piece is relative to our study with the Idaho 
National Lab, I think our view, and I think what I am hearing 
from the panelists, is not so much that we don't do the 
research, but it is all things in time and trying to figure out 
what does one do first and then next and next and understand 
and make informed decisions based on that research prior to 
this construction of some of these engineered facilities and 
otherwise. That is, kind of, the industry's perspective.
    Chairwoman Biggert. Thank you.
    Mr. Honda, you are recognized.
    Mr. Honda. Thank you, Madame Chair.
    I am trying to wrap my head around this whole discussion 
and this whole process, and I think what I am hearing is that 
we have made decisions, we have made decisions quickly, and 
there are some concerns about the one process to the selected 
process or the solution set, and there is a lot of concern 
about the magnitude and cost and readiness.
    Mr. Johnson, you have talked of GNEP being a phase program 
in which a decision and plans will proceed only after sound 
assessments of costs, risks, and schedules are understood. You 
plan to conduct applied research, engineering, and 
environmental studies to reform these decisions. What do these 
studies need to show to justify the current technology down-
selections and how will the studies affect these decisions 
should they prove to be adverse to the current plan?
    Mr. Johnson. What we are planning to do and what we have to 
do over the next two years is to continue the research that has 
been underway in our laboratories over the last four years on 
the separations technology, develop the conceptual designs of 
these facilities, conduct the necessary National Environmental 
Policy Act analyses, and develop a better understanding of cost 
and schedule of moving forward with the demonstration 
facilities. We also want to have completed the types of systems 
analysis that have been discussed so far this morning to better 
understand and make a completely informed decision as to 
whether this is the right path to continue down or is there a 
course correction that is necessary or is it something to 
abandon altogether.
    Mr. Honda. Well, you know, that is within the context of 
UREX+.
    Mr. Johnson. That is in the context of all of the 
demonstration facilities, sir.
    Mr. Honda. So you are saying that you would be looking at 
different processes and making a comparative analysis of 
their--the cost-effectiveness and the timeliness of these?
    Mr. Johnson. With respect to the separation technology, the 
work that we have done to date in the laboratory gives us full 
confidence that the UREX+ process is, indeed, the correct 
process to continue with. So while we may continue some--a 
small level of effort in some other advanced aqueous processes, 
the majority of our work would be focused on the UREX+ process.
    Mr. Honda. Okay. I think I am getting clearer now.
    On the UREX process, as if we have already made a decision 
that we want to go down that path, prior to looking at all 
processes first, is that a correct statement that there have 
been some decisions already made to go down that path in spite 
of the fact that you are saying that we are going to study 
others or----
    Mr. Johnson. Yes, sir, that is a----
    Mr. Honda. And was that choice made through some sort of a 
peer-review process where other folks were involved in deciding 
that, or how was that decision made?
    Mr. Johnson. The decision has been made from an informed 
position, one, knowing and understanding the PUREX process that 
is used internationally----
    Mr. Honda. Excuse me. Informed, meaning by peer review or 
by a small group of folks? Were there outside folks? Or who did 
that?
    Mr. Johnson. Our federal advisory committee, our 
subcommittee on advanced fuel cycle program, chaired by Dr. 
Burton Richter, has been watching over and guiding this program 
since it inception.
    Mr. Honda. So he guided a group that was brought in its 
input within the government in the technical fields and other 
folks? I guess that is what you call peer review. Is that what 
you are saying?
    Mr. Johnson. It is one type of peer review, sir.
    Mr. Honda. But the traditional--understanding what peer 
review means, is that what you are saying, or are you saying it 
is a narrow form of peer review?
    Mr. Johnson. I am saying it is an independent outside body, 
which has done monitoring and reviewing the process and the 
progress made in the laboratory.
    Mr. Honda. Okay. Can you tell me who chose them or how they 
were chosen or----
    Mr. Johnson. The subcommittee was selected by decision of 
the full federal advisory committee.
    Mr. Honda. Okay. And I suspect that you have records of the 
discussions and how you approached the consensus?
    Mr. Johnson. Yes, sir. We have records of their meeting 
minutes.
    Mr. Honda. Okay. Thank you.
    To the--it appears my time is up, but just a real quick 
question to the other three. Do you have any comments to the 
questions I had?
    Dr. Garwin. I have had the benefit of an exchange of 
correspondence with Dr. Richter. I don't think that they had 
contact with GNEP until the end of February, and I really don't 
understand whether the UREX process that was proposed at that 
time separated the plutonium and the transuranics from the 
lanthanide fission products or not. If not, then the fuel was 
by no means self-protecting by a factor of 1,000 or so. I 
understand now Dr. Fink's briefing of March 10 includes the 
lanthanides to be shipped to the advanced burner reactor plant 
and then removed, but this is hardly a stable program, and it 
could hardly be said that the transmutation subcommittee 
reviewed and chose it.
    Dr. Todreas. Yes, what I wanted to do is just bring you 
back to the criteria that I mentioned for selection, which were 
coordination, economics, protection of public health, and 
worker safety, physical protection, and safeguards. And before 
you settle on a process for UREX and then commit down the road 
for large expenditures, maybe some engineering demonstration is 
okay before that and more like 20 tons or something. You have 
got to check that. And I would just take cost, economics. I 
know you have had hearings on the economics of reprocessing, 
but this reprocessing cost is going to be expensive. It is 
going to raise the fuel cycle cost for nuclear power. You need 
a systems approach as to who is going to come up with that 
cost, and you need to bound that cost. And so before you pick 
the process, you need to have enough R&D results in hand that 
you know where you are on that factor. So UREX+1 may look good, 
but I don't think it has been through a systematic study 
evaluation pinning all of the points on these criteria I 
listed, and I would go back to cost. And it is no wonder. It 
has just been at lab scale. So much more R&D needs to be done.
    Mr. Honda. Thank you.
    Chairwoman Biggert. Mr. Honda, I think that we should keep 
in mind that we--the laboratories have been doing reprocessing 
R&D for quite some time now. In fact, the--Argonne National Lab 
that is in my district, when I first came to Congress, was 
really working on the electrometallurgic reprocessing and then 
went to the pyroprocessing, and so I don't think that UREX is 
new. It is not new, and it has not been--and it has been 
studied. But what we are talking about really now is the R&D 
and demonstration. So----
    Mr. Honda. You know, if I may, Madame Chair, I think I 
understand what you are saying, but what I am hearing, though, 
even though it is R&D, that there are still other matters and 
parameters that still haven't been scaled out from R&D into a 
pilot program, and it sounds like what we are looking at is 200 
tons rather than 20, and there is a concern about the whole 
rolling out and planning for this kind of a process.
    Chairwoman Biggert. Well, if--I think Mr. Johnson can 
address that, and I would like him to, because I think that is 
misunderstanding there.
    Mr. Johnson. Thank you, Madame Chairwoman.
    With respect to the size of the facility, I am sure the 
Department has contributed more to the confusion on that matter 
than anyone around, and I would like to take this opportunity 
to point out that while initially in the internal discussions 
within the Department on the overall Global Nuclear Energy 
Partnership that--these technology demonstrations, larger 
numbers or larger sized facilities were discussed. Right now, 
though, sir, we have underway an activity looking at making a 
determination or recommendation on an adequately sized facility 
for the separations work. Like you, I will admit, a facility on 
the order of, you know, 200 metric tons to 500 metric tons 
``scares me to death.'' One is we don't know enough to go to 
that size facility. Secondly, I doubt we could afford it. So we 
have an activity underway which will be informed by experienced 
personnel from those countries who are operating such 
facilities today as well as scientists and engineers within our 
laboratory system. Making a determination of what is an 
appropriately-scaled sized facility for demonstrating the 
physical phenomena that is of most interest in understanding 
the processes and being able to determine the safety of 
operating such a facility is a key consideration. So the final 
design sizes have not been established. My hope is that it is 
significantly smaller than what the stated sizes have been to 
date.
    Mr. Honda. Would the Chair--may I ask another question?
    Chairwoman Biggert. I hate to keep our other Members 
waiting, so let us come back to that.
    The gentleman from Texas, Mr. Neugebauer, is recognized for 
five minutes.
    Mr. Neugebauer. Thank you, Chairwoman.
    I want to kind of move to the more commercial application. 
I think one of the things that I am strongly convinced of is 
that we have got to do whatever is necessary to get moving 
again on nuclear energy in the production of electricity 
primarily from that. I think we have lulled ourselves here and 
wasted a lot of time, as the Chairwoman mentioned, not doing 
that. What I--as I listened to the dialogue this morning, what 
concerns me is that I kind of heard that Mr. Modeen, in talking 
about the fact that--maybe that the scientific community and 
the commercial community are not necessarily working in 
conjunction with technologies that we could bring out quickly 
and it is--you know, we have got some people working on the 
long-term, some people working on the short-term. I appreciate 
some of the comments that Dr. Garwin made about, you know, let 
us put--focus on things that work, make sense, and let us make 
them cost-effective. And those are wonderful words to my ears.
    I think one of the things that I would ask you, the panel, 
is , you know, where are--we can't just--we can't go into a 
demonstration project and drag this out another 10 or 15 or 20 
years without really getting--stepping up to, I believe, the 
commercial construction of new reactors in this country. So my 
question to the panel today is while some of these things may 
have some long-range research value, and that will be 
wonderful, but the American taxpayers today need for us to do 
whatever we need--can to get our dependence on foreign energy 
reduced fairly quickly. So what are we doing in a--at--today, 
and what are some of the things that we should be doing to get 
that process moving forward where we really need to be breaking 
ground on a new reactor or several new reactors within the next 
12 to 18 months? And are we going to do that? And can we do 
that?
    Mr. Johnson.
    Mr. Johnson. Yes, sir. The Department's Nuclear Power 2010 
program, which is a cost-share initiative with industry, is 
finalizing design of the most advanced light water reactor 
designs and helping demonstrate the new regulatory processes 
for siting and operating these facilities. The initiative has 
been a tremendous success and continues to be. We are fully 
committed to that program. Based on the work that we have done 
in partnership with the industry, we have seen, and hopefully 
you have read as well in the press, many companies which are 
stepping forward and making indications that they will be 
making decisions soon on going forward with new nuclear plant 
construction projects. I think the outlook looks very good.
    Mr. Neugebauer. Dr. Todreas, do you have comments on that?
    Dr. Todreas. I am going to leave this to DOE and EPRI. I 
was the co-chairman of the DOE committee that wrote the road 
map for nuclear power 2010. I saw it launch, but the execution 
remains with these people.
    Mr. Neugebauer. Thank you.
    Dr. Garwin.
    Dr. Garwin. Yes. Well, we need to buy reactors of existing 
type. That is, we can't start to work now designing new 
reactors, so if they are not ready for a decision, we should 
not consider them in the near-term expansion. What we are 
talking about here in GNEP is beyond that, the particular part 
of it is the waste reduction by reprocessing and recycling with 
this great new gamble of a big fast reactor population. That we 
need to think about and design and design and design, because 
we can't make those decisions right now if we are not going to 
lock ourselves into a high-cost structure that will have to be 
abandoned.
    Mr. Modeen. Let me answer several ways. First, what 
Congress has done with the Energy Policy Act of 2005 certainly 
took a lot of the risk, the investment risk, off from the 
utilities. The second piece is, and I would agree with Mr. 
Johnson, the NP-2010 initiative is very, very important. Some 
concern, I believe, Skip Bowman from NEI testified relative to 
the funding, a little bit of plus up on that. It took a bit of 
a hit there with the potential GNEP proposal. Yucca Mountain 
can't lose sight of that. It is those things, and I think we 
all know what they are, and we are working through them. In 
that regard, I would say that, just so my remarks aren't 
misspoken, in the area of advanced light water reactors, the 
industry and the government, since the late '80s, has worked 
very well in a public-private partnership. We are anticipating 
and have a strong desire to do something similar both for the 
high-temperature reactor for a hydrogen mission as well as then 
what may come out of GNEP.
    Just a couple of other points relative to the balance. 
Again, I am with you on the near-term priorities. The longer-
term for GNEP is really more a governmental role, and I think 
today our members are not ready to cost-share in that activity 
but may be later. On the point of that I can see in our paper, 
we justify recycling in the 2035 to 2050 time period based on 
energy and environmental sustainability, not non-proliferation 
and those types of issues. But the second point I think is 
important to keep in mind, again, there is sort of a rush to do 
something, is that the fuel supply and take-back regime that is 
at the center of GNEP, in the industry's view, can be sustained 
via a once-through cycle for quite a few decades. Ultimately, 
again, one needs to get to the reprocessing and recycling. That 
is why it is important to start and complete the research 
today, but again, it is a timing issue.
    Mr. Neugebauer. Thank you.
    Chairwoman Biggert. Thank you.
    The gentleman from Texas, Mr. Green, is recognized.
    Mr. Green. Thank you, Madame Chairlady, and I thank the 
Ranking Member as well. Thank you for this opportunity to 
explore some new concepts, I suppose.
    If we complete this project 100 percent, what percent of 
our electricity needed will be impacted? Dr. Johnson.
    Mr. Johnson. Sir, I am afraid I don't have an answer for 
you to that particular question.
    Mr. Green. Right now--we, right now, get about 20 percent 
of our electricity from nuclear reactors.
    Mr. Johnson. Yes, sir.
    Mr. Green. If we can successfully complete this project, 
what percent of our needs will be satisfied?
    Mr. Johnson. I can't give you a percentage, but let me 
answer your question in a slightly different way. What this 
technology demonstration program we are talking about this 
morning is focused on is addressing issues associated with the 
spent fuel that is generated by these plants.
    Mr. Green. Well, let me do this. I appreciate your comments 
and your commentary.
    Does anyone on the panel have an answer for me?
    Dr. Garwin. It is just a different way of doing business. 
The cost will go up, so if you are price conscious, you will 
use less electricity, less----
    Mr. Green. Yes, sir.
    Dr. Garwin.--nuclear electricity.
    Mr. Green. So we will be at the 20 percent level still?
    Dr. Garwin. Well, one hopes to double the amount of 
electricity and increase the fraction that is supplied from 
nuclear, but that is not at all dependent on this program. That 
can be done with the thermal reactors, the light water 
reactors----
    Mr. Green. Let me go on.
    Dr. Garwin.--and the high-temperature reactors.
    Mr. Green. Thank you very much. Let me go on with some 
additional observations.
    DOE Secretary Bodman concedes that GNEP may ultimately call 
for an investment of $20 billion to $40 billion, and this is 
for construction of three facilities, and annual operating 
costs can run into the billions. Deployment and operation of 
additional required reprocessing plants and a fleet of fast 
reactors and associated power processing facilities could cost 
over $200 billion. This would put GNEP in the realm of the U.S. 
space program in terms of long-term cost. Building two full-
scale spent fuel reprocessing plants could cost $40 billion to 
$80 billion. At an estimated price of $3 billion to $5 billion 
each, deployment of a fleet of these new fast reactors could 
easily cost over $100 billion. My concern is this. Where will 
the money come from? Where is the sense of shared sacrifice in 
this country? Right now, we are talking about, over the next 
five years, cutting education $45.3 billion, health about $18 
billion, income security, which includes housing and childcare, 
$14.9 billion, mandatory spending, which includes Medicare and 
Medicaid, $65 billion. We don't have a good sense of shared 
sacrifice with this Administration. This Administration cuts 
Head Start, cuts Social Security, cuts Medicare, cuts student 
loans, and we send people to the moon or we send people to the 
outer realm of the galaxy at some point, hopefully, and I 
support good scientific programs. I want to see us do the smart 
things. But there has to be some sense of shared sacrifice, and 
that is what is missing in all of this. We talk about spending 
all of these hundreds of billions of dollars, possibly in the 
trillions as we go through this over the long-term, but we 
don't talk about who is going to sacrifice for it. And I 
believe that there ought to be some shared sacrifice. We cannot 
continue to expect the least and the last and the lost to pay 
for space programs and to pay for nuclear programs. These have 
to be shared by the well-to-do, the well-off, and the well-
healed. It has to be something that we all, at some point, 
understand is needed and we all are willing to sacrifice to 
have. And I commend you on what you are telling us in terms of 
where we must go. Clearly, there is something we can afford to 
do and we cannot afford to do, meaning we must do it at some 
cost. But there has to be some sense of shared sacrifice. And 
my consternation with all of this has to do with who is going 
to pay for it. Can we all pay for it? Or will some members of 
society pay for it? That causes me great consternation, and I 
really don't think that that is something that I have to have 
you respond to. It is something that the American people 
probably want someone here in Congress to say, and I just 
happen to be the guy who feels that it has to be said. I just 
believe there ought to be some sense of shared sacrifice that 
this Administration has not embraced.
    And I thank you for the time, Madame Chairlady. I yield 
back.
    Chairwoman Biggert. Thank you.
    The gentleman from California, Mr. Rohrabacher, is 
recognized.
    Mr. Rohrabacher. Thank you very much.
    And I would like to thank Chairwoman Biggert for letting me 
participate today.
    Just one note, my very elegant friend who just made several 
good points about costs, and some of the numbers are staggering 
that we are talking about, but let us note that in terms of the 
costs that you were referring to about the reductions that are 
being proposed, we are not talking about cutting spending in 
the areas that you outlined. We are talking about reducing the 
growth in the budget in those areas. That is a big difference 
between saying we are going to cut various programs by so much 
money. Very--with--and that is differentiated from cutting the 
growth in those programs by that much money. But the point he 
is making, of course, however, is valid in terms of the 
staggering costs and who is going to pay for it. I think we all 
need to understand that if there is an energy shortage, as 
energy becomes in short supply, whatever--however that comes 
about, the electric bills of the American people will go up, 
and the energy bills of the American people will go up to the 
point that it is costing us those billions of dollars anyway. 
And there is a shared sacrifice in that. So--but it would be 
much better for us to invest and make sure that those energy 
prices don't go up so that that revenue isn't being siphoned 
out of the pockets of the American people.
    Mr. Green. Would the gentleman yield for a--just one 
minute?
    Mr. Rohrabacher. Yes, sir.
    Mr. Green. And I thank you for the time.
    Given that this appears to be a risky investment, at best, 
when you compare UREX+ to PUREX, when PUREX is producing about 
the same thing that we hope to get from UREX+, maybe we will 
exceed, well, obviously we hope to, that causes me concern. And 
then when you couple that with the fact that--I agree with you, 
we are cutting not actual costs but projections. I agree with 
you. But the truth of the matter is these things that are being 
cut back on, as you stated, are needed things. We are not 
dispensing with things that are not needed. This is a country, 
the richest country in the world. One out of every 110 persons 
is a millionaire, and we are giving tax breaks to millionaires 
at the expense of these programs. There has to be a point at 
which we decide that we have got to debate this question of 
where is the money coming from and will there be the shared 
sacrifice.
    And I yield back. Thank you, sir.
    Mr. Rohrabacher. Well, I think we both appreciate that in 
this democracy, we come at problems, very sincerely, from two 
different points of view, and of course, the Republican point 
of view is if you would tax that money away from millionaires, 
they wouldn't have the money to invest, and our economy would 
be growing at a lesser rate, and there would be less federal 
revenue for the very programs that we are talking about. So it 
is a difference of approach of analyzing that differentiates 
Republicans.
    I do need to make one serious point here about energy 
before I get back and forth, and I appreciate the gentleman.
    Mr. Green. Well, I thank you for the time.
    Thank you.
    Mr. Rohrabacher. Okay.
    I would like the--I am very--I am on the International 
Relations Committee, and I am, of course, on the Science 
Committee and other subcommittees than this one, but I have a 
key interest in terms of the President's proposal to expand 
nuclear power with, for example, India and other countries that 
now has decided will be an Administration initiative. And so 
this is really an important hearing that we are having today, 
not only domestically, but internationally, of course. I would 
like to get the panel's reaction to the--to a--the new high-
temperature helium gas reactor technology, that is high-
temperature helium gas reactor technology. And from what I 
understand, that it has the ability to reduce the production of 
weapons of this type grade plutonium, which is plutonium-239, I 
guess, that it produces 95 percent less of that as compared to 
the other alternative nuclear reactors. So--and especially when 
it is used--and in terms of using that reactor for the 
production of helium--excuse me, the production of hydrogen. 
And is this something you have looked at? I would like the 
panel's, you know, just--impressions of that. And also, if you 
have not looked at it, or have other thoughts that are more 
extensive, if you could send me, personally, a letter--your 
analysis in writing of this technology.
    Mr. Johnson. Yes, sir.
    Chairwoman Biggert. If we have brief--briefly, please.
    Mr. Rohrabacher. Very brief. Yes. Right.
    Mr. Johnson. Yes, sir.
    The--within the Department's nuclear R&D program and our 
Generation IV program, we are sponsoring research on high-
temperature gas reactor technology development, which includes 
both fuel development, materials development, and, as you may 
know, there is a provision in the Energy Policy Act of 2005 for 
the development and deployment of a very high temperature 
reactor.
    Mr. Rohrabacher. Let us cut to the chase, because we have 
got to--the time. Is it thumbs up, thumbs down, or don't know 
about the--in--General Atomics has built one of these reactors 
in Japan. Have we studied it? Is it good? Is it a positive 
reaction? Or we haven't studied? Or is it a negative reaction?
    Mr. Johnson. It has been studied, and it has been favorably 
disposed to the technology.
    Mr. Rohrabacher. Okay. Favorable.
    Dr. Todreas. It is a thermal versus a fast reactor, so its 
transmutation characteristics are different. I would say it is 
like this with a little bit up in your terminology, but it is 
not a slam dunk, and I wouldn't jump on it yet. We have got to 
study it further.
    Mr. Rohrabacher. And I would appreciate a more in-depth 
analysis in writing, please.
    Dr. Todreas. Sure.
    Mr. Rohrabacher. Yes, sir.
    Dr. Garwin. What is important in the near-term is to be 
able to buy electric power generation capability. This modular 
high-temperature gas reactor--gas turbine reactor has been a 
long time in coming, and I would really like to see it take its 
place in the market, because that is what is most important. 
You would use it first in the once-through process. It would 
not be a proliferation risk at all. And then it has a role as a 
moderate transuranic burner, which could ease the demand on the 
repository, if it were fed with light water reactor reprocessed 
fuel. But that would be a long time in the future, I hope.
    Mr. Rohrabacher. It sounds like you are giving it a thumbs 
up.
    Dr. Garwin. Thumbs up.
    Mr. Rohrabacher. Okay.
    Mr. Modeen. From the industry perspective, the advanced 
light water reactors are optimized for electricity generation. 
We expect, as we deploy those, that they will be the reactor of 
choice for quite a few decades to come. However, we also are 
interested in the high-temperature gas reactors because of that 
hydrogen mission, and I think the commercial deployment, 
really, it is--remains to be seen as, I think, we see more 
consolidation on energy companies that utilities may mesh with 
natural gas companies and that sort of thing. But we also 
believe it is very promising.
    Mr. Rohrabacher. So you are giving it a--that way. And it--
--
    Mr. Modeen. For a longer time----
    Mr. Rohrabacher. Okay. A more detailed, if you could give 
it to me in writing, I would appreciate it very much.
    Thank you very much, Madame Chairman.
    Chairwoman Biggert. Okay. Thank you.
    I think we are back on track. Let us just--as a reminder 
that the purpose of the hearing is to solve the waste problem 
so that we can expand the use of nuclear energy beyond 20 
percent.
    And with that, the gentleman from Tennessee, Mr. Davis, is 
recognized.
    Mr. Davis. Thank you, Chairwoman Biggert and Ranking Member 
Honda, for having this event today, this meeting today. And for 
those who are present that are giving testimony, I would like 
to read a statement, as well as ask a question.
    Before I get into the issues at hand, I would like to 
express my support for nuclear energy in this country. As 
America has become more addicted to fossil fuels that pollute 
our air and water, I believe nuclear energy can play a major 
role in our country's future energy needs. Opponents of nuclear 
energy argue, quite frankly, that is unsafe, and with that 
mindset, America has not ordered a new nuclear energy plan in 
over 25 years. However, over time, the Navy has acquired over 
80 vessels that contain nuclear reactors. To date, there have 
been no instances reported on any of these 80-plus vessels, and 
none of the crew on these ships has become ill from serving on 
them, nor do any of the glow in the dark.
    So clearly, the technology exists that can make nuclear 
power safe. It is my hope once we solve the nuclear waste 
question that we can add more nuclear power to the Nation's 
grids.
    Now I have got some concerns. Though I believe that nuclear 
energy needs to play a major role in our energy future, I also 
have serious reservations about the GNEP proposal. My main 
concern stems from the fact, I believe, that it appears that 
the majority of important decisions about this program have 
already been made, such as site locations, specific 
technologies that could be used for GNEP. For instance, Japan 
has technologies. These possible actions concern me because I 
believe they have excluded the expertise of energy leaders and 
scientists who are at the forefront of nuclear energy. I 
believe this program, to be successful, we must include all 
experts and not just a selective few. As you probably know, Oak 
Ridge National Lab is located near my district and employs some 
of the brightest and most experienced scientists on nuclear 
technology.
    For years, Oak Ridge has been at the forefront of 
developing and maintaining nuclear programs for the Department 
of Energy and the Department of Defense. However, to my 
knowledge, no one from Oak Ridge was involved in the 
development of GNEP. To make--to me, it makes sense to have 
people involved that have a clear and long history of working 
within this field to help plan the future of this technology.
    I have some concerns, and I believe we must act now to deal 
with nuclear waste and the successful expansion of nuclear 
energy in America. And my hope was that today's hearing would 
help relieve some of those concerns.
    The question I have, Mr. Johnson, what is the technical and 
programmatic basis for the technology that has apparently been 
used to choose the technology and the site locations as you 
went through the process? And then secondly, to follow up, do 
these choices represent a consensus among the industry and the 
technical communities?
    Mr. Johnson. Thank you, sir.
    Let me say right off the bat, there have been no decisions 
made on siting any of these facilities at any location, 
contrary to what may have been written.
    Mr. Davis. Well, I just--I am sorry. I reclaim my time.
    I just read what has been written, and you are saying those 
are not true?
    Mr. Johnson. I am saying that is not true.
    Mr. Davis. I am relieved.
    Mr. Johnson. Thank you.
    With respect to the specific technologies and the basis for 
what we are proposing is all based on work that has been done 
in our laboratories over the last four to five years and work 
that was performed, in large part, at the Oak Ridge National 
Laboratory with respect to certain parts of the UREX+ 
separations process. Between the work at the Oak Ridge National 
Laboratory, the Argonne National Laboratory, and the Idaho 
National Laboratory, we feel very confident that this is a 
process that is worthy of continued investigation and moving it 
out of the laboratory into a larger-scale process so that we 
can better understand the physical phenomena at a larger scale 
before embarking on decisions to commercialize the technology.
    With respect to the consensus within the industry or the 
scientific community, I would safely say there is not 
consensus, much like there is not consensus on many issues of a 
technical nature, or any other nature, for that matter. But it 
is--where we are represents the best thought and experience 
that the Department has within its laboratory complex.
    Mr. Davis. Reclaiming my time. I have always felt that 
science was pretty exact, so it would seem to me that we are 
talking about some pretty exact technology, and there should be 
a consensus before we start talking about spending billions of 
dollars on a new technology. That should be scientifically 
exact. I yield back.
    Chairwoman Biggert. Thank you, Mr. Davis.
    And let me say that I, too, share your concern that we use 
all of the research and the knowledge of all of the 
laboratories in searching out this question, not just the lead 
laboratory at Idaho.
    And with that, the gentleman from Michigan, Mr. Schwarz, is 
recognized.
    Mr. Schwarz. Very briefly, is--should we be talking about 
the reprocessing in this country right now for commercial use 
because of the need to get additional electric-generating power 
on line or should we be building once-through cycle nuclear 
electric power plants and get them up and running as soon as 
possible? And should we be dealing with reprocessing because of 
the products of reprocessing and the fact that one of those is 
plutonium and could get into the wrong hands and be enriched 
and used for the construction of weapons? So I understand 
Japan, France, and probably other countries are reprocessing 
now, Russia. Should we be in that at all? If so, briefly, why, 
to a lay person in this, like myself, that I can explain to 
people back in Michigan? And if not, should we get going right 
away on building nuclear plants that are once-through cycle 
uranium plants?
    Sir?
    Mr. Johnson. Yes. With respect to near-term deployment of 
new light water reactor plants to add to the baseload capacity 
of our country, yes. The Department is working cooperatively 
with industry on that, and we remain very optimistic we will 
see new plants in the not-too-distant future.
    With respect to the question on recycling spent nuclear 
fuel, we are not coming before the Congress saying we are 
embarking on commercial reprocessing technology and advocating 
we move forward at the time with commercial deployment. What we 
are doing is asking to accelerate work that has already been 
going on within our research and development programs to take 
the research on the advanced recycling technologies to the next 
phase of demonstration such that we can make a better and a 
more fully-informed decision on this technology should a 
subsequent decision be made to embark on recycling of spent 
nuclear fuel.
    Mr. Schwarz. Thank you.
    Dr. Todreas. My--there are two reasons we should embark on 
R&D and knowledge in recycling. We definitely have to launch 
and secure light water reactors. First reason, if you aim for 
the year 2050 and you want to keep 20 percent nuclear, you have 
got to expand nuclear by a factor of three in this country. And 
if you keep 20 percent, you can displace a quarter of the 
greenhouse gas that would otherwise be generated as extra 
between now and 2050. That is the motivation. If you get to 
2050 with that kind of nuclear expansion, you need to move the 
nuclear fuel cycle to really robust ways to deal with the 
waste, so you need options.
    The other reason now to have an R&D program is to have an 
influence in the world and in our own evolution. You have got 
to have technical knowledge to be credible for the evolution of 
commercial nuclear power in the world, this is Europe, Japan, 
and Russia. You have got to have that knowledge to develop 
effective safeguards from reprocessing plants that others are 
building.
    And third, we have got to make judgments on what to do with 
recycling and reprocessing in this country. If we don't get in 
it and do R&D and get knowledgeable, we are going to be at zero 
relative to the ability to do those judgments.
    Mr. Schwarz. Thank you.
    I yield back.
    Chairwoman Biggert. Thank you.
    Mr. Schwarz. If no one else has a comment, I would yield 
back.
    Chairwoman Biggert. The gentlelady from Texas, Ms. Jackson 
Lee.
    Ms. Jackson Lee. I thank the Chairwoman very much and for 
this hearing.
    This is a mountain of issues. Let me say that I am slowly 
trying to refocus and redesign my position on nuclear energy 
based upon where we are today, and I obviously come from the 
energy capital of the world that has been premised on oil and 
gas in Houston, Texas, but by the very nature that the term is 
energy, I expect that many of the corporations that I represent 
will be looking at a lot of alternative issues, alternative 
fuels, and certainly nuclear will be something of concern.
    While I am in the mold of addressing the question of the 
magnitude of this challenge, particularly with the apprehension 
of many that the excessive use of nuclear energy leaves in the 
marketplace materials that could be used in weapons of mass 
destruction and may not, as well, be environmentally safe, let 
me pose these questions on this particular project. And as a 
backdrop, let me say that I am not a fan of Yucca Mountain, and 
I am not a fan of it, because I question whether the capacity 
is such that it would be able to hold all of the fuel 
necessary, particularly if the current fleet of more than 100 
power reactors operates for their normal plant lives.
    But if we are to look at this proposal that the President 
has offered, I wanted to ask the question, Dr. Garwin, is this 
realistic in and of itself, the GNEP program, particularly the 
magnitude that this program or this demonstration project would 
offer, 200 tons, I think, as opposed to 20 tons per year? Help 
me understand, from your perspective, how realistic this is. 
And as an oversight committee, instruct us on this particular 
proposal. What should be the indicia or the criteria or the 
limitations that we should raise on this particular program? 
And you might add the cost as well.
    Dr. Garwin. Well, for something that is not worth doing----
    Chairwoman Biggert. Sir?
    Dr. Garwin. Yeah.
    Chairwoman Biggert. We are--the bells are calling us for a 
vote, and I think we have got one more question or so. If 
everybody can answer briefly so we can have the last question, 
and then you won't have to wait for us to come back from 
several votes.
    Dr. Garwin. If something is not worth doing, it is not 
worth doing well. So the question is to what extent is GNEP, 
that is the recycle--the reprocessing and burning, worth doing. 
It has one principal function: it saves repository space. We 
need the systems analysis tool or some good decision making to 
tell us how much repository space costs. And we can buy it not 
only in the expansion of Yucca Mountain that we--the President 
has sent now to the Congress with the request to expand it, or 
we can buy repository space elsewhere.
    Now Mr. Davis also asked about science--the exactness of 
the science. We need this analysis tool so that we just don't 
have to build things of larger scale, so we can design them 
differently, so we can simulate them so that when we build we 
know pretty well that it is going to work. And then we will 
have a cheaper and simpler program.
    Ms. Jackson Lee. But if I may, Dr. Garwin, since I know my 
time is short, your assessment of the GNEP program 
demonstration and the science of it, is that workable versus a 
smaller demonstration? And do you see the amount--the cost 
worthy of the ultimate process? And this is on the 
reprocessing.
    Dr. Garwin. Well, this is reprocessing of light water 
reactor fuel. That is easy. We don't need UREX. We could do 
PUREX.
    Ms. Jackson Lee. All right.
    Dr. Garwin. We should do more research on UREX. We don't 
need to scale it up. We need to have the people out there at 
Argonne put their minds to understanding their process better 
so they can scale it up on paper and do critical experiments.
    Ms. Jackson Lee. So we don't need UREX?
    Dr. Garwin. No, the critical point is reprocessing of the 
fast reactor fuel. That has to happen many, many times compared 
with once for the light water reactor fuel, and that is the big 
uncertainty. There is complex of design, of fuel form, of 
reprocessing----
    Ms. Jackson Lee. Can PUREX be made safely?
    Dr. Garwin. PUREX will do it safely, yes. It is 
established. And we can wait. The main thing is that we can 
wait to reprocess light water reactor fuel until we build the 
fast reactors so that we have fuel to put into them.
    Ms. Jackson Lee. Thank you.
    Chairwoman Biggert. Thank you.
    The gentleman from South Carolina, Mr. Inglis.
    Mr. Inglis. First of all, I would like to congratulate the 
Chair on holding this hearing. It is an important hearing. It 
is important for us to develop a consensus as to energy 
alternatives, and surely, nuclear seems to be one very 
attractive alternative that we have got.
    I was interested in Mr. Rohrabacher's question earlier 
about high-temperature reactors.
    I was aware there are possibilities for the production of 
hydrogen. I wasn't aware that there is some benefit in terms of 
non-proliferation. Can somebody explain that to me? Perhaps it 
has already been explained, but it would be interesting to know 
if there is, in fact, a benefit as to non-proliferation with a 
high-temperature reactor.
    Mr. Johnson, is that--or is----
    Dr. Garwin. Yeah. Just quickly, thermal reactors, as well 
as fast reactors, can transmute, meaning destroy actinides, 
meaning destroy plutonium. There are technical differences 
about downstream effects and other isotopes, but they can both 
do it. And so the gas reactor is in the competition to have a 
role in that aspect. Is that enough?
    Mr. Inglis. I think so.
    I look forward--anybody else want to help me out there 
with--any--now the--it is a concern that the--it didn't sound 
like the utilities are going to exactly be excited about that 
possibility, the high-temperature reactor, particularly for a 
potential new business for them called hydrogen. And of course, 
if they are not interested, I suppose there are other people 
that are interested in other technologies by way of how to 
produce that and get in that business. It seems to me that 
utilities, though, have an opportunity. They may miss the 
opportunity. The railroads missed the opportunity to become 
airlines. So did I hear some indication that maybe utilities 
are going to miss their opportunity to become the hydrogen 
commodity suppliers?
    Mr. Modeen. No, I don't think you heard that. I think it is 
a matter of a sequence in priorities. And again, the very first 
is we need to continue to focus on the current plants. We need 
to deploy this next generation advanced light water reactors, 
and we really need to address Yucca Mountain. I think those are 
the top three for the commercial utility industry, no question 
about that.
    The next, I think, in that series, from our perspective, 
really is high-temperature gas reactors, a hydrogen mission. I 
happen to have, in the EPRI program, a very small budget for 
that, but we have had leading utilities. Entergy, I think, is 
probably the most public of them. But we have taken a part of 
our program to really understand what has been going on in the 
rest of the world commercially, as well as at the labs, and try 
to compare and contrast that in deployment time frames for that 
mission. So--but it is just really a matter of what is your 
core business, and still, right now, it is really looking at 
electricity generation, and the advanced reactor--light water 
reactor is really optimized for that, and that is where we are 
putting most our effort.
    Mr. Inglis. Is it fair to say, Mr. Johnson, is that that is 
a role for the government if the utilities aren't concerned 
about investing money, at this point, in developing the high-
temperature reactors, particularly in getting into the hydrogen 
business? Is there because there are additional breakthroughs 
that are needed and that is a role for some government to fund? 
Is that--would that be accurate?
    Mr. Johnson. Yes, sir, I believe so. There are some 
technical risks or technical questions that need to be 
resolved, and I think that that is an appropriate role for the 
government in terms of some of these high-temperature operating 
regimes that we have very little experience in.
    Mr. Inglis. And how many years, do you think, that is away? 
Take a guess.
    Mr. Johnson. Well, gas reactor technology is in operation 
today in other countries, and depending on the country, going 
from where the gas reactors that are in operation today to the 
higher temperature reactors, it is probably 10 years, minimum 
to demonstrate. But the gas reactor technology is pretty well 
understood. It is going to the higher temperatures needed for 
the hydrogen production mission that introduces some technical 
uncertainties.
    Mr. Inglis. I yield back.
    Chairwoman Biggert. Thank you.
    I recognize Mr. Honda for 30 seconds for a yes/no question.
    Mr. Honda. Thank you very much.
    And having heard Dr. Todreas talk about the road map, I 
guess we are going to need a GPS.
    My question is since we have--I get the sense that the 
Department has gone down the road to some decision-making 
process, and it appears that the discussion has not been as 
broad as I think it should be, I would like to discuss with my 
colleagues and the Chairwoman here the possibility of expanding 
the process and looking at some sort of independent panel 
review that would be a little bit more broad and also discuss 
not only GNEP but also some of the economic analysis of the 
plan. And there appears to be other approaches to the issue of 
spent fuel, so I would like to hear more of that, too, it--so 
that we can get a better feel of it.
    And Madame Chair, I really appreciated this hearing today, 
because it has really opened up and put more into focus the 
need for more understanding, because not only does it speak to 
UREX or to reprocessing and to other decisions, but it also 
speaks to some of the foreign policy decisions Congress has to 
make.
    Chairwoman Biggert. Mr. Honda, I am going to have to cut 
you off, because we have to adjourn this meeting.
    I think that--keep in mind that we do--have requested the 
systems analysis, which I think will help with that. Another 
thing, I think, that we do need and we will schedule, would be 
some briefings with Members so that we can come in and really 
have a discussion. But we also have plans for other hearings on 
this. We have had one on the nuclear proliferation and one on 
the cost, and this has been on the waste products. So I think 
that, you know, this is one of many hearings that we will have, 
but I think it would be important for a briefing for our 
Members, too.
    So before we bring this hearing to a close, I want to thank 
our panelists for testifying before this subcommittee today. If 
there is no objection, the record will remain open for 
additional statements from the Members and for answers to any 
follow-up questions the Subcommittee may ask for from the 
panelists. So without objection, so ordered.
    This hearing is now adjourned.
    [Whereupon, at 11:45 a.m., the Subcommittee was adjourned.]

                              Appendix 1:

                              ----------                              
                   Answers to Post-Hearing Questions

Responses by R. Shane Johnson, Deputy Director for Technology, Office 
        of Nuclear Energy Science and Technology, Department of Energy

Questions submitted by Chairman Judy Biggert

Q1.  Please describe the safeguards and monitoring research program 
under the proposed Global Nuclear Energy Partnership (GNEP). Which 
office at the Department of Energy (DOE) is responsible for overseeing 
this program?

A1. The Department's National Nuclear Security Administration (NNSA) is 
responsible for overseeing the safeguards and monitoring research that 
will help support GNEP. The program involves the assessment of 
proliferation risks and the development of advanced international 
safeguards and monitoring systems. In carrying out these tasks, NNSA 
will work with the Office of Nuclear Energy (NE), whose Advanced Fuel 
Cycle Initiative has conducted research since 2003 on enhancing 
proliferation resistance and monitoring. NNSA and NE will work together 
to ensure that features such as international safeguards, physical 
protection, and enhancing proliferation resistance, are incorporated 
``by design'' into any GNEP facility, into the overall GNEP fuel cycle 
concept, encompassing advanced recycling, fuel fabrication and reactors 
(both burners and small reactors), as well as into spent fuel transport 
and storage.

Q2.  Some experts suggest that a significant percentage of the existing 
spent nuclear fuel will be difficult to reprocess because of the 
buildup over time of certain radioactive isotopes--particularly 
Americium 241. How does the decay of radioisotopes in spent fuel affect 
the reprocessing technology decision? Is it possible that some of the 
waste will have passed a ``point of no return'' for certain 
reprocessing technologies before commercial reprocessing begins? Could 
the United States end up needing more than one reprocessing technology? 
Has DOE been able to quantify how much of the existing waste can and 
cannot be reprocessed with UREX+?

A2. Spent nuclear fuel which is aged for longer than three years can be 
reprocessed by using either PURER technology or UREX+ technology. 
Short-cooled spent nuclear fuel, defined as three to five years old, 
contains significantly less americium-241 (Am-241), (which is created 
as the result of plutonium-241 decay) than longer-cooled spent nuclear 
fuel. However, this short-cooled spent nuclear fuel has more curium-242 
and curium-244 than longer-cooled spent nuclear fuel and these elements 
are highly radioactive gamma and neutron emitters. The percentage of 
highly radioactive isotopes such as Am-241, Cm-242 and Cm-244 affect 
the measures necessary to protect workers. However, neither the Am-241 
growth nor the presence of Cm-242 or Cm-244 in spent nuclear fuel 
eliminates the ability to reprocess it. Therefore, technically a 
``point of no return'' does not exist.
    A second reprocessing technology based on electro-metallurgical 
treatment may be required for the spent nuclear fuel from GNEP's 
Advanced Burner Reactor, depending on the fuel form selected for the 
Advanced Burner Reactor.
    UREX+ reprocessing technology can be used on all existing Light 
Water Reactor (LWR) spent nuclear fuel currently stored in the U.S.
    While the Department's technical experts anticipate that recycling 
of spent nuclear fuel has significant potential, it is not currently 
known what percentage of existing or future U.S. inventories of spent 
nuclear fuel would be technologically suitable for recycling if the 
GNEP technologies ultimately prove to be successful. Some of the U.S. 
inventory of spent nuclear fuel is thought at this time to be 
unsuitable for recycle using UREX+. This inventory includes the Three 
Mile Island damaged fuel, the graphite fuel from Fort St. Vrain, spent 
nuclear fuel derived from the Experimental Breeder Reactor II as well 
as other molten salt reactors, and a few other specialized examples.

Q3.  If the nuclear industry believes there is a shortage of expertise 
for its expansion, how does DOE plan to recruit and hire the talent 
necessary to construct four very large nuclear demonstration facilities 
at the same time that the nuclear industry begins its expansion?

A3. The Global Nuclear Energy Partnership (GNEP) is long-term in nature 
while the expansion of nuclear power is planned for the near- to mid-
term timeframe. As new nuclear power plants are built and general 
interest in nuclear energy continues to grow, more and more students 
will be attracted to the field, giving DOE and other nuclear-related 
entities a strong pool of candidates from which to recruit. In 
addition, DOE can take advantage of capabilities and expertise within 
our existing infrastructure, as well as that of our international 
partners, to support the GNEP. France, Japan, and other countries have 
expressed a strong interest in joining the U.S. in the design, and 
possibly the supply of key components for the GNEP demonstration 
facilities. The Department expects significant financial and in-kind 
contributions from other GNEP partner countries which will help offset 
some of the capital needed to carry out GNEP.

Q4.  If you face resource constraints in the GNEP effort, what are your 
highest priorities?

A4. The Department's GNEP priorities are to identify and resolve the 
remaining high risk technology issues. The FY 2007 funding request 
supports the technology development activities necessary to address the 
higher risk technologies associated with the fabrication of 
transmutation fuel, spent fuel recycling, the Advanced Burner Reactor, 
the Advanced Fuel Cycle Facility, and a comprehensive technical and 
economic systems analysis.

Questions submitted by Representative Michael M. Honda

Q1.  Ninety-five percent of the volume of waste in a spent fuel rod is 
uranium. Reprocessed uranium from European reprocessing facilities is 
being managed as nuclear waste. France has been dumping massive 
quantities of reprocessed uranium on Russia, which has done a very 
small amount of work on re-enrichment. The UK reuses none of their 
reprocessed uranium. What is the proposed use for reprocessed uranium 
under the GNEP plan?

A1. First, it is important to note that uranium recovered by the UREX+ 
technology from spent nuclear fuel has been demonstrated to be 99.999 
percent pure. All laboratory tests with actual spent fuel have resulted 
in uranium that could be classified and disposed of a low level waste 
if it were determined to have no further use. With regard to the use of 
this highly pure uranium, at this time we believe there are several 
potential alternatives for its use: 1) make-up fuel material to be 
mixed with the transuranics for consumption in Advanced Burner 
Reactors; 2) store for future use in advanced reactors; and 3) use as 
fuel in Canadian CANDU reactors.

Q2.  DOE recently released an advance notice to prepare an 
Environmental Impact Statement for the proposed demonstration 
reprocessing facility [Federal Register, March 22, 2006 (Volume 71, 
Number 55)]. Why has DOE not announced an advance notice to prepare a 
programmatic EIS for the entire GNEP program, which would be the 
logical first step for such a large-scale program?

A2. In March 2006, the Department issued an Advance Notice of Intent 
(ANOI) expressing DOE's intent to prepare an environmental impact 
statement to address the GNEP technology development program 
activities. The Department is in the process of reviewing the comments 
received in response to the ANOI and has not yet made a final decision 
on the implementation of its NEPA review. Additionally, in March 2006, 
the Department issued a Request for Expressions of Interest (EOI) to 
perform site evaluation studies. The Department received 43 responses 
to the EOI. As a result, the Department will be issuing a Financial 
Assistance Funding Opportunity Announcement to identify sites that may 
potentially be considered in the NEPA review. DOE will issue the 
Financial Assistance Funding Opportunity Announcement in August 2006.

Q3.  How many public-private entities sent in Expressions of Interest 
for being the host site for the proposed demonstration recycling 
facilities? What were the proposed sites? How will DOE allocate the $20 
million to these sites, as required by the FY 2006 Energy and Water 
Appropriations bill? How will DOE choose between the sites? When will 
DOE announce the selected site?

A3. The Department received 43 responses to the Request for Expressions 
of Interest (EOI). This EOI was released for the purpose of notifying 
public and private entities that the Department was considering 
releasing a solicitation to perform site evaluation studies and to 
determine the level of interest in such a solicitation. The Department 
has posted the names of all interested parties who responded to the EOI 
on the Idaho Operations Office website at http://www.id.doe.gov/GNEP-
TDP/index.htm. The EOI was not intended to identify sites. The 
Department intends to release a formal solicitation in the near future. 
Based on formal proposals received in response to that solicitation, 
the Department will make decisions about which specific sites will 
receive funds from the $20 million, with no more than $5 million 
allocated to any one site, as specified in the Conference Report for 
the FY 2006 Energy and Water Development Appropriations bill. DOE will 
release the specific criteria for deciding which entities and sites 
will receive funding, when it releases the solicitation. It is expected 
that the Department will announce its decision on the selected sites 
for site evaluation studies later this year.

Q4.  If industry does not buy-in to the GNEP concept it will cost the 
taxpayer untold billions and not go forward as proposed. What has been 
the role of industry in developing the GNEP concept? Has DOE solicited 
and received feedback from industry regarding commercial development of 
fast reactors? Why has no U.S. vendor proceeded with development of 
fast reactors as envisioned in the GNEP?

A4. The GNEP proposal was developed through normal interagency process 
within the government. The Department currently is engaging with 
industry to solicit their views as to how industry could most 
effectively participate in the GNEP initiative.
    With regard to a U.S. vendor developing fast reactor technology, 
the General Electric Company has been working jointly with the Toshiba 
Corporation on the development of a simplified sodium-cooled fast 
reactor that could share many of the same attributes as a sodium-cooled 
fast reactor currently envisioned for the GNEP program.

Question submitted by Representative Eddie Bernice Johnson

Q1.  Congress has the responsibility to take on national imperatives 
such as lessening both our dependence on fossil fuels and the 
environmental impact of energy use. GNEP may be one step in that 
direction. What is the prospect for nuclear energy, and specifically 
GNEP, in replacing fossil fuels in the future?

A1. The Energy Information Administration (EIA), in its reference case, 
projects United States nuclear power capacity to be 109 gigawatts in 
2030.\1\ This projection includes continued operation of current 
nuclear plants, capacity expansions (uprates) at current plants and six 
gigawatts of new capacity, resulting from the incentives of the Energy 
Policy Act of 2005 (EPACT). Under this same scenario, EIA projects that 
over 900 gigawatts of fossil-fired capacity will need to be added.
---------------------------------------------------------------------------
    \1\ Annual Energy Outlook 2006, Energy Information Administration, 
DOE/EIA-383(2006), February 2006, p. 149.
---------------------------------------------------------------------------
    While nuclear is not a substitute for oil, it could be used to 
replace coal and natural gas, and several utilities have decided to 
investigate this path. The Nuclear Regulatory Commission has recently 
testified that the number of expected combined Construction and 
Operating License applications is 17 for up to 25 units. Much of this 
renewed interest has been sparked by the work performed by the Office 
of Nuclear Energy through the Nuclear Power 2010 program, which aims to 
streamline the licensing process for new nuclear power plants. Combined 
with the incentives provided in EPACT, the nuclear industry has great 
potential to offset coal and natural gas.
    Recognizing that nuclear power could expand greatly with the 
licensing of these new nuclear power plants, one of the Global Nuclear 
Energy Partnership's (GNEP) objectives is targeted towards addressing 
the resulting spent nuclear fuel using an enhanced recycling technology 
known as UREX+. Using this recycling technology, GNEP has the potential 
to significantly reduce the amount of spent nuclear fuel requiring 
disposal, allowing for the further expansion of new nuclear power 
plants. Given the complexity of this approach, GNEP faces some 
technical development challenges and uncertainties.
    The Department continues to work toward developing a systems 
analysis that can answer some outstanding GNEP issues and also help 
develop a roadmap. The Department is optimistic that GNEP holds great 
potential to facilitate the expansion of nuclear power (thus offsetting 
fossil fuels) and looks forward to the results of its analyses.

Questions submitted by Representative Lincoln Davis

Q1.  GNEP will use the UREX+ process as the baseline fuel reprocessing 
technology, despite concerns that it may not be the best choice. What 
is the technical and programmatic basis for the technology selections 
that have apparently been made? Do these choices represent a consensus 
among the industry and technical communities, both domestic and 
international? Were the choices the result of peer reviewed process? If 
so, please provide records that such selections were indeed vetted 
through a peer review process.

A1. The UREX+ process has been under development since 2001, and has 
been successfully demonstrated at a laboratory scale. The recycling 
technologies DOE is considering are based on the results of significant 
research conducted since 2001 and documented in the following public 
reports:

Reports to Congress:

Report to Congress on Advanced Fuel Cycle Initiative: The Future Path 
        for Advanced Spent Fuel Treatment and Transmutation Research, 
        January 2003

Advanced Fuel Cycle Initiative (AFCI) Comparison Report, October 2003

Advanced Fuel Cycle Initiative (AFCI) Comparison Report, September 2004

Advanced Fuel Cycle Initiative: Objectives, Approach, and Technology 
        Summary, May 2005

Advanced Fuel Cycle Initiative: Status Report for FY 2005, February 
        2006.

    Each of these documents has been available for peer and public 
review and comment on the DOE website at www.nuclear.gov (Public 
Information/Congressional Reports) since its date of publication.
    Additionally, the program has issued: AFCI Quarterly Reports four 
times annually since January 2001, detailing the work carried out under 
the AFCI program during that quarter; and AFCI Annual Highlights, 
annually since 2003, describing the AFCI program's research and 
development accomplishments during the year.
    Also available on the www.nuclear.gov (Advisory Committee/Reports) 
website are the reports of the Department's continuing independent 
expert review of the program and its technology options. These 
independent reviews are in the form of Reports from the Nuclear Energy 
Research Advisory Committee (NERAC) and its Subcommittee on Advanced 
Nuclear Transformation Technology (ANTT). This Subcommittee, chaired by 
Nobel Laureate Dr. Burton Richter and staffed by leading experts, has 
provided oversight and direction on the AFCI research and development 
program for the past five years. ANTT reports are provided to the NERAC 
full committee for review, comment and disposition, which may include 
adopting the Subcommittee's recommendations and forwarding them as 
recommendations of the full committee to the Office of Nuclear Energy. 
The ANTT Subcommittee reported on the AFCI program in public meetings 
on:

        <bullet>  November 6, 2001

        <bullet>  April 15, 2002

        <bullet>  January 14, 2003

        <bullet>  October 24, 2003

        <bullet>  February 26-27, 2004

    The ANTT Subcommittee also prepared a report during calendar year 
2005, but has yet to present it to the full NERAC.
    Moreover, over the past five years, UREX+ research has become an 
international collaborative effort attracting experts from France, who 
exchange their research results with the United States and review U.S. 
progress. In addition, the development of UREX+ technology has been 
reviewed by the Organization for Economic Cooperation and Development/
Nuclear Energy Agency (Nuclear Science Committee) based in Paris, 
France.

Q2.  The nuclear industry charges rate payers 0.1 cent per kilo-Watt-
hour (kWh) of electricity to pay for disposal of used nuclear fuel. 
Please provide an estimate of how much this will increase to pay for 
the construction of GNEP facilities and their operation.

A2. The Department does not plan to use the Nuclear Waste Fund to fund 
GNEP demonstration program activities.
                   Answers to Post-Hearing Questions
Responses by Richard L. Garwin, IBM Fellow Emeritus, Thomas J. Watson 
        Research Center, Yorktown Heights, NY

Questions submitted by Chairman Judy Biggert

Q1.  Dr. Todreas (and others) support the notion of a two-step approach 
to recycling. This approach would initially implement recycling without 
fast reactors. The delay would buy time for additional research and 
development to optimize and bring down the cost of fast reactors and 
fast reactor fuel. What are the pros and cons of a single step to fast 
reactors versus a two-step approach involving thermal reactors?

A1. I do not support a two-step approach to recycling spent nuclear 
fuel in the United States. First, the reprocessing of spent nuclear 
fuel for recycle into light water reactors produces a product after a 
single recycle that has as much heat in the transuranic component as do 
the fuel elements that were reprocessed to make that spent fuel. It 
would not save space in the repository.
    Second, the GNEP reprocessing itself (UREX+) or PUREX are entirely 
comparable so far as proliferation resistance are concerned, and 
neither is very important when implemented in the United States.
    There are no pro's for the two-step approach to recycling.
    The ``single step to fast reactors'' as defined in the GNEP program 
presented to the Committee 04/06/2006 is wrong-headed in that it puts 
the bigger part of the effort initially into an engineering scale 
demonstration (ESD) of the UREX+ process for reprocessing LWR fuel with 
a separation effectiveness of 99.9 percent or more. This high 
efficiency is totally unnecessary for the single reprocessing of LWR 
fuel, although it might be desirable for the multi-reprocessing of ABR 
fuel. The technical effort in the GNEP program must be focused on the 
simultaneous and competitive design of the ABR, its fuel formulation, 
and reprocessing suitable for that fuel. The very large set of ABRs is 
generally agreed to be uneconomical, and attention must be focused on 
making such reactors economically competitive with LWRs, if they are to 
be inflicted on the nuclear power industry.
    The nonproliferation benefits of GNEP would be achieved by the 
leasing of LEU fuel and the take back from foreign customers of spent 
fuel for direct disposal into competitive, commercial mined geologic 
repositories the world over. There should be a commitment to above-
ground interim storage casks for spent fuel for 100 years or more, 
which would indeed give time for ``additional research and development 
to optimize and bring down the cost of fast reactors and fast reactor 
fuel.''
    It is of interest that an EPRI report of May 2006 concludes that 
Yucca Mountain will hold at least 260,000 tons and likely 550,000 tons 
of spent LWR fuel.
    Right now the DOE should put real money into determining the 
resource cost of additional uranium, including uranium from seawater, 
and ultimately the fast reactors will be not burners of TRU but 
breeders of TRU, in order to extend greatly the resource supply of 
uranium if nuclear power proves to be a major component of the world's 
energy supply.

Question submitted by Representative Eddie Bernice Johnson

Q1.  Congress has the responsibility to take on national imperatives 
such as lessening both our dependence on fossil fuels and the 
environmental impact of energy use. GNEP may be one step in that 
direction. What is the prospect for nuclear energy, and specifically 
GNEP, in replacing fossil fuel in the future?

A1. Indeed nuclear power has a good possibility of replacing fossil 
fuel especially for the production of electricity and other uses of 
stationary power plants. The key lies in the deployment and operation 
of safe nuclear power, and it must be extremely safe, since a nuclear 
accident on the scale of Chernobyl is likely to repel investors the 
world over. Certainly a market-oriented approach is desirable, and that 
means that individual companies and investors must find benefit in 
nuclear power in competition with other forms of energy supply.
    I am optimistic about nuclear power. The Department of Energy 
should play its role in formulating GNEP as a program for leasing fresh 
LWR fuel and taking back spent fuel from clients abroad. This spent 
fuel should be slated for direct disposal into competitive, commercial 
mined geologic repositories, and not only in the United States.
    The fuel for a greatly expanded population of nuclear reactors 
could come from higher cost terrestrial resources and eventually from 
seawater uranium, and the DOE should spend real money to determine 
whether the cost of seawater uranium is $300/kg or $1000/kg--either of 
which would be affordable for LWRs. But the long-term future will 
depend upon breeder reactors, and a modest effort should go into the 
design of breeder reactors to determine how they can be made 
economically competitive with LWRs at uranium prices of, for instance, 
$300/kg of natural uranium.
    Unfortunately, nuclear power is capital intensive, and as such will 
take longer to deploy than low-cost or no-cost measures such as 
improving energy efficiency. Nuclear power is also somewhat inflexible 
in that it is primarily at present for the generation of electricity, 
whereas there is a vast need for the direct substitution for gasoline, 
Diesel fuel--and natural gas. So liquids from coal and gas from coal 
plants, with carbon capture and storage, deserve far more investment 
than they are getting from DOE at present. There should be an assured 
market for the product of such plants, up to about one percent of U.S. 
consumption, in order to get a rapid start on the deployment and 
improvement of such technology.

                   Answers to Post-Hearing Questions
Responses by David J. Modeen, Vice President, Nuclear Power; Chief 
        Nuclear Officer, Electric Power Research Institute

Questions submitted by Chairman Judy Biggert

Q1.  Dr. Todreas (and others) support the notion of a two-step approach 
to recycling. This approach would initially implement recycling without 
fast reactors. The delay would buy time for additional research and 
development (R&D) to optimize and bring down the costs of fast reactors 
and fast reactor fuel. What are the pros and cons of a single step to 
fast reactors versus a two-step approach involving thermal reactors?

A1. The EPRI-INL Nuclear R&D Strategy Paper discussed in my testimony 
strongly supported ``Full Actinide Recycle,'' \1\ which requires fast 
reactors in addition to reprocessing, as the best way to implement 
GNEP. This path is preferred over one that includes a ``thermal 
recycle'' mode using MOX fuel in light water reactors, because this 
latter path does not provide significant benefits in terms of either 
non-proliferation or spent fuel management, and cannot presently be 
justified by economic considerations.
---------------------------------------------------------------------------
    \1\ Nuclear fuel cycles are divided into two distinct categories: 
``open'' and ``closed'' fuel cycles. In the open or once-through fuel 
cycle, spent fuel discharged from reactors is disposed of in a 
repository. In the closed fuel cycle, spent fuel is reprocessed; 
uranium (U) and plutonium (Pu) are subsequently recovered for 
fabrication into oxide or mixed oxide (MOX) fuel for recycle back into 
reactors. Plutonium and some uranium recycling in LWRs are currently in 
use in a few European countries. ``Full actinide recycle'' recovers 
uranium and plutonium along with the minor actinides (Np, Am, and Cm) 
and consumes them in fast neutron spectrum reactors. Full actinide 
recycle is not deployed today.
---------------------------------------------------------------------------
    The approach suggested by this question, i.e., to begin thermal 
recycle before fast reactors are ready to deploy, is effectively what 
has been done to date by those nations engaged in reprocessing--whose 
initial intent was to recycle plutonium in breeder reactors for 
sustainability purposes. However, anticipated shortages in natural 
uranium resources along with an accompanying rise in fuel costs, and 
commercial deployment of fast reactor technology, have not materialized 
as soon as originally anticipated--by several decades. Hence, the 
``current technology'' approach has, by default, become the two-step 
process discussed in the question. Because of the high cost of storing 
separated plutonium, recycling plutonium in thermal reactors in 
countries having implemented reprocessing became a necessary step to 
mitigate fuel cycle costs. Further, the existence of high inventories 
of separated Pu has led to international concern about the 
proliferation potential of these inventories if the Pu is not burned in 
the existing thermal reactors in a timely fashion.
    The U.S. industry is not faced with these issues since it has not 
deployed thermal recycle commercially. Not burdened by this legacy and 
knowing that the economics do not currently justify closing the fuel 
cycle, but realizing that the economics will eventually favor this 
transition (and that long-term energy sustainability will further 
dictate this transition), the optimum strategy for transitioning 
nuclear energy to a closed fuel cycle in the U.S. context requires the 
Nation to conduct the necessary R&D now, and to time that transition to 
coincide cost-effectively with the inevitable rise in nuclear fuel 
costs. It will take a substantial period of time to develop and 
demonstrate the technologies that would enable a transition from 
thermal power reactors to a proliferation resistant ``full actinide 
recycle'' mode with fast reactors.
    The question implicitly acknowledges the benefits of a market-
driven deployment strategy for fast reactors, assuming the R&D is 
started now to enable deployment at the optimum time. The advantages 
cited in the question, ``The delay would buy time for additional R&D to 
optimize and bring down the cost of fast reactors and fast reactor 
fuel,'' are quite valid. The point that the EPRI-INL Strategy Paper 
makes about these advantages is that they apply equally to the timing 
of deployment of the required reprocessing facilities. Again, the R&D 
must be done now, so that all recycling technologies are ready to 
deploy when needed.
    Accelerating the reprocessing part of recycling ahead of fast 
reactor deployment (including fast reactor fuel fabrication 
facilities), before it is cost-effective to do so, has no advantages in 
terms of spent fuel management and non-proliferation. In fact, the 
recycling technology available today has a number of limitations that 
effectively eliminate it as an option to accomplish the objectives of 
GNEP. In comparison, the ``full actinide recycle'' option that GNEP 
supports does have significant long-term promise in accomplishing these 
missions. However, it will require much more R&D before being ready to 
deploy.
    A summary of the disadvantages of implementing the single-pass or 
MOX recycle technology in thermal reactors in the U.S. follows:

        <bullet>  Current reprocessing technology carries a number of 
        additional costs and new, potentially controversial, safety 
        licensing and environmental permitting issues associated with 
        the processing and storage of new waste streams.

        <bullet>  Single pass MOX recycling without treatment and 
        recycling of the used MOX fuel in fast reactors does not 
        provide any significant benefits to high-level waste management 
        in comparison to an open fuel cycle. Until recycling in fast 
        reactors becomes operational, spent MOX fuel will need to be 
        placed in interim storage systems. Not only is single pass MOX 
        recycling in itself not an alternative to Yucca Mountain, it 
        also fails to address the expanded repository space needs that 
        would result from increased reliance on nuclear energy as a 
        baseload energy supply source.

        <bullet>  Many energy policy and national security policy 
        leaders are opposed to reprocessing on proliferation grounds 
        (because the current technology approach separates pure 
        plutonium).

        <bullet>  Reprocessing introduces its own issues associated 
        with safeguards and public acceptance.

    Examples of policy statements supporting the R&D to enable full 
actinide recycle, (implicitly noting its advantages over single-pass 
recycle) include:

        <bullet>  ``The NEPD Group recommends that, in the context of 
        developing advanced nuclear fuel cycles and next generation 
        technologies for nuclear energy, the United States should re-
        examine its policies to allow for research, development, and 
        deployment of fuel conditioning methods (such as 
        pyroprocessing) that reduce waste streams and enhance 
        proliferation resistance. In doing so, the United States will 
        continue to discourage the accumulation of separated plutonium, 
        worldwide. (National Energy Policy, May 2001, emphasis added)

        <bullet>  ``The United States should also consider 
        technologies, in collaboration with international partners with 
        highly developed fuel cycles and a record of close cooperation, 
        to develop reprocessing and fuel treatment technologies that 
        are cleaner, more efficient, less waste intensive, and more 
        proliferation resistant.'' (National Energy Policy, May 2001, 
        emphasis added)

        <bullet>  ``In a manner consistent with the long standing 
        moratorium on commercial reprocessing. . .the government should 
        continue to support research and development, for potential 
        future application, on advanced reactor and fuel-cycle concepts 
        offering promise of lower costs, reduced waste-management 
        burdens, and significantly higher barriers to theft and 
        diversion of weapon-usable material than do the current 
        reprocessing and breeder technologies'' (National Commission on 
        Energy Policy, December 2004, emphasis added)

    Even though reprocessing is not economic today, this cost 
disadvantage will diminish and potentially reverse itself over time, as 
uranium resources become more scarce, as R&D develops less expensive 
means of reprocessing, and as R&D develops fast reactor designs capable 
of using reprocessed spent fuel that are more cost-competitive with 
Light Water Reactors as power generators.
    Some have argued that a reason to accelerate reprocessing is that 
it is needed in the near-term to avoid building additional spent fuel 
repositories. EPRI analyses do not support this view. As stated in the 
EPRI-INL Strategy Paper, ``Even with the extended timetable for 
introducing fuel recycle in the U.S., a single expanded-capacity spent 
fuel repository at Yucca Mountain is still adequate to meet U.S. needs. 
Construction of a second repository is not required under this 
timetable. If, however, reprocessing is implemented on an accelerated 
schedule before it is economic to do so based on fuel costs, then the 
Federal Government will need to bear a much larger cost.''
    Others have argued that a reason to accelerate reprocessing is that 
it is needed to implement the assured fuel supply and used fuel take-
back regime proposed by GNEP. Although this supply and take-back regime 
is a critically important aspect of GNEP, the deployment of recycling 
technologies is not a prerequisite to its implementation. For this 
regime to gain acceptance among user nations, the U.S. and other fuel 
supplier nations must provide assurance of their ability to meet 
commitments for both fuel supply and take-back, in order to obtain 
early commitments from the user nations to forgo enrichment and 
reprocessing. This is an important reason why completion of centralized 
interim spent fuel storage facilities and a permanent repository are 
urgent to success of the fuel supply and take-back regime, even before 
recycling is ready.

Q2.  When would you anticipate that R&D would lower the cost--or 
uranium prices would rise high enough--to motivate commercial interest 
in recycling technologies?

A2. The EPRI-INL Strategy Paper projects that reprocessing in a large 
scale demonstration plant would begin operation by about 2030, with 
fast reactor technology demonstration in the same timeframe. Smaller 
scale pilot demonstrations may be feasible earlier than 2030. Full 
scale commercial deployment would occur in the 2050 timeframe.
    The reactor technology part of this integrated strategy develops 
fast reactors to recycle light water reactor spent fuel in order to 
transmute minor actinides as well as produce electricity. Following a 
demonstration plant, built and operated with government funding by 
about 2035, new fast reactors are deployed commercially, with 
government subsidy as needed for the waste-transmutation mission. In 
the long-term, the price of uranium increases to a level that supports 
recycle and eventually breeding.
    Thus, the EPRI-INL Strategy Paper envisions the commercial 
deployment of recycling facilities on a large scale basis in roughly 
the mid-century timeframe. On the R&D side of the question, the EPRI-
INL Strategy Paper concluded that the significant technical, cost, and 
licensing challenges facing these advanced technologies will determine 
these deployment time frames, even with an aggressive technology 
development program. An aggressive recycling technology development 
program, even if it takes longer than currently envisioned, will be 
beneficial, and eventually strategically vital to national energy 
security and sustainability. On the uranium resource and market demand 
side of the question, the Strategy Paper assumed a mid-century rise in 
uranium costs sufficient to provide a market incentive for a closed 
fuel cycle, based on both national and international estimates of 
uranium fuel supplies. However, the variables in this estimate are 
large, and depend heavily on assumptions of future growth in nuclear 
energy and the rate at which the world increases its reliance on 
nuclear energy.

Questions submitted by Representative Michael M. Honda

Q1.  If industry does not buy-in to the GNEP concept, it will cost the 
taxpayer untold billions and not go forward as proposed. What has been 
the role of industry in developing the GNEP concept? Has DOE solicited 
and received feedback from industry regarding commercial development of 
fast reactors? Why has no U.S. vendor proceeded with development of 
fast reactors as envisioned in GNEP?

A1. Although EPRI was not asked for input prior to the formal 
announcement of the GNEP program in February 2006, and EPRI is not 
aware of any significant industry role in developing the GNEP concept, 
EPRI supports the vision and goals of the GNEP, as we have formerly 
testified. The EPRI testimony noted six areas of significant agreement 
between the EPRI-INL Strategy Paper and GNEP, including a high priority 
for near-term deployment of ALWRs and the licensing of Yucca Mountain, 
as well as the need to develop fast spectrum reactors to close the fuel 
cycle with ``full actinide burning.'' Industry strongly supports the 
non-proliferation goals of GNEP.
    Based on recent discussions of the EPRI-INL Strategy Paper with 
DOE's Office of Nuclear Energy, it appears that industry input to GNEP 
will be a priority for DOE. EPRI worked closely with INL in developing 
the Strategy Paper, and is very confident that INL sees commercial 
industry input as a high priority.
    EPRI looks forward to the opportunity to work with DOE on a 
consensus R&D strategy for the future, including near-term deployment 
of ALWRs, integrated spent fuel management, expansion of nuclear energy 
into process heat and hydrogen missions, and strategic deployment of 
nuclear fuel recycling in ways that are cost-effective and 
proliferation-resistant.
    DOE has noted that GNEP is primarily a federal initiative for 
governmental purposes. Although EPRI cannot speak for the vendors, 
EPRI's utility members are presently focused on maintaining excellent 
performance of current plants and preparing for near-term deployment of 
ALWRs. These are the areas that utilities have been willing to cost-
share with DOE to date. EPRI and its members are interested in helping 
inform the R&D agenda for long-term, higher risk programs. If the R&D 
is successful, history suggests that the private sector will be willing 
to cost share the deployment of advanced reactor and fuel cycle 
systems. EPRI believes that the most effective way to encourage private 
sector investment is to engage in joint planning efforts at an early 
stage, in a manner consistent with the EPRI-INL Strategy Paper and the 
``80-20 paradigm'' discussed therein.

Question submitted by Representative Eddie Bernice Johnson

Q1.  Congress has the responsibility to take on national imperatives 
such as lessening both dependence on fossil fuels and environmental 
impact of energy use. GNEP may be one step in that direction. What is 
the prospect for nuclear energy, and specifically GNEP, in replacing 
fossil fuels in the future?

A1. The prospect for nuclear energy to expand and assume a greater role 
in providing baseload electricity for the U.S. and other nations is 
very promising, with clear indications of government and investor 
support for that expansion in the near-term. Longer-term expansion of 
nuclear energy into process heat applications, not presently a part of 
GNEP, is also promising.
    EPRI is a nonprofit scientific research organization that manages a 
broad collaborative energy R&D program for the Nation's electric 
utility industry, with significant international utility participation. 
Its R&D programs cover all technologies for electricity generation, 
transmission, distribution, and end-use. Specifically with respect to 
generation, EPRI advocates a diverse portfolio where nuclear plays a 
key role, along with clean coal, natural gas and renewables, wind, 
biomass and solar.
    EPRI believes that national policies and private sector investment 
strategies will trend toward greater reliance on low-emission or 
emission-free generation in the future, including reduced emissions of 
greenhouse gases. Therefore, EPRI is focusing much of its R&D in the 
generation sector on technologies that would support a carbon-
constrained world. This future world will depend increasingly on 
nuclear energy, renewable energy, and carbon capture and sequestration 
of fossil fuel emissions.

Questions submitted by Representative Lincoln Davis

Q1.  The nuclear industry charges rate payers 0.1 cents per kilo-Watt-
hour (kWh) of electricity to pay for disposal of used nuclear fuel. 
Please provide an estimate of how much this will increase to pay for 
the construction of GNEP facilities and their operation.

A1. The EPRI-INL Strategy Paper calls for an integrated and cost-
effective spent fuel management plan. The linchpin of this strategy is 
the repository at Yucca Mountain. Not only is a permanent geologic 
repository needed under all strategies and scenarios for the future, 
but near-term progress on licensing of Yucca Mountain is essential to 
expanding nuclear energy.
    Other key elements of this integrated strategy include:

        <bullet>  Allowing for expansion of the Yucca Mountain site to 
        its full technical capacity,

        <bullet>  Reducing the rate of spent fuel generation per unit 
        power output via development of high performance LWR fuel,

        <bullet>  Maintaining engineered cooling of the repository well 
        in excess of 50 years prior to closure,

        <bullet>  Providing for interim centralized storage or ``aging 
        pads'' for dry canister passive cooling,

        <bullet>  Deploying multi-purpose canisters approved by NRC,

        <bullet>  Implementing an effective spent fuel transportation 
        system, and

        <bullet>  Eventual recycling of spent fuel to reduce volume and 
        heat rate, thus making much more effective use of repository 
        space.

    These steps, if taken together and coordinated, provide ample time 
for the long-term R&D to be completed, before concerns arise as to the 
need for a second repository.
    The costs of establishing centralized interim storage and of 
completing Yucca Mountain are covered by the Nuclear Waste fund (funded 
by a fee paid by nuclear generating plants). The costs of R&D and 
deployment of closed fuel cycle facilities are not authorized expenses 
to be recovered from the Nuclear Waste Fund. The Strategy Paper assumed 
that eventually, after centralized interim storage requirements are met 
and Yucca Mountain is in operation, and as uranium fuel prices justify 
a shift from an open to a closed nuclear fuel cycle, that Nuclear Waste 
Fund revenues, at the current fee rate of one mil/KWH), would be used 
by the U.S. Government to defray the costs of closed fuel cycle 
facilities.
    Presently, the nuclear industry in the U.S. pays for all of its 
environmental externality and safety regulation costs, including high 
level and low level waste management, pre-paid decommissioning funds, 
self-insurance under Price Anderson, the full costs of nuclear plant 
regulation by the U.S. NRC, emergency planning expenses, etc. In the 
case of spent fuel management costs, roughly 18 billion dollars of the 
27 billion dollars of nuclear utility ratepayers' money that has been 
collected into the Nuclear Waste Fund to date has not yet been 
appropriated for its intended purpose.
    While many comparable costs for other energy generation options are 
paid for by taxpayers, the assumption that government would continue to 
charge nuclear utilities for environmental externality expenses is a 
reasonable expectation. However, the EPRI-INL Strategy Paper assumes 
that government would impose on industry the costs of the least-cost 
spent fuel management strategy available. If government, for its own 
reasons, implements a more costly means of spent fuel management, then 
the EPRI-INL Strategy Paper assumes that government would pay the 
difference, and that Congress would not increase the amount of this fee 
when recycling facilities are deployed.

                              Appendix 2:

                              ----------                              
                   Additional Material for the Record

                    Statement of Harold F. McFarlane
               President-elect, American Nuclear Society
Madame Chair:

    On behalf of the 10,000 members of the American Nuclear Society, I 
am pleased to provide testimony to the Subcommittee on the 
Administration's recently released Global Nuclear Energy Partnership 
(GNEP) initiative.
    The ANS applauds the administration for stepping forward with the 
GNEP concept. For more than a decade, ANS has, through a series of 
conferences, challenged global nuclear technology leaders articulate a 
broad vision of how the world can greatly expand the peaceful use of 
nuclear energy while minimizing the risks of proliferation.
    The organizational and technological frameworks that have emerged 
from these meetings closely resemble the tenets embodied in GNEP. 
Indeed, I would submit that a GNEP-like effort to recycle spent nuclear 
fuel and create a multilateral ``fuel bank'' to facilitate the 
expansion of nuclear power generation to developing nations is 
essentially an inevitability in the decades ahead.
    As such, the debate about GNEP today should not be about ``if'' we 
will accomplish the broad objectives embodied in the plan, but rather 
``what'' we should do now to prepare for it.
    The ANS recognizes that there are political hurdles that must be 
addressed before the benefits contemplated by GNEP can be realized; 
most notably the Yucca Mountain Waste Repository. ANS believes Yucca 
Mountain is both scientifically and environmentally sound, and that DOE 
should move forward with urgency to obtain a license from the Nuclear 
Regulatory Commission and commence operations.
    Nevertheless, the central challenge to GNEP is technology. There 
are several scientific and engineering hurdles that need to be overcome 
for Congress and the administration to make a ``go-no-go'' decision in 
the next few years. As such, ANS urges Congress to provide funding 
sufficient to permit timely results from GNEP-related research on UREX+ 
recycling, transmutation, pyroprocessing, fast reactor technology and 
integrated safeguards technology.
    Creating the technology, political, regulatory and human 
infrastructure needed to realize this vision will take several decades. 
For the benefits of GNEP to begin accumulating in the future, the ANS 
believes that it is essential to start building GNEP's foundation now. 
For the U.S., the building blocks that will enable the benefits of 
future nuclear expansion are new plant construction, establishing the 
Yucca Mountain geologic repository, accelerated research on advanced 
fuel cycle technologies, and development of human capital.
    The ANS applauds this subcommittee for its ongoing efforts to 
facilitate discussion about the future of nuclear technology, and we 
look forward to playing a constructive role in the debate.

</pre></body></html>
